<html>
<title> - EFFECTS OF PERFORMANCE ENHANCING DRUGS ON THE HEALTH OF ATHLETES AND ATHLETIC COMPETITION</title>
<body><pre>[Senate Hearing 106-1074]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 106-1074

 EFFECTS OF PERFORMANCE ENHANCING DRUGS ON THE HEALTH OF ATHLETES AND 
                          ATHLETIC COMPETITION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 20, 1999

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


75-594              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
SLADE GORTON, Washington             JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia
KAY BAILEY HUTCHISON, Texas          JOHN F. KERRY, Massachusetts
OLYMPIA J. SNOWE, Maine              JOHN B. BREAUX, Louisiana
JOHN ASHCROFT, Missouri              RICHARD H. BRYAN, Nevada
BILL FRIST, Tennessee                BYRON L. DORGAN, North Dakota
SPENCER ABRAHAM, Michigan            RON WYDEN, Oregon
SAM BROWNBACK, Kansas                MAX CLELAND, Georgia
                       Mark Buse, Staff Director
                  Martha P. Allbright, General Counsel
     Ivan A. Schlager, Democratic Chief Counsel and Staff Director
               Kevin D. Kayes, Democratic General Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held October 20, 1999....................................     1
Statement of Senator Cleland.....................................     4
Statement of Senator McCain......................................     1
    Prepared statement...........................................     2
Statement of Senator Stevens.....................................     7
Statement of Senator Wyden.......................................     3

                               Witnesses

Campbell Hon., Ben, Nighthorse, U.S. Senator from Colorado.......     5
Coleman, Doriane, Lambelet, Professor, Duke University, School of 
  Law............................................................    85
    Prepared statement...........................................    88
Hogshead, Nancy, U.S. Olympic Gold Medalist......................    36
    Prepared statement...........................................    38
Hybl, William, President, United States Olympic Committee........    52
    Prepared statement...........................................    54
McCaffrey, Barry R., Director, Office of National Drug Control 
  Policy, Executive Office of the President......................     8
    Prepared statement...........................................    12
Pound, Richard W., First Vice President, International Olympic 
  Committee......................................................    56
    Prepared statement...........................................    58
Serota, Scott, Executive Vice President and chief operating 
  officer, Blue Cross and Blue Shield Association................    31
    Prepared statement...........................................    33
Shorter, Frank, U.S. Olympic Gold Medalist.......................    43
    Prepared statement...........................................    47
Wadler, M.D., Gary I., Associate Professor of Clinical Medicine, 
  New York University School of Medicine.........................    77
    Prepared statement...........................................    79

                                Appendix

Doriane Lambelet Coleman, memorandum dated October 13, 1999, 
  along with a Final Conference Report..........................108,112
Wadler, Gary I., memorandum to Hon. John McCain dated October 14, 
  1999...........................................................   103
Response to written questions by Hon. John McCain to:
    Nancy Hogshead...............................................    98
    William Hybl.................................................   103
    Barry R. McCaffrey...........................................    94
    Richard W. Pound.............................................   100
    Scott Serota.................................................   102
    Frank Shorter................................................    93
    Gary I. Wadler...............................................    97

 
 EFFECTS OF PERFORMANCE ENHANCING DRUGS ON THE HEALTH OF ATHLETES AND 
                          ATHLETIC COMPETITION

                              ----------                              


                      WEDNESDAY, OCTOBER 20, 1999

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:40 a.m., in 
room SD-106, Dirksen Senate Office Building, Hon. John McCain, 
chairman of the committee, presiding.
    Staff members assigned to this hearing: Robert Taylor, 
Republican counsel; and Moses Boyd, Democratic counsel.

            OPENING STATEMENT OF HON. JOHN MCCAIN, 
                   U.S. SENATOR FROM ARIZONA

    The Chairman. The committee meets today to consider an 
important matter. We will begin this hearing.
    Earlier this year, this Committee conducted a hearing into 
the bribery and corruption scandal resulting from the Salt Lake 
City's bid to host the 2002 Winter Olympics. Similar 
revelations have since emerged regarding the Atlanta bid 
efforts.
    There was, and is, a sense of urgency about these scandals 
that seem to surpass what we might normally expect from such 
events. The reason for this extraordinary concern, I believe, 
is that the corruption scandal threatens something more basic. 
It threatens the integrity of the Olympic games.
    Olympic competition has always been a great leveler, where 
agendas are left behind in the common pursuit of excellence. 
However, this ideal is now threatened by something far more 
destructive than bureaucratic corruption.
    The explosion in the use of performance enhancing drugs 
threatens to debase the integrity of Olympic competition 
itself. Recent years have seen an ever-accelerating rate of 
drug use among athletes.
    Revelations about the use of performance enhancing drugs 
have served to both expose the complexity of the challenge of 
detection and enforcement of drug policies, and the gross 
shortcomings of the existing United States Olympic Committee 
and the International Olympic Committee efforts to address the 
challenge.
    What I wish to underscore by this hearing is that there are 
no simple solutions to this challenge. As our nation has seen 
in its failed war on drugs, success in curbing drug use of any 
kind is illusive. However, a consensus on the necessary 
elements of an approach to curbing the use of performance 
enhancing drugs exists.
    The first step is the establishment of an independent or 
external agency to perform year-round, out-of-competition 
testing for banned substances. The governing board of this 
agency must include significant athlete representation and must 
have complete control over the administration, analysis, and 
reporting of drug tests.
    Testing must be universal in that all athletes wishing to 
compete in the Olympic games should be required to submit to 
the testing regime established by this independent agency. 
Significant investment should be made in the research and 
development of advanced technologies and strategies for the 
detection and verification of the use of banned substances.
    Finally, a comprehensive and sustained anti-drug and sports 
ethics education program should be developed and implemented.
    In an effort to achieve these final two objectives, I and 
others will soon introduce legislation providing for grants to 
United States universities to conduct research and development 
programs designed to develop new technologies and strategies 
for the detecting and verification of drug use among athletes.
    This legislation will also include grants to universities 
for the development and implementation of athlete drug 
education and ethics programs for university and elite 
athletes.
    Olympic competition has always served as a beacon of hope 
in an often divided world. Our United States Olympians serve as 
role models of excellence. However, as will be pointed out here 
today, performance enhancing drug use among young people is now 
on par with statistics on the use of other illegal drugs.
    We all have a vested interest in reversing this scourge. To 
fail to act decisively would result in the demise not only of a 
transcendent athletic event, but of an event that, through pure 
competition, elevates a set of ideals centered upon discipline, 
perseverance, excellence, and individual human achievement that 
are so critical in a world increasingly void of such things.
    I want to point out that one of the reasons why we are 
having this hearing is because a group of Olympic athletes came 
to my office to see me, and they expressed their deep and 
profound concern about this problem and this challenge. And 
that is the major motivating factor for this hearing to be held 
today.
    I appreciate present Olympians and past Olympians who 
remain committed to making sure that we address this issue from 
a standpoint that will ensure that the finest athletes can 
obtain their level of excellence without having any outside 
substance or any other influence that would in any way demean 
the credentials that being a true Olympian provides them with.
    [The prepared statement of Senator McCain follows:]

   Prepared Statement of Hon. John McCain, U.S. Senator from Arizona

    Earlier this year, this Committee conducted a hearing into the 
bribery and corruption scandal resulting from Salt Lake City's bid to 
host the 2002 Winter Olympics. Similar revelations have since emerged 
regarding the Atlanta bid efforts. There was, and is, a sense of 
urgency about these scandals that seems to surpass what we might 
normally expect from such events. The reason for this extraordinary 
concern, I believe, is that the corruption scandal threats something 
more basic. It threatens the integrity of the Olympic games.
    The Olympics are one of the most significant recurring global 
events. The Olympics represent a coalescing moment when we set aside 
our competing economic and nationalistic agendas celebrate the pursuit 
of simple, graceful human excellence. The triumphs that we have 
witnessed together through the Olympic games are a common experience. 
The glory of athletic achievement in one moment both elevates us above 
those things which divide us, and reduces us to the simple human 
dignity that is the essence of who we are and what we hold in common. 
The historic achievements of Jesse Owens both symbolized athletic 
excellence and spoke eloquently of freedom and equality in the face of 
a dictator. The grace and elegance of eastern European gymnasts during 
the 70's and 80's became a silent, yet deafening expression of 
individualism in the cold world of communist oppression. The stunning 
victories of today's athletes like Picabo Street define the rugged 
individualism and freedom that is sweeping the world.
    Olympic competition has always been a great leveler, where agendas 
are left behind in the common pursuit of excellence. However, this 
ideal is now threatened by something far more destructive than 
bureaucratic corruption. The explosion in the use of performance 
enhancing drugs threatens to debase the integrity of Olympic 
competition itself. Recent years have seen an ever-accelerating rate of 
drug use among athletes. Revelations about the use of performance 
enhancing drugs have served to both expose the complexity of the 
challenge of detection and enforcement of drug policies, and the gross 
shortcomings of the existing United States Olympic Committee and the 
International Olympic Committee efforts to address the challenge.
    What I wish to underscore by this hearing is that there are no 
simple solutions to this challenge. As our nation has seen in its 
failed war on drugs, success in curbing drug use of any kind is 
illusive. However, a consensus on the necessary elements of an approach 
to curbing the use of performance enhancing drugs exists.
    The first step is the establishment of an independent or external 
agency to perform year-round, out of competition testing for banned 
substances. The governing board of this agency must include significant 
athlete representation and must have complete control over the 
administration, analysis, and reporting of drug tests. Testing must be 
universal in that all athletes wishing to compete in the Olympic games 
should be required to submit to the testing regime established by this 
independent agency. Significant investment should be made in the 
research and development of advanced technologies and strategies for 
the detection and verification of the use of banned substances. 
Finally, a comprehensive and sustained anti-drug and sports ethics 
education program should be developed and implemented.
    In an effort to achieve these final two objectives, I will soon 
introduce legislation providing for grants to United States 
universities to conducted research and development programs designed to 
develop new technologies and strategies for the detection and 
verification of drug use among athletes. This legislation will also 
include grants to universities for the development and implementation 
of athlete drug education and ethics programs for university and elite 
athletes.
    Olympic competition has always served as a beacon of hope in an 
often divided world. Our United States Olympians serve as role models 
of excellence. However, as will be pointed out here today, performance 
enhancing drug use among young people is now on par with statistics on 
use of other illegal drugs. We all have a vested interest in reversing 
this scourge. To fail to act decisively would result in the demise not 
only of a transcendent athletic event, but of an event that, through 
pure competition elevates a set of ideals centered upon discipline, 
perseverance, excellence, and individual human achievement that are so 
critical in a world increasingly void of such things.

    The Chairman. Senator Wyden.

                 STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you, Mr. Chairman.
    Mr. Chairman, I want to commend you for holding this 
hearing and particularly for following through. It would have 
been very easy after the first hearing to just drop this whole 
matter and just let it slide. I commend you for your 
leadership.
    What we learned at our first hearing, Mr. Chairman, and for 
all those who are following this, is that the International 
Olympic Committee is not exactly tripping over itself to 
initiate the needed reforms. Time and time again, the 
International Committee has talked about initiating changes in 
this area. It is fair to say that their approach has been all 
windup and no pitch.
    Each time we have seen a scandal on the doping area, the 
International Olympic Committee has announced and then failed 
to actually follow through on concrete plans to curb doping. 
They have talked, yet again, about initiating changes for the 
2000 games, but my sense is that nobody should stay up waiting 
to see these reforms actually put in place.
    The real tragedy, it seems to me, is that it would not take 
a dramatic set of new steps to make a real difference in 
curbing performance enhancing drugs. For example, seven 
countries have already joined together in an international 
anti-doping arrangement.
    This independent and respected group could be expanded, but 
my understanding is that the International Olympic Committee 
has not even consulted this group about a new kind of approach, 
a truly independent approach of this nature.
    The International Olympic Committee appears far more 
interested in spending $150 million to polish up its 
international image than to try and clean up the tarnished 
medals that it is awarding.
    The reason it is so important that we go forward with this 
effort, Mr. Chairman, is that we are seeing a public health 
crisis with respect to these drugs in American youths. It seems 
that now the same number of kids using some kind of steroid, is 
the number that are using cocaine.
    We know that these kinds of drugs can cause high blood 
pressure, heart disease, liver damage, cancer, strokes, and 
blood clots, and to see so many youngsters get caught up in 
this spiral of dangerous drugs is truly alarming. So I am very 
pleased that you are following up on this effort, Mr. Chairman.
    As you know, Senator Stevens, the Chairman of the 
Appropriations Committee, has had a long-standing interest in 
this matter as well. I have talked with him, as well as you. I 
am very pleased that you are going to be introducing that 
legislation. I look forward to being one of your cosponsors in 
this effort and working with you as we have on so many issues 
of a bipartisan basis.
    The Chairman. Thank you, Senator Wyden.
    [The prepared statement of Senator Cleland follows:]

   Prepared Statement of Hon. Max Cleland, U.S. Senator fron Georgia

    Thank you Mr. Chairman for convening this hearing. It is obvious 
that the increasing use of performance enhancing drugs is having a 
negative effect on international athletic competition, on the health of 
the athletes involved and, finally, on the children that aspire to be 
just like the champions they see on TV.
    I would also like to thank General McCaffrey for coming before this 
Committee to discuss the problems of drug use and doping in sports. No 
one person has worked harder than General McCaffrey to stop the spread 
of illegal drug use in this country. I am especially pleased to be a 
part of his efforts to raise the awareness of youngsters about the 
dangers of drugs and to encourage parents to play a more active role in 
helping their children stay drug-free. I have long been a proponent of 
full funding for the National Youth Anti-Drug Media Campaign, sponsored 
by his office. What was started as a pilot program in 1997 has expanded 
into a national media project that reaches as many as 9000 of our young 
people, four to seven times a week. I suspect this campaign has had an 
influence in producing the good news reported in the latest National 
Household Survey on Drug Abuse: this past year saw a 13% drop in 
overall drug use by our nation's youth!
    While this represents substantial progress in getting out the 
message on the dangers of drug abuse, I am concerned that these efforts 
will be nullified if our children see professional athletes--who should 
be role models for America's kids--utilizing performance-enhancing 
drugs. I have noted that overall drug use among our youth is down, yet 
statistics show that the use of performance-enhancing drugs among 
America's children is on the rise. This issue is not new to us, but it 
is one which we have been slow to address. The use of performance-
enhancing drugs by athletes has existed--it seems--as long as the 
Olympic Games themselves. And now, we are hearing calls from our 
athletes to put an end to this ancient cycle of corruption. I believe 
it is high time that we heed this call.
    In 1996, my home state hosted the world during the Centennial 
Olympic Games. Historically these Games have provided a peaceful venue 
for athletic competition and have resulted in the triumph of hundreds 
of American athletes. Today, as we address the charges about the 
illegal use of drugs and steroids, we should remember the spirit behind 
the Olympic athlete's oath: ``In the name of all the competitors I 
promise that we shall take part in these Olympic Games, respecting and 
abiding by the rules which govern them, in the spirit of sportsmanship, 
for the glory of sport and the honor of our teams.'' Mr. Chairman, I am 
aware that one of the reasons for discontinuing the ancient Games in 
Greece was drug use. It is imperative that we not allow history to 
repeat itself on our watch.
    Thank you, Mr. Chairman. I look forward to hearing from our 
witnesses today.

    The Chairman. We are now honored with the presence of 
Senator Ben Nighthorse Campbell, a former Olympic competitor 
himself, and a long time supporter of the Olympics.
    I thank you, Senator Campbell, for being here.

          STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, 
                   U.S. SENATOR FROM COLORADO

    Senator Campbell. Thank you, Mr. Chairman. I apologize for 
being a little late. My schedule said that you were supposed to 
start after the vote at 10. I guess the vote was moved and I 
did not hear that. I apologize for being late.
    I do thank you for the opportunity to address the Committee 
and make a few comments. As you know, I have a particular 
interest in this matter. You mentioned I was a member of the 
U.S. Olympic team, and I am very proud of that.
    In fact, some years ago, then Senator Bill Bradley and 
Congressman Tom McMillan and I started a U.S. Congressional 
Olympic caucus which was basically designed to get the message 
to our colleagues here in the House and the Senate both about 
what the Olympic movement is about in the United States; and 
also to try to have young Olympic athletes visit the Hill, to 
meet their Congressman, and meet their Senators on a first-hand 
basis.
    But, like most Olympic athletes who have had the 
opportunity to represent the United States in a very, very 
glorious and wonderful experience, I am deeply disturbed about 
this relatively new problem of performance enhancing agents, 
commonly called doping or drugs.
    I cannot remember it being that big of a problem years ago 
when I was competing or when I was coaching for almost 10 years 
after I retired in 1964 from competition. But there were some 
things being done.
    I think it is important, as I have mentioned to you before, 
Mr. Chairman, to remember that the United States Olympic 
Committee and the International Olympic Committee are two 
different bodies. Now they are affiliated, but the IOC does not 
take its orders from the United States Olympic Committee.
    Even in those years ago, there were certainly rumors of 
enhancing performance. One of the most common in those days was 
called blood doping, which was a method of super charging your 
body by taking blood out beforehand and then putting more blood 
back into your system--your own blood, by the way --back into 
your system just before a competition.
    Thereby, enabling the blood stream to carry more oxygen 
than hemoglobin, and you would literally have much more stamina 
and endurance, particularly for distance events and cycling, 
things of that nature. There were rumors of that being done. 
Certainly, early on, we had heard of the use of steroids, too. 
But I did not know of it as being wide spread.
    It may be much more widely spread now since it seems to be 
on the media quite a bit more. But it probably is growing. But 
I would like to repeat, the United States Olympic Committee, as 
near as I can tell, and having their headquarters in my State 
of Colorado and paying pretty regular visitor to the Olympic 
Committee, and knowing the President, Mr. Bill Hybl very well, 
and many of the members of the Olympic Committee, too, I know 
that the U.S. Olympic Committee takes very seriously the 
question of doping and considers that problem a fundamental 
matter of cheating, as they always have.
    I want to commend them for the positive steps they have 
taken to detect and prevent serious problems of doping in the 
future. I understand that it is the intent of the USOC to take 
immediate action in order to detect and prevent doping as soon 
as the upcoming 2000 Olympics in Australia. That quick and 
decisive action is attributable to the USOC and the entire 
Olympic movement.
    As a former Olympian, I certainly applaud that aggressive 
stance. The current rules, in fact, of the USOC are so strict 
that even things such as antihistamines that are taken for the 
common cold, or caffeine from too many cups of coffee in a day, 
or some of the very common over-the-counter asthma medicines, 
even some of those things can show up in a drug test that the 
USOC does for athletes. So, it is very, very strict.
    I think it is important that Olympic competitors, in fact, 
not just for America, but for all countries, serve as the role 
models for today's youths. We certainly need them and we cannot 
afford to send the message that it is acceptable for any 
athlete from Little League to Olympian to rely on performance 
enhancing drugs in order to play a better game.
    I prefer to think we ought to do it the old-fashioned way, 
through hard work, through perseverance, through practice, 
through confidence, through good coaching, and perhaps improved 
diets and things of that nature.
    But we know that we cannot make a rule to make all other 
countries abide by it. Even in the years I competed, some of 
the stories that we were hearing about then, some of the Soviet 
Olympic Committee or team members, were on many performance 
enhancing drugs.
    We do not condone that, and I am sure that there is every 
effort being made to try to make sure that the IOC makes 
tighter and tighter rules for their athletes.
    But I would just like to say, I have been very happy 
working with the U.S. Olympic Committee in this endeavor. I 
have no doubt that this program will make great strides in the 
elimination of doping in future Olympic sports.
    I just wanted to commend you on doing this hearing. I also 
will note with interest that General McCaffrey has had an 
ongoing interest in this, too.
    As the Chairman of the Treasury Subcommittee which oversees 
the budget for the drug Czar as you know, Mr. Chairman, I have 
worked very closely with the General, and am absolutely 
confident that his input can be of great use to our 
international movement for making sure that drug enhancing 
agents are not used for our athletes.
    Thank you for giving me the time, Mr. Chairman.
    The Chairman. Thank you very much, Senator Campbell.
    We are at an unfortunate point where there is a vote on and 
I think the best thing to do, Senator Wyden, is just to go and 
vote and come back. Obviously, Senator Campbell, you are 
welcome to join us here.
    Senator Campbell. Thank you, Mr. Chairman. I have to Chair 
a hearing myself so I will not stay.
    The Chairman. OK.
    Mr. McCaffrey, I want to extend an apology to you and the 
other witnesses. It will take us approximately five to 7 
minutes to get over and back. I am a little quicker than 
Senator Wyden is, so I will probably be back before him. So, we 
will take a brief break here.
    [Recess.]
    The Chairman. General, we will start back again.
    The hearing will come back to order and I note the presence 
of Senator Stevens who was literally the father of all 
legislative efforts concerning United States involvement in the 
Olympics.
    Senator Stevens, do you have any opening comments before 
General McCaffrey makes his statement?

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. Yes, very briefly. I commend you for 
holding these hearings.
    It is just about 20 months ago that Don D. Broda and I went 
to Lausanne to talk to Mr. Samaranch about the issue of doping. 
I think the IOC and the U.S. Olympic Committee had been working 
very hard on the issue.
    I am anxious to hear the testimony of the witnesses, and I 
do think it is a subject that we have got to work on to ensure 
that there is a program that is effective and fair to the 
athletes at all levels.
    Thank you very much.
    The Chairman. Thank you, Senator Stevens.
    General McCaffrey, welcome.

 STATEMENT OF GENERAL BARRY R. MCCAFFREY, DIRECTOR, OFFICE OF 
NATIONAL DRUG CONTROL POLICY, EXECUTIVE OFFICE OF THE PRESIDENT

    General McCaffrey. Mr. Chairman, thanks very much for the 
chance to testify in front of your Committee. I want to thank 
you, Senator Hollings, and Senator Stevens, in particular, for 
your leadership on this issue over the years and for crafting 
the Amateur Sports Act which essentially is our fundamental 
document in how we approach this in the government.
    Now let me also recognize several people in the room that 
have been either called by you to testify or who helped craft 
our own thinking on this issue. The Drug Enforcement 
Administration Acting Administrator, Donnie Marshall is 
present, Secretary Shalala's team is present, Christine Quinn 
and Tom Vischi, and from the State Department, Donna Gialotti 
is present, all have been very much involved in this project 
from the beginning.
    We have also worked very closely in forming our own ideas 
with Bill Hybl, at the U.S. Olympic Committee, and also Dick 
Schultz and Dr. Barron Pittenger. Bill will, of course, testify 
later, and we look forward to continuing our partnership with 
him.
    Possibly, most importantly, I have sought out the advice 
and counsel of some of our athletes, the people who have helped 
shape the sport, who stand as symbols to all of us on what we 
are trying to achieve.
    Frank Shorter, I know, will testify in front of this 
Committee. He joined my delegation to Lausanne, Switzerland, in 
January, 1999 to talk to the issue. He will join me in 
Australia in November, 1999 at the 26 Nations Summit, to 
address the problems of doping in Olympic sports. We appreciate 
his counsel.
    Carl Lewis is not here, the fastest man on earth, but he 
has been very much involved with us.
    I very much appreciate Nancy Hogshead being here, a 
spectacular, nationally known athlete. She and Donna de Varona, 
who I have taken to calling the First Lady of American sports, 
have been instrumental in our own thinking. Donna will come 
with me to Australia as part of our official delegation.
    Finally, Edwin Moses has been a prime architect of our own 
thinking on the National Drug Control Strategy as it relates to 
sports.
    Dr. Gary Wadler and Professor Doriane Coleman have both 
been essential to the drug strategy that I will release today.
    I would like to point out Mr. Scott Serota is here, 
representing Blue Cross/Blue Shield. They have recently formed 
the Healthy Competition Foundation which we expect will assist 
in one of the greatest shortcomings we have which is the lack 
of adequate scientific research on this issue.
    Finally, Mr. Chairman, let me point out someone who I will 
use as a prop, Joy Avedesian, one of our own ONDCP interns. She 
is a UC Irvine student here for a semester with us. She is a 
Big West scholar athlete, played on a championship team and is 
also a youth soccer coach.
    At the end of the day, she and her efforts are really what 
we are talking about as well as the 100 athletes on the face of 
the earth who may be capable of winning an Olympic gold medal 
in a given sport.
    Mr. Chairman, there are two documents I would like to offer 
for your consideration. First is our written testimony. We 
put----
    The Chairman. Without objection, your statement will be 
made part of the record, General.
    General McCaffrey. We have done a lot of work on that. It 
has been cleared by our inter agency process and we have shared 
our thinking with our own stakeholders.
    Secondly, today I am announcing that we are putting into 
public play, the U.S. and International efforts to combat drug 
use and doping in sport, for our own ONDCP attempt to carve out 
some concept to organize our thinking in the coming years. I 
offer that for your consideration.
    It is a work in progress. We do not have a fixed idea. I 
will, as I will explain, go to Europe in October and try to 
solicit the thinking of our European partners, and then I will 
go to Australia in November and talk to more than 26 nations.
    Here is the problem. The problem is a wide-spread belief in 
international competition, as well as national competition, 
which has now spread down to little league baseball and high 
school swimming, that if you want to compete and win, chemical 
engineering of human performance is part of the game.
    That is what we are concerned about, not just tarnishing 
the beauty of the Olympic movement, not just artificially 
generating standards that can never be achieved through sheer 
talent, dedication, and good coaching, but instead, we are 
worried about the snap shots--we only have one good study on 
it.
    We have a 1995 CDC study that notes that we now have a 
situation where steroid use among young girls ages 9 through 13 
in America is greater than young boys. It has hit 3 percent of 
that age group population.
    We have wide-spread use of doping agents throughout the 
United States among young adolescents. We are talking about 
550,000 kids used steroids in 1995, and the number is 
undoubtably greater now.
    We are talking about a situation where you can get on the 
Internet, order these drugs with the participation, perhaps, of 
your team doctor or team coach. They can come to you through 
international mail, and you can be involved in destructive 
chemical engineering of your own body.
    Here are two snap shots that I just put on the table and I 
will be willing to address them in greater detail.
    Joy, next chart.
    [Chart.]
    General McCaffrey. We do have a strategy, and we have 
outlined our thinking. I very much appreciate the participation 
in developing ideas, not only of my Cabinet colleagues, but 
also Thurgood Marshall and Mickey Ibarra in the White House. I 
asked Mickey to come along with me to Australia, and again, be 
part of our official delegation.
    But here is a broad overview. Here is what we are trying to 
do. Certainly one essential piece of it is that Congress gave 
me more than a half billion dollars last year for the National 
Institute of Drug Abuse. In the last 4 years, we have increased 
our funding by 36 percent on basic research, on drug abuse, and 
its implications. We fund more than 85 percent of the global 
research on this issue.
    We are willing to bring this research capability to bear 
and support not only the U.S. Olympic Committee and try to 
address our own national problems, but also in support of the 
international movement. I have made that offer in Lausanne, an 
initial offer of $1 million.
    We have the Center of Alcohol and Substance Abuse studies 
at Columbia University. Dr. Herb Kleber, and his colleagues, 
are going to carry out our initial research efforts.
    We also clearly have to have some notion of: How do we sort 
out the government's role and the oversight of both amateur 
sports anti-doping programs and our relationship with the 
international community? What roles should we take?
    I very much look forward to hearing the ideas of Congress 
in the coming year on what you think we ought to focus on. The 
other thing we have done is we have gone out and told not only 
the USOC, Bill Hybl, but also Mitt Romney, at the Salt Lake 
Olympic Committee to consider us servants of ensuring that the 
United States runs the most drug-free Olympic climate possible 
when we host the games.
    We are going to try to stand behind our leadership efforts. 
We are very impressed by both those men and what they are 
trying to achieve.
    Finally, it seems to me that a lot of the discussion has 
been focused around testing. That is essential, but there is a 
larger issue at stake which is, ``How do we talk to and have a 
dialog among American athletes and international athletes,'' 
where we capture the thinking that you will hear from the 
testimony of Nancy Hogshead and others, which suggests that 
athletes themselves want a level playing field. They do not 
wish to compete in an unfair environment.
    One of the most articulate spokespersons that I have dealt 
with, courtesy of Bill Hybl out at the Olympic village, was a 
weight lifter, Wes Barnett, who said, ``Look, I have been doing 
this 16 years, drug-free, and I never get above a bronze medal 
because I am competing against people who are artificially 
generating a capability that the human body cannot achieve 
otherwise.'' We have got to do something to support athlete's 
efforts.
    Next chart.
    [Chart.]
    General McCaffrey. There should be an international 
component to this. Now, Mr. Chairman, on this chart, we have 
outlined five principles that we put on the table.
    There is not a U.S. demand for an independent doping agency 
where we outline our views on how it should be structured, the 
rules it should engage, where it should be located. I think we 
ought to join a consensus on this.
    I would also suggest that those five principles that were 
widely accepted among our international partners in Lausanne, 
in which I still think held great credibility throughout the 
Olympic movement, are what we think are important.
    We do want to see an independent drug testing agency not 
only in the international sports movement, but here in the 
United States. We do want year round vulnerability to testing.
    In the modern era that Senator Campbell talked to, you 
cannot simply test for steroids with the gold, silver, and 
bronze medal winners. You are only going to catch the stupid 
cheaters if you do that.
    So we need year round vulnerability because the point of 
the matter is not to catch cheaters; it is to guarantee the 
competitors a level playing field. We clearly want no statute 
of limitations.
    We want to say that if we uncover Stasi East German secret 
police records years later and find out that 10,000 East German 
girls had been fundamentally damaged by steroid abuse and that 
many of their records are tarnished, we want no statute of 
limitations on that. That should run out toward the future. 
That really gets to the fourth point.
    Right now, research is inadequate to identify EPO, GHP, the 
whole range of artificial testosterone and other drugs that are 
coming on-line. We ought to freeze samples. We ought to say 
that down the line, if you are uncovered as having cheated, you 
will be stripped of your honors.
    Then finally, as I mentioned before, we need better 
research. We have to go after a problem that is not rocket 
science. There is no way that we cannot address this problem, 
if we get organized, if we capitalize on the ongoing research 
that the Brits have on-line, and others.
    Now, if I may, let me hold up two documents and talk to 
them for a second. There has been--and I really will respond to 
your questions in detail on what our problems are.
    These are two documents out of the International Olympic 
Committee. One is draft five, 9 September 1999, World Anti-
Doping Document. It is a marked-up copy. We have not gotten 
this officially. I do not believe any national government has.
    There are bodies that relate to international organizations 
that have copies of this. The EU Sports Minister has a body 
which gave her a copy, but we have not been formally notified 
of this.
    The second document out of the IOC, in August 1999, done in 
Lausanne, the Olympic Anti-Doping Code, the Medical Code. These 
two documents are unacceptable in responding to those five 
principles.
    You have to read all four corners of the documents, but 
these are not independent agencies to begin with. Indeed, the 
Olympic Anti-Doping Code talks to the notion that this 
independent agency only recommends actions to the IOC.
    Secondly, we find that if you strip out all the cover 
clauses, at the end of the day, a plenary body need only meet 
once a year. An executive committee will do the work of the 
body. That executive committee--you know, I have probably been 
15 years working with international agencies, I have never seen 
anything like it.
    This does not have the standard protections of 
transparency, of publication of records, of accountability, of 
conflict of interest clauses. They are not there and that 
executive committee, for the first year or so, will set up an 
agency and have it underway without it being responsive to the 
needs of the international community. I think it needs further 
discussion.
    It is also, probably, in the wrong place. It is co-located 
with the IOC. But, again, I do not think the U.S. has a fixed 
opinion on what the outcome should be, but we would hope that 
all of us, acting on behalf of athletes, will address those 
five principles.
    The second document is from the U.S. Olympic Committee. It 
is pretty good work. Again, I do not think it is at the end of 
its developmental cycle, but the U.S. Olympic Committee has 
gone for the notion of drug testing externalization. So we have 
the beginnings of an attempt to form a separate body that has 
power, not just to form policy or recommendations, but to make 
decisions, to adjudicate questions, to provide sanctions, to do 
research, et cetera.
    I think this probably needs more work, but I have to tell 
you, they are moving in the right direction. Hopefully, this 
document will be found compelling not just by the USOC bodies, 
by our NGBs, but also by the NCAA and possibly down the line by 
professional sports. It will say that this looks like a good 
way to get out of the dilemma we are in. So I have to commend 
them for where they have gone.
    Next.
    [Chart.]
    General McCaffrey. Here is the road ahead, and the end of 
the trail is problematic. We are grateful for this hearing and 
for the work of the Congress in identifying the problems of not 
only doping in sport, but other issues of reform of the IOC.
    We intend to take our strategy and in cooperation--this 
will be an open books process. We are going to make it 
transparent and involve all of our stakeholders. We will form a 
task force. We will try and form some more concrete thinking on 
it.
    For example, the USOC Independent Drug Testing Agency, at 
some point, needs quasi-governmental authority, that Congress 
needs to define for us. It needs to be an instrumentality of 
the United States. It needs to be able to join the IADA, which 
is only open to government bodies.
    At the same time, we have to be very respectful of the 
notion of amateur sports and the independence of amateur sports 
from Federal intervention. We will form that task force in the 
coming weeks. We will have a national stakeholders meeting.
    Our whole idea is to try to begin implementation of new 
thinking before the Sydney Summer Olympic games and full 
implementation before we get to Salt Lake City.
    Well, that is about it. That is where we are. Again, Mr. 
Chairman, I thank you for the chance to come over here and lay 
some of these concepts in front of you, and we look forward to 
working with your Committee members in the coming months.
    [The prepared statement of General McCaffrey follows:]

 Prepared Statement of General Barry R. McCaffrey, Director, Office of 
    National Drug Control Policy, Executive Office of The President

Mr. Chairman, Senator Hollings, thank you for the opportunity to 
testify before you today on combating drug use in sport. We thank this 
Committee and its members for your long-term commitment to athletics 
here in the United States and internationally. In particular, thank you 
Mr. Chairman and Senator Stevens for your individual leadership within 
the U.S. Olympic movement and your support of our nation's athletes. 
Senator Stevens, the Amateur Sports Act, which you played the lead role 
in creating, has helped the United States and the U.S. Olympic 
Committee (USOC) develop one of the most outstanding Olympic programs 
in the world.

                              INTRODUCTION

Throughout American history athletics have played a significant role in 
our national culture and identity. Before this nation was born, Native 
Americans played lacrosse. When World War II struck, Franklin Roosevelt 
wrote to the first commissioner of baseball asking him not to cancel 
the season--the President believed the American people needed something 
to lift their spirits in those dark days, and asked only that the games 
be extended into the night so the day shift could also turn out. One of 
the greatest defeats ever handed Hitler and the Nazis was dealt by 
Jessie Owens. Athletes, like tennis' Althea Gibson, basketball's Wilt 
Chamberlin and baseball's Jackie Robinson, were among the first to tear 
down the racial barriers that had so long divided our nation. The USA 
Hockey ``miracle on ice'' lifted the Cold War spirits of this country 
and presaged the end of an era on the ice and off. The recent Women's 
World Cup soccer tournament struck a blow for ``girl power'' across 
this nation and the world.

Sports occupy a special place in the hearts of the American people. On 
home game weekends, the most heavily populated ``city'' in Nebraska is 
Cornhusker Stadium. My alma mater, West Point, defines a successful 
year largely by how we fared against the other service academies--with 
all due respect to the Chairman who may have a similar, but 
``opposing'' view on this issue.

Our youth look up to athletes as heroes. Great performances on the 
fields of play are a source of inspiration. As Americans, we gain from 
our athletes a common, national pride.
Sadly, drug use in sports now puts all of this at risk. Doping and drug 
use in sport are so pervasive that they jeopardize the ethics and 
integrity of athletic competitions--the intangibles that give greater 
meaning to a game than just ``putting points on the board.'' Most 
importantly, this drug use puts the lives and health of our athletes at 
real risk. There is no victory worth the suffering these substances can 
bring.

This threat is no longer confined to a mere handful of Olympic 
athletes. Today, drug use in sport can be found in the local high 
school football locker room and on the neighborhood soccer field. 
Children--some as young as twelve years old--are turning to drugs to 
gain an upper hand in contests where only a gold-painted plastic trophy 
is at stake.

Our current efforts--governmental and nongovernmental, national and 
international--have been inadequate to address this threat. If we fail 
to act now--the damage to the Olympic movement, the beauty and glory of 
sport, and the futures of our nation's children and athletes will be 
serious and lasting.

Today, the Office of National Drug Control Policy is releasing a 
national strategy to help address the threat of drug use and doping in 
sport (the Strategy is described further in section III of this 
testimony). This Strategy builds upon a series of important successes. 
ONDCP pushed the International Olympic Committee (IOC) to make 
marijuana a banned substance after an athlete who tested positive for 
marijuana was awarded the Olympic gold and hoisted up on the medal 
platform as a hero to all the world's youth. The IOC responded and 
marijuana is now prohibited. We also worked closely with the National 
Basketball Association and the NBA players union to close the loophole 
in the league contract that allowed marijuana use. Last year, we ran 
the first ever National Coachathon Against Drugs. Major League Soccer 
ran a clinic at their championship game. Professional coaches, Major 
League Baseball and National Football League stars, college coaches and 
others turned out across the nation to help keep our youth drug free. 
The NFL Vikings' Dennis Green, who served as an honorary chair, and the 
Patriots' Pete Carroll were particularly generous with their time. 
These efforts will move into a more coordinated and comprehensive phase 
with this new Strategy.

Before turning to the substance of this hearing, it is appropriate to 
recognize the many people and organizations represented here in this 
room today who helped us develop this Strategy. Allow me to begin with 
the athletes--they are the heart and soul of this effort.
Frank Shorter won the Olympic gold medal in the marathon at the 1972 
games--he took Silver in 1976 finishing behind a competitor that the 
evidence suggests was doping. Mr. Shorter's determination to fight 
doping, however, comes primarily from being a father--he doesn't want 
to see his son faced with the decision to either use drugs or stand no 
chance of victory. Mr. Shorter has been an important advisor to ONDCP 
in our anti-doping efforts. He joined me as part of the U.S. delegation 
to the World Conference on Doping in Lausanne, Switzerland in February 
1999. Mr. Shorter will also serve as a member of our delegation for the 
1999 Australian led Summit of Governments to Combat Drug Use in Sport 
in November of this year.

No one knows the uphill struggle that an athlete faces when competing 
against a competitor who is cheating through chemical engineering 
better than Carl Lewis. In 1998, the two fastest men on earth faced off 
at the Seoul Olympics in the men's 100-meter race--Carl Lewis and Ben 
Johnson. Mr. Johnson crossed the finish line first, but his victory was 
ill gotten and illusory. Mr. Johnson's drug test revealed that he was 
using steroids. Mr. Johnson was stripped of his medal and his honor. 
History--and the record books--show Mr. Lewis as the real champion. 
Competing cleanly he captured a total of nine gold medals, including 
tying Jessie Owens' record of four gold in a single games. Mr. Lewis 
has long been an advocate of ending drug use and doping in sport. 
Recently, Mr. Lewis saw press accounts of ONDCP's efforts to combat 
drug use. He immediately called ONDCP and pledged his support. We are 
grateful that he took the initiative to reach out to us and we have 
benefited greatly from his support.

Two other athletes who are not here today also deserve special mention. 
Mr. Edwin Moses is one of the finest athletes ever to grace the world 
stage. From 1977 to 1987, he won an incredible 107 consecutive 400-
meter hurdle races, including the 1984 Olympics--a feat that may never 
be truly equaled. In addition to being a champion athlete, Mr. Moses 
deserves a gold medal for civic leadership. Mr. Moses has also served 
as the head of the USOC's anti-doping committee--a challenge he 
accepted in an effort to reform the system. In our opinion, he has been 
one of the world's most outspoken leaders working for the creation of a 
level drug-free playing field for sport. He is one of the few 
individuals who has the perspective of both an elite athlete and an 
anti-doping administrator. Over the last few months, Mr. Moses support 
and insights have been an important contribution to ONDCP's efforts. It 
is indeed an honor to work with a sportsman and statesman of his 
caliber. Mr. Moses will also serve as part of our delegation for the 
1999 Australian led Summit of Governments to Combat Drug Use in Sport.
Ms. Donna de Varona, who helped Senator Stevens in developing the 
Amateur Sports Act has also been a tremendous asset to us. In addition 
to being a gold medal swimmer, Ms. de Varona is an award winning sports 
broadcaster. She helped bring the unbelievably successful Women's World 
Cup to the United States. She is a real champion of ``girl power'' in 
sports. And, she has been a leader in the movement against drug use in 
sport. In short, we have taken to calling her ``the First Lady of 
American sports.'' In keeping with her tradition of public service, she 
has been a great help to us.

In addition to the support of the athletes we have also worked closely 
with the USOC. Americans take great pride in our Olympic teams and the 
accomplishments of the largely volunteer USOC. Under the leadership of 
Mr. Bill Hybl, Mr. Dick Schultz and Mr. Baaron Pittenger, the USOC is 
committed to ending the threat of drug use in sport. ONDCP has been 
impressed by the USOC's willingness to move forward and address this 
threat in a considered manner--as opposed to the reaction of others who 
have sought to adopt public relations not public policy solutions. We 
look forward to working with the USOC and other stakeholders as we move 
ahead.

In developing our strategy we have reached out to the experts in the 
relevant fields. Allow me to recognize the contributions of two such 
individuals who are here today as witnesses: Dr. Gary Wadler and 
Professor Doriane Coleman. Dr. Wadler is one of the world's preeminent 
sports medicine doctors. His medical advice has been vital to us in 
developing our strategy. We are delighted that he has been a source of 
advice. Professor Doriane Coleman's work on the legal issues associated 
with drug use and doping in sport is similarly groundbreaking. In 
addition, she has defended the rights of athletes in doping cases. She 
brings an important, practitioner's voice to the table. We thank both 
of these individuals for their hard work.

The Olympic sponsors are another voice that must be heard if we are to 
make progress in bringing an end to drug use in sport. Recently, I 
stood with Mr. Scott Serota and the leadership of Blue Cross/Blue 
Shield as they launched the Healthy Competition Foundation. This new 
not-for-profit, public interest foundation is dedicated to educating 
children and athletes about the dangers of drug use. The Foundation is 
also charged with working to encourage the IOC to implement real 
reforms to help end drug use in sport. As both an Olympic sponsor and 
health care company, Blue Cross/Blue Shield's involvement sends an 
important message to all those involved that the time has come for a 
change. ONDCP congratulates the ``Blues'' for their leadership and we 
look forward to working with the Healthy Competition Foundation.
As you can tell from this introduction, for over a year now, ONDCP has 
been hard at work listening to America's athletes, doctors, sports 
leaders and other stakeholders. Through these efforts it has become 
abundantly clear that the use of drugs in sports has become an 
international crisis of both public health and public confidence. 
Section I of this testimony will set out our conclusions about the 
threat of drug use and doping in sport. Section II of this testimony 
outlines the need for a new approach. Section III briefly lays out the 
highlights of the national Strategy that has been developed by a 
federal inter-agency working group in close consultation with various 
stakeholders. A copy of this strategy is provided as appendix A to this 
testimony and is incorporated by reference. This section highlights our 
efforts at the international level, which we believe are now entering a 
critical phase. This Committee is about to hear from a representative 
of the IOC about their efforts on the international level. This section 
should be of particular interest.

                  I. THE THREAT OF DRUG USE IN SPORTS

From the ``Miracle on Ice'' to Dan Jansen's gold medal win dedicated to 
the memory of his sister, sports inspire us all to try harder and be 
better. As parents--and as a nation--we rely upon athletics to help us 
nurture healthy, strong children and to inculcate important values. For 
example, according to the Department of Health and Human Services, a 
child who plays sports is 49 percent less likely to get involved with 
drugs than a peer who does not play sports.\1\
---------------------------------------------------------------------------
    \1\ See HHS, Adolescent Time, Risky Behavior, and Outcomes: An 
Analysis of National Data (September 1995); see also NFHS, The Case for 
High School Activities (undated) (available at www.nfhs.org) 
(discussing Hardiness Center study finding that roughly 92 percent of 
participants in high school sports were non-drug users, received above 
average grades and had better chances of attending and succeeding in 
college); T. Collingwood, et al., Physical Fitness Effects on Substance 
Abuse Risk Factors and Use Patterns. 21 J. Drug Education 73-84 (1991); 
E. Shields, Sociodemographic Analysis of Drug-Uce Among Adolescent 
Athletes: Observations--Perceptions of Athletic Directors-Coaches, 30 
Adolescence 839-861(1995).
---------------------------------------------------------------------------
However, these positive aspects of sport are now at risk to drug use 
and doping. Drug use and doping in sport has reached a level where 
athletes increasingly believe that they cannot compete honestly and 
win--chemical engineering is now perceived as a sine qua non to 
success.

Drug use deprives honest athletes of a lifetime of hard work and 
dedication. Shirley Babashoff won six silver medals behind East German 
swimmers. When she raised questions about doping by the East German 
medal winners, the press unfairly denigrated this superb athlete of 
such enormous integrity. Subsequently, newly opened Stasi files made 
public through a series of lawsuits show that the former East German 
sports machine doped thousands upon thousands of athletes, many of whom 
were unwitting children--including Ms. Babashoff's competitors. To date 
nothing has been done to redress this extreme injustice.

Every great victory is questioned. Track legend Edwin Moses and 
wrestling hero Bruce Baumgartner--both of whom compete cleanly and are 
leaders in fighting drug use--have spoken out about the anguish and 
loss of dignity they feel when total strangers approach them and ask if 
their honest victories were the product of doping. Even the 1999 Tour 
de France victory of Lance Armstrong, who came back from cancer, has 
been doubted. At base, doping has become so widespread that the many 
athletes who compete and win based solely on talent and determination 
are still viewed with skepticism.

America's youth are at risk. The threat of doping affects not just a 
few elite athletes, but millions of American children at all levels who 
dream of Olympic gold and other sport victories--from little league 
baseball to youth soccer to high school swimming. This threat occurs 
not just at the world class level, but in our own neighborhoods and 
schools.

<bullet>  In 1998, a survey of Massachusetts youth reported in the 
well-respected journal Pediatrics found that 3 percent of girls ages 9 
to 13 have used steroids.\2\ Use among boys was found to be just under 
3 percent. This is the first time that the use of steroids among girls 
was found to surpass use among boys. For both boys and girls, these 
levels are on par with use of other drugs of abuse. For example, the 
1997 National Household Survey found that lifetime cocaine use by 
children ages 12-17 was 3 percent.
---------------------------------------------------------------------------
    \2\ See A.D. Faigenbaum, et al., Anabolic Steroid Use by Male and 
Female Middle Students, Pediatrics, May 1998 (this survey was conducted 
in public middle schools in Massachusetts).
---------------------------------------------------------------------------
<bullet>  The Healthy Competition Foundation's 1999 survey found that 
1-in-4 young people personally know someone using performance enhancing 
substances. Knowledge grows substantially with age--9 percent of 12 
year olds personally know someone doping, compared with 32 percent of 
those ages 15-16 and 48 percent of those ages 17 and older.\3\
---------------------------------------------------------------------------
    \3\ Id
---------------------------------------------------------------------------
<bullet>  The majority of young people report that steroids are easily 
available through their friends and their coaches.\4\
---------------------------------------------------------------------------
    \4\ See SM. Tanner, et al., Anabolic Steroid Use by Adolescents: 
Prevalence, Motives, and Knowledge of Risks. 5 Clin. J. Sports Med. 
108-115(1995). Fifty-five percent of young people report that steroids 
are easily attainable. Id. Friends and coaches were the two most often 
reported sources for these drugs. Id.

The threat of drug use in sports is growing. Our National Drug Control 
Strategy is producing real progress in reducing overall youth drug use. 
According to the 1998 National Household Survey, overall youth (age 12 
to 17) drug use is down 13 percent from the previous year. Among this 
critical age group cocaine use is down 20 percent and inhalant use is 
down 45 percent over the same period. However, in sharp contrast, 
research indicates that today's highly competitive athletic world is 
---------------------------------------------------------------------------
causing youth performance enhancing drug use to grow significantly.

<bullet>  According to the Monitoring the Future survey, the rate of 
steroid use among twelfth grade girls jumped 100 percent from 1991 to 
1996. During this same period, steroid use among 10th grade females 
jumped 83 percent, and 75 percent among 8th grade females.
<bullet>  Makers of Androstenedione (Andro) self-report that Andro 
sales are up roughly five-fold since last year.\5\ (Andro, currently 
classed as a food supplement, is believed by many to improve 
performance. The DEA is engaged in a scientific process to determine if 
Andro actually produces muscle growth--and, in turn, whether it should 
be classed as a steroid).
---------------------------------------------------------------------------
    \5\ See Steve Wilstein, Baseball Unlikely to Rule on Andro, 
Associated Press, Feb. 27, 1999 (citing tenfold increase). The 
industry's own study noted a three-fold increase between the time of 
the McGwire revelation (August 1998) and December 1998 alone. See Steve 
Wilstein, McGwire Powers Andro Sales to 100,000 users, Doctors Fear 
Hazards, Associated Press, Dec. 8, 1998.
---------------------------------------------------------------------------
Drug use in sports is now widely perceived as a public health crisis. 
The performance enhancing drugs now being used by increasingly younger 
and younger children put lives and health in real jeopardy. The 
American people recognize these risks and want them ended.

According to a 1999 survey by the Healthy Competition Foundation, 75 
percent of American adults see drug use and doping in sport as a public 
health problem.\6\
---------------------------------------------------------------------------
    \6\ Blue Cross/Blue Shield, Healthy Competition Foundation. Summary 
of Findings From National Surveys on Performance Enhancing Drugs, 
August 1999.
---------------------------------------------------------------------------
<bullet>  This survey also found that 83 percent of American teens and 
pre-teens and 86 percent of adults disapprove of current drug use and 
doping in sport.\7\
---------------------------------------------------------------------------
    \7\ Id.

Performance enhancing drugs put the health and safety of those who use 
these substances at serious risk. These risks are particularly high for 
young people; the use of exogenous hormones during a child's 
development can seriously impair and/or alter the normal cycle of 
development. No victory is worth the damage these substances do to 
---------------------------------------------------------------------------
human health.

<bullet>  The risks of steroid use include: elevated cholesterol 
levels; increased risks of heart disease; serious liver damage (e.g., 
blood filled cysts and tumors); androgenizing of females (the 
irreversible development of male secondary sex characteristics by 
girls, including clitoral hypertrophy, breast atrophy and amenorrhea); 
behavioral changes, particularly heightened aggressiveness; and, 
feminization of males (including shrinking of the testes, low sperm 
counts, the development of high-pitched voice and breast 
development).\8\ Adolescents are also at risk of permanently stunting 
their growth.
---------------------------------------------------------------------------
    \8\ See, e.g. Werner Franke, Brigitte Berendonk, A Secret 
Governmental Program of Hormonal Doping and Androgenization of 
Athletics: The German Democratic Republic (unpublished manuscript) 
(documenting health Impacts on GDR athletes who used performance 
enhancing drugs); A.B. Middleman, et al., Anabolic Steroid Use and 
Associated Health Risks, 21 Sports Med. 251-255 (April 1996); SM. 
Tanner, et al., Anabolic Steroid Use by Adolescents: Prevalence. 
Motives, and Knowledge of Risks. 5 Clin. J. Sports Med. 108-115 (1995); 
MA. Nelson, Androgenic-Anabolic Steroid Use in Adolescents, 3 J. 
Pediatric Health Care 175-180 (Jul-Aug 1989); C.E. Yesalis, et al., 
Anabolic Steroid Use Among Adolescents: A Study of Indications of 
Psychological Dependence, in C.E. Yesalis, ed., Anabolic Steroids in 
Sport and Exercise 215-229 (1993); C.E. Yesalis, et al., Anabolic-
Androgenic Steroid Use in the United States, 270 JAMA 1217-1221 (1993); 
M. Johnson, et al., Steroid Use in Adolescent Males, 83 Pediatrics 92 
1-924 (1989); K.E. Friedl, Effects of Anabolic Steroids on Physical 
Health, in CE. Yesalis, ed., Anabolic Steroids in Sport and Exercise 
109-150 (1993); R.H. Durant, et al. Use of Multiple Drugs Among 
Adolescents Who Use Anabolic Steroids, 328 N. Eng. J. Med. 922-926 
(1993).
---------------------------------------------------------------------------
The adverse health impacts of performance enhancing drugs on athletes 
as documented in the German criminal doping trials have been 
devastating.\9\ The files of the Stasi (the German secret police who 
ran East Germany's national doping program) clearly reflect these 
health horror stories in frightening detail.\10\ Stasi-documented 
health problems include: Androgen-induced amenorrhea, severe ovarian 
cysts, advanced liver damage, and fetal malformation among pregnant 
women.\11\
---------------------------------------------------------------------------
    \9\ See Richard Panek, Tarnished Gold, Women's Sports and Fitness, 
May 1, 1999, 124. ``Rica Reinisch, winner of three golds in 1980, 
blamed her ovarian cysts on hormones she'd taken... Shot-putter Heidi 
Krieger, the 1986 European champion, contended that her unwitting 
ingestion of male hormones had led to facial hair, an Adam's apple and 
her eventual decision to undergo a sex change.''
    \10\ Werner Franke, Brigitte Berendonk, A Secret Governmental 
Program of Hormonal Doping and Androgenization of Athletics: The German 
Democratic Republic. 43 Clinical Chem. l262-1279 (1997).
    \11\ Id.

    In the worst cases these drugs can even be deadly. The drug 
erythropoietin (EPO) is widely thought to have contributed to the 
deaths of 18 Dutch and Belgian cyclists and 12 Scandinavian orienteers 
in the late 1980s and early 1990s.\12\ Documented incidences of deaths 
related to the use of performance enhancing drugs go back more than a 
century.\13\
---------------------------------------------------------------------------
    \12\ See Sean Fine, et al. Canadian Cyclist Watches Dream Die, The 
Globe and Mail, Nov. 7, 1998; Dr. Gary Wadler, Drug Abuse Update, The 
Medical Clinics of North America, 439-455 (1994).
    \13\ See G. Wadler and B. Hanline, Introduction, in Drugs and the 
Athlete. 1-17(1989). In 1886, an English cyclist died from an overdose 
of the stimulant trimethyl. See Gary Wadler. Doping in Sport: From 
Strychnine to Genetic Enhancement, It's a Moving Target, presentation 
before the Duke Conference on Doping, May 7, 1999. In 1904, marathoner 
Thomas Hicks became the first death in the modern Olympics from the 
stimulant strychnine. Id. In 1960, Danish cyclist Knud Jensen died 
during the Rome Olympics from amphetamines. In 1967, English cyclist 
Tom Simpson died during the Tour de France. The autopsy revealed high 
levels of amphetamines. See E.M. Swift. Drug Pedaling. Sports 
Illustrated, June 5, 1999, at 65. Among the most egregious drug use 
practices reported by Mr. Voet, is the use of the so-called ``Belgian 
cocktail''--a mix of amphetamines, cocaine, caffeine and heroin.

Trafficking in performance enhancing substances is a large and growing 
---------------------------------------------------------------------------
criminal industry.

<bullet>  In the last year, the Drug Enforcement Administration has 
carried out a number of steroid investigations. In Dallas, authorities 
broke up a ring that smuggled steroids from Mexico for distribution to 
local gyms and high schools. In Pittsburgh, DEA agents worked with Thai 
counterparts to identify an international steroid ring that illicitly 
sold steroids over the Internet. In New York, the DEA arrested 15 
members of a Russian organized crime group that reportedly smuggled 
more than two tons of anabolic steroids into the United States. The DEA 
is also conducting ongoing investigations of the importation of 
products labeled as androstenedione that actually contain steroids.
<bullet>  According to the DEA, these and other investigations indicate 
that the international sale of steroids is becoming increasingly 
sophisticated and entrenched in criminal networks.

              II. THE NEED FOR A NEW ANTI-DOPING APPROACH 

Current anti-doping systems fail to provide athletes with the assurance 
that a level playing field exists for those who do not want to cheat. 
Moreover, many athletes believe that the existing systems are public 
relations tools, not effective counter-drug programs. Many athletes 
believe that these systems are run in such a way as to catch unknown 
athletes--but not stars or potential medallists.

Irregularities abound. The athletes, in general, completely lack 
confidence in the ability of the international community to prevent, 
detect and punish drug use in sport. Moreover, the persistent pattern 
of irregularities in international competition raises serious doubts 
about the existing commitment of the IOC and the international 
community to protect the interests of the vast majority of honest 
athletes, the virtues of sport, and the health and safety of the 
competitors.

At both the Atlanta and Los Angeles games the IOC Medical Commission 
failed to act on a series of positive drug test results among medal 
winners for banned substances. During the Atlanta Games only two 
positive samples were announced.\14\ However, in an interview with the 
London Sunday Times, an internationally recognized expert who helped 
with the testing in Atlanta stated that ``There were several other 
steroid positives from around the end of the Games which we [the lab] 
reported.''\15\ Lab officials subsequently reported that in each of 
these instances the samples were passed along to Prince de Merode, the 
Director of the IOC anti-doping program.\16\ Prince de Merode has 
publicly stated that he discarded the samples for unstated ``technical 
difficulties.''\17\ Neither the lab reports, nor the names of the 
athletes in question, nor the purported technical difficulties have 
ever been disclosed.
---------------------------------------------------------------------------
    \14\ See John Hoberman, SmithKline Beecham and the Atlanta Olympic 
Games (unpublished paper on file at ONDCP).
    \15\ Id.; Steven Downes, Revealed: Four More Olympic Drug Users, 
Sunday Times (London), Nov. 19, 1996.
    \16\ See Das Erbe von Atlanta: Vier vertusche Dopingfalle, 
Suddeutsche Zeitung, Nov. 19, 1996; Hoberman supra n. 25.
    \17\ See supra n. 16

---------------------------------------------------------------------------
Structural flaws undermine existing anti-doping approaches.

<bullet>  These problems exist not just at the world level, but here 
domestically. U.S. laws provide inadequate regulation over a range of 
performance enhancing drugs. Domestic sports, particularly professional 
sports, do not ban a number of substances that are banned in 
international competition. These conflicting regimes confuse athletes 
and the public and cause international concerns about U.S.-based anti-
doping programs.
<bullet>  Existing federal standards also require improvement. For 
example, a 1995 DOJ/DEA conference determined that ``current provisions 
of the Federal Sentencing Guidelines establish grossly inadequate 
sentencing standards for steroid traffickers.''\18\
---------------------------------------------------------------------------
    \18\ See U.S. Department of Justice, Drug Enforcement 
Administration, Conference on the Impact of National Steroid Control 
Legislation in the United States, June 1995.
---------------------------------------------------------------------------
<bullet>  The current USOC drug testing program has been able to 
achieve less than a 75 percent success rate in testing athletes out-of-
competition -- roughly one-quarter of the time, athletes who are 
selected for out-of-competition tests are not tested for logistical 
reasons (e.g., the athlete could not be found).\19\ Yet, effective no-
notice, out-of-competition testing is critical to any successful anti-
doping regime.
---------------------------------------------------------------------------
    \19\ John Powers. Supplement User Striking Out, Boston Globe, Sept. 
6, 1998.
---------------------------------------------------------------------------
<bullet>  Moreover, the potential conflicts of interest that are 
inherent in our existing self-regulating approach have fueled 
international skepticism about the commitment of the United States to 
drug-free competition.

The essence of athletic competition is at risk. Recent drug scandals 
are without question eroding the ethical foundation of sport and are 
compromising the public's support for sport. A 1999 survey by the 
Healthy Competition Foundation found that 71 percent of the American 
people are less likely to watch the Olympics if they know athletes are 
using drugs. There is a growing perception that these games are 
becoming yet another fraud on the public.

          III. BUILDING A BETTER APPROACH--HIGHLIGHTS OF THE 
                     NATIONAL ANTI-DOPING STRATEGY

A. Development of the Strategy 

It is clear to the Office of National Drug Control Policy that a new 
approach is required. With the health and safety of countless young 
people at stake and with the fate of one of the world's greatest 
tributes to the dignity of mankind in the balance, the Federal 
government has an obligation to play a role in creating such a 
solution. In the eloquent words of Edwin Moses:

        The problem of drug use by elite athletes must continue to be 
        addressed on the Federal level by General McCaffrey and others 
        who are responsible for children and the public welfare . . . . 
        The United States is unique among Western democracies in not 
        having a ministry of sport, because Americans generally believe 
        that less government is good and that private organizations and 
        the market can be trusted to do work that affects the public 
        trust. Whatever the merits of this perspective in other 
        contexts, the traditional deference to the private 
        organizations that govern sport is not warranted in the case of 
        doping . . . . Notwithstanding the efforts of some well-
        intentioned individuals, the sports governing bodies in this 
        country and internationally have shown time and time again that 
        they are not structurally equipped for this work, nor are they 
        sufficiently accountable to the larger interests of society 
        that are affected by doping.''\20\
---------------------------------------------------------------------------
    \20\ See Edwin Moses, McCaffrey Must Not Stop at Andro. New York 
Times, May 23, 1999, 13:

Since the infamous Nagano snowboarding incident described above, the 
Office of National Drug Control Policy has been examining the issue of 
drug use in sport. The result of these efforts is the Strategy we are 
releasing today.
This Strategy has been developed in close consultation with America's 
athletes--the hard work and sound advice of people like Frank Shorter, 
Edwin Moses, Donna de Varona, Wes Barnett and others have been critical 
to this effort. These world class athletes have taken time out of their 
otherwise busy lives simply because they care--they care about the 
dignity and beauty of athletics, but mostly they care about the futures 
of the young people who wish to follow in their footsteps. Protecting 
all our athletes--the elite, the up and coming and the hopefuls--is the 
central purpose behind this initiative.

In developing our international strategies we have relied heavily upon 
the advice of the distinguished Dr. Henry Kissinger. It has been a 
privilege to work with a person of his intellect and stature. Allow me 
to personally thank him not only for his outstanding contributions to 
this effort, but also for the selfless efforts he has made with respect 
to overall reform of the IOC. While the reform of the IOC remains a 
difficult challenge, we have great confidence in the ability of Dr. 
Kissinger and other public servants of international reputation to 
succeed.

In addition, we have relied upon experts from the fields of medicine, 
scientific research and law. In particular, allow me to recognize the 
tremendous support we have received from doctors and scientists. Dr. 
Gary Wadler, one of the world's preeminent sports medicine physicians 
and a recipient of the IOC's President's Prize, has provided us with 
the benefits of his years of experience. We look forward to his 
testimony today. Our efforts have also been aided by the outstanding 
counsel of doctors Don Catlin and Larry Bowers, who run the two IOC 
accredited U.S. drug testing laboratories. Through their assistance, we 
have ensured that our work is grounded in sound science. These doctors, 
along with ONDCP's own nationally recognized Deputy Director Dr. Don 
Vereen, have all helped us understand the importance of cutting edge 
research to this effort.

In addition to relying on leading scientists, we have also worked 
closely with experts from the legal field who have defended, prosecuted 
and adjudicated doping cases. At the outset of this testimony ONDCP 
recognized the contributions of Professor Coleman, who you will hear 
from later. Let me also thank Mr. Richard Young for his invaluable 
assistance. Mr. Young serves on the International Court of Arbitration 
for Sport, he is a legal advisor to the USOC and serves as counsel for 
USA Swimming. He has been generous with his time and knowledge.

We would be remiss to not flag the particularly important contributions 
that the USOC and the Salt Lake Organizing Committee have made to this 
effort. Throughout the development of this Strategy the USOC has worked 
closely with the ONDCP team to help us understand the challenges they 
face and to help us better understand the role the federal government 
can play in supporting their efforts. We are proud to have the 
leadership and support of President Hybl, Executive Director Schultz, 
Anti-Doping Committee Chair Baaron Pittenger and the rest of the USOC 
anti-doping program. Their support for this Strategy clearly 
underscores the organization's commitment to developing a drug-free 
playing field for sport domestically and at the international level.
Similarly, ONDCP would like to call the Committee's attention to the 
tremendous leadership and commitment of Mr. Mitt Romney and the Salt 
Lake Organizing Committee. Throughout my career in public service I 
have had the privilege of working with many outstanding public 
servants. Mr. Romney is among the finest. His outstanding Salt Lake 
Olympic team has worked with us to ensure that this Strategy addresses 
the important responsibility we shoulder as a host nation--when the 
athletes of the world come to the 2000 games we owe them a level drug-
free playing field. We have complete confidence that the Salt Lake 
games will set the standard for the winter Olympics.

ONDCP would also like to recognize the important contributions that our 
``Federal team'' has made to this Strategy. Secretary Donna Shalala, 
one of our nation's biggest sports fans -- and a superb amateur athlete 
herself--has been a valued partner in this effort. We also look forward 
to working with NIDA's brilliant Dr. Alan Leshner, SAMHSA's 
distinguished Dr. Nelba Chavez and the rest of the Department of Health 
and Human Services. Additionally, Drug Enforcement Acting Administrator 
Donnie Marshall and the rest of the DEA have been key players in 
building this Strategy. Our efforts here build on years of DEA work 
with the sports community. On the international front, the expertise 
and support of the Department of State, in particular Undersecretary 
Tom Pickering and international athletics liaison Donna Giglotti, have 
helped shape our approach.

In particular, ONDCP wishes to thank Mickey Ibarra and Thurgood 
Marshall, Jr., the White House Salt Lake Olympic Games Task Force co-
vice chairs. They have been incredibly supportive and have worked 
closely with us to develop what we feel is a highly effective Strategy 
to address this problem. We are grateful for their support and good 
counsel. Mr. Ibarra will be an important member of our U.S. delegation 
to the Australia Summit. His presence on this delegation underscores 
the highly coordinated nature of our Strategy.

While the focus of this Strategy is on federal efforts, as you can see 
from this lineup the Strategy is far more than a ``federal strategy.'' 
It is based on the views of our nation's athletes, coaches and sports 
leaders. It is built upon the expertise of leading scientists, doctors, 
jurists and other experts. It is comprehensive in scope, reaching from 
the research lab to the local playground to the Olympic medal stand.

B. Key Components of the National Strategy--Recommendations for 
Building a New Approach 

The Strategy begins from the understanding that the United States 
government has a responsibility to undertake efforts at the national, 
binational and international levels to strengthen anti-doping regimes. 
The goals of these initiatives are to protect the health and safety of 
athletes and young people and to safeguard the legitimacy of sports 
competition. The Strategy also recognizes that to be effective these 
substantive initiatives should be augmented by efforts to inform the 
American public and the international community about the risks of drug 
use in sport--as well as the nature of our actions and goals.
Our Strategy provides a comprehensive set of national efforts to 
address this threat. We encourage you to review it in its entirety and 
welcome your views and leadership as we move forward. To assist you in 
this review, this section highlights key elements of the Strategy

National Efforts 

    Among the key initiatives at the national level are:

        <bullet>  Developing options for targeted governmental 
        oversight of U.S. amateur sports anti-doping programs. An 
        effective domestic anti-drug use program for sports may likely 
        call for an oversight and reporting mechanism requiring Federal 
        review and certification of amateur athletic anti-doping 
        programs.
        <bullet>  Working with the USOC and other stakeholders to 
        facilitate the development of an externalized and fully 
        independent domestic anti-doping mechanism or body (including 
        research, testing, and adjudication). The development of an 
        effective, transparent, accountable and independent U.S. agency 
        is critical to the success of U.S. anti-doping efforts. Over 
        the past year, the USOC has made significant strides toward 
        building a more effective, transparent, independent and 
        externalized anti-doping program. This effort is an important 
        contribution to this Strategy.

        In order to be effective, such an agency must be fully 
        independent and must have certain governmental or quasi-
        governmental powers. (For example, the USOC has long sought 
        membership in the International Anti-Doping Arrangement (IADA). 
        However, it has been precluded from membership because the IADA 
        is a treaty among governments and the USOC is not a 
        governmental body.) With the powers of governmental status, 
        however, must come the responsibilities of public service--most 
        notably the duties of transparency and accountability to the 
        American taxpayer. Further, an independent anti-doping agency 
        would benefit substantially--both at home and abroad--from the 
        added credibility offered by governmental oversight. Limited, 
        but effective, oversight, accountability and transparency would 
        allow the United States to dispel the perceived conflicts of 
        interests and the ``fox guarding the hens'' reputation that 
        unfortunately now plagues the program.

        It is important to underscore that the purpose here is not to 
        build a new government bureaucracy. Rather, the goal is to 
        provide a level drug-free playing field for all of America's 
        athletes, and to ensure that the institutions that police this 
        field are effective, accountable and transparent. We look 
        forward to working closely with the Congress and this Committee 
        as we move forward in developing these institutions and 
        relationships.

        <bullet>  Improving Federal Support for U.S. Anti-Doping 
        Programs. From increasing drug prevention efforts to 
        strengthening law enforcement operations to break up illegal 
        smuggling networks, the Federal government should play a more 
        active role in combating drug use in sport. The Strategy lays 
        out a series of efforts that would support anti-drug and anti-
        doping efforts in the United States. The interagency task force 
        will be evaluating ways to accomplish this goal.

One area where Federal support can be most valuable is in carrying out 
advanced research designed to end the ``cat and mouse game'' of current 
anti-doping programs by closing the existing scientific loopholes. 
Federally supported research has put a man on the moon and developed 
drug detection systems that can find a few ounces of drugs hidden 
within an entire truckload of produce. It seems nonsensical to suggest 
that we cannot find a way to determine if an athlete is chemically 
engineering his body.

        <bullet>  Assisting the Salt Lake Games. In 2002, the eyes of 
        the world will turn to Salt Lake and the United States. Over 
        the next two years, we have an important opportunity to set the 
        standard for a drug-free Olympics. As the host nation it is our 
        responsibility to ensure that we provide for the world's 
        athletes a level playing field in Salt Lake. The Salt Lake 
        Organizing Committee (SLOC) is committed to this goal. It is 
        incumbent that we assist them in their efforts.

Binational Efforts--Australia and the United States 

    Our binational efforts focus upon building a partnership against 
drugs and doping between the Sydney and Salt Lake games. The anti-
doping program being implemented for the Sydney games is impressive. 
For example, the Australians have also committed roughly $3 million to 
develop new drug testing and detection methods alone. Our goal in 
working with the Australians is to assist them as they prepare for the 
2000 games and to learn from their efforts as we prepare for the 2002 
games. The SLOC has already begun efforts in partnership with ONDCP to 
build such a team approach to combating doping--which is unheard of 
among host nations. Through effective teamwork, we have an opportunity 
to ensure that the last games of this millennium and the first games of 
the next millennium can begin a new drug-free era for the Olympic 
movement.

3. International Efforts At the international level, our efforts are 
focused on achieving five commonsense principles within the world of 
international competition:

<bullet>  A truly independent and accountable international anti-doping 
agency;
<bullet>  Testing on a 365 day-a-year, no notice basis;

        <bullet>  No statute of limitations--whenever evidence becomes 
        available that an athlete cheated by doping they will be 
        stripped of their honors;
        <bullet>  Deterrence through the preservation of samples for at 
        least ten years--while a dishonest athlete may be able to 
        defeat today's drug test, he or she has no way to know what 
        will be detectable through tomorrow's scientific advances; and,
        <bullet>  Advanced research to end the present cat and mouse 
        game of doping by closing the loopholes created by gaps in 
        science.

These principles were first presented by ONDCP on behalf of the United 
States government to the IOC at the February, 1999 World Conference on 
Doping in Sport.

Since the Lausanne meeting at which these markers were set out, the IOC 
has held a series of meetings to develop an anti-doping agency and 
program. The United States and the USOC were not included in these 
discussions--even though the United States is the largest market for 
the games, the bulk of the funding for the IOC and the games originates 
in the U.S. and we consistently field one of the largest teams in both 
summer and winter games. Nor were we consulted on the resulting text. 
Similarly, other nations--such as the Australians, the British, the 
Germans, the French and the Canadians--who are committed to the fight 
against drugs in sport were also not consulted. Of equal importance, 
only a few select athletes were part of this process.
As a result the IOC process has produced a proposal that does not meet 
the requirements we have set out. In general, it is our view that the 
IOC is rushing forward to build an institution that we cannot support--
one which is more public relations ploy than public policy solution. 
Our central concerns include:

<bullet>  The IOC's proposal provides the agency no real authority over 
anti-doping programs. Under the IOC's new Medical Code, anti-doping 
decisions of the agency would serve as mere recommendations to the IOC. 
This is not a model for either independence or effectiveness.

<bullet>  The proposal should have stronger guarantees that the agency 
will be independent and operate based on basic principles of good 
governance and democracy, such as transparency and no conflicts of 
interest.

<bullet>  The proposal asks national governments to pay half the bill 
for the agency, but fails to accord these governments a sufficient role 
in the policy-making process.

<bullet>  Important decisions, such as the parameters of testing, have 
not been addressed--instead they have been de facto delegated to a 
small executive board of IOC-related appointees to decide in secret.

With respect to funding, it seems inappropriate to assume that national 
governments will fund half the cost of an agency that they had no 
involvement in developing--and which they will have an inadequate role 
in operating. Further, while the international community should provide 
support for an adequate anti-doping agency of this sort, the ``pay for 
a say'' formula that has been set out fails to recognize that the 
nations hosting the upcoming games must also have a say in the agency--
as is the case with the IOC's present Medical Commission. Additionally, 
the current IOC proposal fails to recognize the other contributions 
that many nations, such as the United States, have made and will make 
to the games--and the fight against drug use in sport.

We have once again consulted with many of our key partners, such as 
Australia, Canada and Great Britain. They continue to share the 
concerns that I have outlined. Further, while certain international 
organizations may have expressed agreement with the general direction 
of the IOC proposal, these organizations have not ``endorsedthe IOC's 
proposal in the strict sense of the word (e.g., they have not taken it 
back to their member states for approval). Most importantly, the EU has 
informed us that during the discussions leading up to the IOC proposal, 
the EU made it clear that such a proposal could not appropriately move 
ahead without the involvement of the United States, the Australians, 
the Canadians and other national governments. These responses seem to 
refute the view expressed in public by IOC official Mr. Pound that the 
IOC's proposal has already been adequately endorsed internationally. 

However, we do have reason to believe that Mr. Samaranch will be open 
to a reasonable discussion to achieve a rational consensus position.
Given this state of play, it is up to the international community to 
work with the IOC to ensure that an effective anti-doping regime is put 
in place. Ultimately, in order for any anti-doping regime to be 
effective, it must have the involvement of the international community, 
including the IOC, which is (rightly) a significant stakeholder in this 
effort.

ONDCP has begun efforts to develop an international consensus approach 
to rectify this situation. Over the coming months we will work closely 
with our U.S. stakeholders and international allies (e.g., the 
Australians, the Canadians, the British, the French, the Germans) and 
international organizations (e.g., the U.N. Drug Control Programme, and 
the Council of Europe) to develop such a consensus. This week, I will 
lead a U.S. interagency team to Europe to meet with our European 
allies. In November, I will lead a delegation to a Summit of 
Governments on how to combat drug use in sports, which is being 
sponsored by the Australian government in Sydney.

Our purpose is to build a consensus sufficiently rational to bring the 
IOC to the table and require that these shortcomings be fixed. We look 
forward to helping the IOC work with the community of nations and the 
other stakeholders--in particular the athletes--to develop a truly 
independent and fully effective international anti-doping agency. We 
believe that the Australia Summit affords the IOC an important 
opportunity to move such a process ahead.

    Mr. Chairman, knowing of your interest in this issue, we will keep 
you informed of developments on this front. If the IOC fails to seize 
this opportunity to work cooperatively with us and the rest of the 
international community, we will need your support to force change. In 
short, your leadership and that of the Committee will be critical to 
the creation of a truly independent agency and a fully effective 
international anti-doping regime.

C. Implementation of the National Strategy 

The Strategy before you is a living document. Between now and the 2002 
games in Salt Lake the world of athletics--and the worlds of science 
and medicine--are likely to change dramatically. This Strategy provides 
a framework capable of evolving in parallel. In the near term we will 
convene the federal task force called for under the Strategy. This task 
force will be chaired jointly by ONDCP, the White House Olympic Task 
Force Chairs and HHS. This task force will include representatives from 
across the involved federal spectrum, including, but not limited to, 
the Office of Management and Budget, Justice (including DEA), State, 
the National Institute on Drug Abuse and the Substance Abuse and Mental 
Health Services Administration. The primary purposes of this task force 
will be to refine the Strategy, set priorities for implementation and 
undertake the task of implementing real reforms.

We believe that this should be an open and participatory process. We 
will reach out to the widest possible range of stakeholders--athletes 
young and old, coaches, doctors, the leaders of the National Governing 
Bodies, parents, sports organizations, and others. And, we will 
continue to work closely with the SLOC, USOC, and the USOC' Athletes 
Advisory Council--key actors in this effort.

Congressional leadership on sports issues has been strong. We recognize 
the important role that Congress plays in these matters. To this end, 
we will also seek out bipartisan Congressional representation on this 
task force and specifically look forward to working with the Chairman, 
Senator Hollings and this Committee.

                              CONCLUSION 

Drug use in sports today has reached a level at which it jeopardizes 
both the integrity and legitimacy of athletics, as well as the health 
and safety of athletes and our youth. Athletes who want to compete 
fairly and without doping fear that they stand no chance against 
competitors who will accept any cost--debilitating injury, illness and 
even death--to win. Doping undermines the public trust in organized 
sport and the integrity of the vast majority of participating athletes 
who do not use drugs or dope. Every great victory is subject to doubt. 
Drug-using athletes verge on creating records that honest human 
performance cannot best. We seriously risk the creation of a chemically 
engineered class of athletic gladiators.

The current messages being sent by illicit, undetected, unreported or 
unresponded to drug use in sport continue to place our nation's young 
people at great risk. Each day, growing numbers of young people turn to 
untested and unproven chemicals to gain an edge. The age at which 
children--and in turn parents--are being confronted with the decision 
whether to use drugs or forgo them and face a competitive disadvantage 
is growing younger each year. Young people are confronted with the use 
of drugs, ranging from marijuana to steroids, among the ranks of elite 
athletes and consequently are led to the false belief that they can use 
drugs and succeed in life. At risk youth are not limited to a few 
isolated elite athletes; on soccer fields, baseball diamonds and 
swimming pools all across the nation, hundreds of thousands of American 
children strive for greatness. Each of these young people are within 
the at-risk population.

First and foremost, doping control measures must be rooted in sports 
ethics and values. They must also be founded on respect for personal 
rights and the fairness of due process. Current doping and drug control 
programs have proven inadequate to the task. In general, they are 
limited in their ability to either effectively detect drug use or deter 
current or future athletes from cheating. Conflicts of interest--both 
real and apparent--abound. The current approach places honest athletes 
at risk of false accusations--and fails to ensnare those who actually 
cheat. Overall, today's systems fail to provide athletes with the 
assurance and confidence that the playing fields are level and that the 
clean competitors stand a fair chance at victory.

Absent real reform, we risk not only irreparable damage to the beauty 
and glory of sports but also to the long-term health of our athletes 
and young people. Athletes willing to cheat will continue to push the 
envelope of science to find new ways to steal even the slightest 
advantage. Increasing numbers of ever younger children will acquiesce 
to the risks of drugs in order to pursue their athletic dreams. Absent 
change, the value of sports in our society will diminish and the human 
spirit will be poorer for its loss.

United States government leadership is critical if we are to succeed in 
eliminating the threat of drugs in sports. With such leadership, a 
strategy comprising national, binational and international efforts can 
help bring about needed reforms. Working with stakeholders (athletes, 
youth, the USOC (including the USOC Athletes Advisory Council), the 
NCAA, NGBs, the leagues, coaches, doctors, parents, schools and 
others), we have an important window of opportunity to preserve the 
values of athletic competition and to safeguard the futures of our 
children.

Athletics at all levels play a major role in American society. Aside 
from their recreational value, we look to sports to help us as parents 
and as a nation to develop healthy children and instill positive values 
and mores in our youth. Feats of athletic greatness--the victory of the 
1999 U.S. Women's World Cup soccer team, the U.S. hockey team's miracle 
on ice, Jessie Owens victories in the face of Nazism--inspire us and 
remind us to strive to be better in all that we do in pursuit of 
excellence. Athletics shape our culture, heritage and history. In this 
nation, sports provide us with rallying points around which diverse 
groups of people can unite and cheer with one voice. By working to 
safeguard sports we help preserve these important contributions to our 
nation.

    The Chairman. I thank you very much, General for your 
involvement and your commitment to this issue. I also want to 
thank you for the staff and other members of the executive 
branch who are here today and who have also been involved in 
this matter.
    Let us talk PR problem here for a second. The International 
Olympic Committee, in the view of many, falls far from the 
jurisdiction of the Congress of the United States.
    This Committee and the Congress of the United States does 
have the responsibility to oversee amateur sports in America, 
including the USOC.
    As you pointed out in the beginning of your statement, the 
IOC and the USOC are not the same, to say the least. They are 
two separate entities.
    Already, the United States has been accused, on this issue 
and other issues, of big footing around and trying to force the 
International Olympic Committee into discriminating against 
smaller nations. And, you know, there even has been criticism 
directed at this Committee for us exercising our oversight 
role.
    I think it is also worthy to note that, I believe it is 
around 60 percent of the funding of the Olympic games come 
directly from sources within the United States of America.
    Do you think these problems will make it difficult for the 
United States to play a constructive role in the process?
    General McCaffrey. To begin with, I cannot imagine why 
there should be a difference of opinion over the ultimate 
objective between the IOC, the National Governing Bodies, and 
this Committee, and this government.
    We all ought to be fixed on the same outcome, which is to 
deter and to prevent doping in sports, not only in the Olympic 
movement, but in international and national competition. So, it 
is mystifying to me why there would be a sense of protectionism 
on the part of the IOC for this concept.
    The Chairman. Do you believe there exists that sense of 
protectionism?
    General McCaffrey. I absolutely do. I think that is why 
this draft proposal five was developed without any involvement 
of national governments, any direct involvement of the 
international bodies. I think we are going to be able to bridge 
that gap.
    I am sort of optimistic. I have been dealing with Dr. Henry 
Kissinger, a brilliant man. He is, of course, involved in IOC 
Reform 2000, but I think using his good offices, we are about 
to open a dialog with Mr. Samaranch, which I hope can result in 
some common viewpoint of where we are trying to go.
    But the current results, I think, are unacceptable, and 
were devised without any participation or involvement of U.S. 
authorities, the Australians, the Canadians, the Brits 
directly, the French, the Germans, et cetera.
    The Chairman. But do you have some guarded optimism that 
there will be some, shall I say, more cooperative attitude or 
serious consideration given on the implementation of your 
recommendations and those of others?
    General McCaffrey. I would hope so. And to boot, we should 
recognize, there is a certain leverage there. The Olympics will 
be held in Australia, and that operation is subject to 
Australian national law. The Olympics later will be held in 
Salt Lake City and subject to U.S. national law.
    More than $1 billion, somewhere probably greater than $2 
billion in TV rights, et cetera, are subject to U.S. Federal 
legislation. And there is a huge amount of money that comes out 
of Western Europe.
    The athletes, themselves, are really the foundation stone. 
A good number of the athletes involved are either U.S. or 
European Union.
    The Chairman. What would you like to see the Congress of 
the United States do?
    General McCaffrey. I am not yet sure. I would like to put 
together a task force and make sure I have widely consulted and 
listened to the viewpoints, particularly of the people who are 
in this room, and to come back to you with a recommendation. 
But, clearly, one thing ----
    The Chairman. When would you be able to do that?
    General McCaffrey. Soon. Certainly by December, we need to 
have completed our consultation process of the international 
community.
    The Chairman. As you know, on the overall issue of the 
Olympic scandals of the Salt Lake City and now the revelations 
about Atlanta, the very important commission headed by Senator 
Mitchell recommended that we wait until the end of the year 
before we take any actions as a Congress.
    Perhaps it would be a smart thing for us to do, Senator 
Stevens, to combine both--review of their recommendations and 
implementation and get recommendations from General McCaffrey 
on this issue at that time as well. So, we will look forward to 
that, and I thank you.
    Senator Stevens.
    Senator Stevens. Well, thank you very much.
    General, I commend you on what you are doing. I share that 
we want to find a way to assure that we reach a process of 
consensus. I appreciate very much what you stated at the very 
beginning about looking for a consensus.
    It is an area, I think, that is going to try our patience a 
little bit to work out an acceptable arrangement with the IOC.
    Let me ask you about one of your provisions in your five 
points, and that is the preservation of the tests. I ask that 
because my state happens to be the repository now of a whole 
series of items that are preserved for international interests, 
the potato spat, and other things. I do not know if you know 
what it costs to store and maintain such specimens for years 
and years and years.
    Have you set up a level of testing? You certainly would not 
keep every athlete's tests, I assume. Have you talked over what 
level we would test? Would it be at the national level? Would 
it be at the international level that we would keep and 
preserve these tests for future use?
    General McCaffrey. I think the primary answer to that ought 
to come from our ongoing work with CASA, with the National 
Institute of Drug Abuse. You have one of the world's experts 
here, Dr. Gary Wadler.
    I prefer to defer to their judgment on what is achievable 
in the mid-term and then the long run. I do not think we are 
going to get very far by January. I do not want to be naive 
about this, but I do think that we ought to begin a process 
that will inexorably lead in the coming 5 years to creating a 
largely drug-free, international as well as national, 
competition.
    I think something can be done to begin in the Australian 
games. The Australians are better organized, in my judgment, 
than we are. There is a lot to be learned from what they will 
try and achieve for the Sydney competition.
    Senator Stevens. Because I have been down there once and I 
am going down again, but I am interested in not just the taking 
of the--requiring the test, but the preservation of that test.
    General McCaffrey. I understand.
    Senator Stevens. How many years and who has the 
responsibility? That opens up a vast cost area to me that is 
not existent in the world of sports now.
    I think we have to be very careful about how we mandate 
that and whether or not it is a government responsibility, or 
an international responsibility, or a basic sports 
responsibility. That is something that is going to take a lot 
of research, and, I think, consideration.
    I agree with Mr. Chairman. I do not think we should be 
expected to do anything on this this year, but I hope we can 
turn to it fairly early next year and see what Australia is 
going to require.
    You are right. They are out in the lead on this because 
they have the first games that will be affected by this new 
anti-doping movement. And I think we should work with them as 
closely as possible to make sure that what we do is not going 
to embarrass them and, by definition, that we do not drop the 
ball and lessen the level of control that they have put into 
effect. Would you agree with that?
    General McCaffrey. I certainly would, Senator.
    The Chairman. Very briefly, General. You mentioned 10,000--
according to Stasi files, 10,000 young East German women who 
were harmed by this practice. How were they physically harmed?
    General McCaffrey. I probably ought to enter my statement 
that has a pretty good snapshot of it, and my deputy, Dr. 
Donald Vereen, a nationally recognized authority on doping, has 
done a considerable amount of effort to bring together research 
on it, but it really is distressing.
    Essentially, boys end up with shrunken testes and breast 
enlargement, and girls end up with possibly permanent 
androgynization of female physique, and it is irreversible.
    When you end up--some of them are at a dramatic and tragic 
situation, with sex change operations on a young woman who has 
been moved so far along that hormone developmental process, and 
it is irreversible once these adolescent years have passed.
    The Chairman. Are you not concerned--and I know you are 
concerned, but how concerned are you that every time we seem to 
get a handle on some of these new performance enhancing drugs, 
there is another generation that comes along, and another 
generation that is either undetectable or less detectable? Are 
we playing kind of a catch-up game here?
    General McCaffrey. I think so, but we are not very well 
organized. We do not have a serious research focus on it. I 
would not think this is huge dollars, to be blunt. The Olympic 
Sports Movement, we are talking multiple billions of dollars of 
profits.
    Again, I remind all of us, there are not 100 people on the 
face of the earth who could possibly win a gold medal in any 
one of these sports. We know their names. We know where they 
train and compete.
    We have 9 million transportation workers in drug testing as 
well as 1.5 million members of the Armed Forces. This is not 
heavy lifting. It requires good science and some cooperative 
international agreement.
    The Chairman. I thank you. I am sure we will work out a way 
to store some of this in Alaska.
    [Laughter.]
    The Chairman. We have a vote on.
    The climate indicates that we should be able to do that.
    Senator Stevens: We would only have to freeze it for half a 
year.
    The Chairman. Absolutely.
    [Laughter.]
    The Chairman. Unfortunately, there is another vote on.
    So, we thank you, General, for being here.
    If the other panel would stand by, we will be over to----
    General McCaffrey. Yes, sir.
    The Chairman. We look forward to working very closely with 
you.
    I will be back in about five or 6 minutes. I thank the 
patience of the witnesses.
    Senator Wyden [presiding]. Thank you very much for your 
thoughtfulness, General. I will not keep you but a minute. I 
will tell you, I am very troubled by the comments that you made 
about the International Olympic Committee.
    I think that there is an extraordinary record of foot-
dragging with respect to the International Committee. My 
understanding is it goes back somewhere in the vicinity of 30-
plus years, to the sixties, that we have had one proposal after 
another.
    They have always found a way to duck out of the specifics 
that you are calling for this morning, which are essentially 
transparency and accountability.
    What is your reaction to the concept we have been talking 
about in this committee of trying to move forward with 
legislation to apply the U.S. anti-bribery laws to the IOC? I 
mean, you specifically mentioned in your testimony their 
unwillingness to deal with these conflict of interest issues. 
Clearly, we will have to wrestle with various questions of 
sovereignty and the like. But it is hard to see how they are 
going to get the message without a strong step along those 
lines.
    What is your reaction to that?
    General McCaffrey. I think the IOC has been suddenly thrust 
onto the world stage. They have been shocked by the scrutiny 
they have been subjected to. They are literally in denial that 
people would expect them to act as do other international 
organizations. It never occurred to them.
    As you take a snapshot of the IOC as it existed in January, 
when I last dealt directly with it, it is a self-selected body 
with no term limits, with no requirement to report to a 
constituent body, with no requirements to open its financial 
books, for public inspection.
    It is an astonishingly parochial organization, and in my 
view its power represents more a fiction than a recognition of 
its real position in this movement. That is my own thought.
    I think before we are done with this, it will be an 
international body that responds first to athletes, and second, 
it will take into account the thinking of the European Union, 
the U.S. Government, and with other actors.
    So I am sort of optimistic that they are going to move 
along that process. We have some spectacular people in the 
world community, Senator George Mitchell, Dr. Henry Kissinger 
and others, who are involved in that effort.
    Now, my portfolio, Senator, obviously is not IOC reform. I 
am not too sure that we can get to doping without IOC reform.
    But I do believe there will be a growing realization on the 
part of the IOC members that, first of all, this is inexorably 
going to happen. The money, the protection of athletes' health 
and safety, the beauty of the Olympics is not something that 
responds to an IOC committee, but to all of us who are engaged.
    I think that Congress ought to watch this extremely 
closely. And if legislation is required, we would certainly be 
willing to respond to your own requirements for information.
    Senator Wyden. So you would be willing consider the anti-
bribery legislation. I guess what I find so troubling, and I am 
so pleased at your persistence at this, is that there have been 
discussions about draining this swamp, as far as I can tell, 
since at least 1961. And it has come up every time there is a 
particular incident.
    I mean, even with airtight evidence, as when the secret 
East German records were opened after the fall of the wall and 
the athletes and the coaches admitted to doping, even then the 
IOC refused to go back. I guess I am very pleased that you are 
willing to hang in there.
    My only other question--as I say, I appreciate the extra 
time--is: How much longer would you give them? I mean, we have 
been at it almost 40 years now. These people set a land speed 
record for inertia, as far as I can tell. So how much longer do 
you think the U.S. Senate and this committee ought to give 
them?
    General McCaffrey. Well, Senator, again, one of the sources 
of information I have learned from is listening to sports 
reports. It is a very unusual group. Unlike the political 
reporters, the sports reporters care deeply about the issue. 
They have the whole picture. They are hopeful that something 
will be done, but they are sort of discouraged that we can pull 
this off.
    So there is a sense of skepticism. You know, we have been 
here before. Here comes the latest effort. They will wait you 
out. I am pretty optimistic.
    I was in Lausanne. I listened to the intervention of the 
British sports minister, who was outraged, of the German sports 
minister, of Madame Bouffet from France. I listened to the 
Australians' thinking.
    They are not kidding around with this. They are not going 
to have a system in place that tolerates ruining a bunch of 
young kids. They have a new national strategy that makes a lot 
of sense to me.
    I think at some point I hope we can go very respectfully to 
Mr. Samaranch with a consensus view. It does not have to be 
charted out by the United States, although certainly Dr. Wadler 
and others have ideas that should be taken into account.
    I do believe we will get a response out of the IOC, but 
that we should not be unmindful of the power of money and the 
fact that both Australia and the United States, these two 
Olympic Games, can be run in a drug-free environment.
    Senator Wyden. One last question, if I might. Do you 
envisage any role for the World Health Organization in these 
discussions in the days ahead? You can probably gather, I am 
looking for some other set of forces that can help prod the 
IOC.
    I am glad that you are being persistent. I have my staff 
trying now to document the specific instances since the early 
sixties, when we heard the rhetoric about how things were going 
to change. There never was any follow-through.
    I am looking for ways in which the IOC could be prodded. 
And I wonder if you think there is a role for the World Health 
Organization.
    General McCaffrey. There may well be. When we talk about an 
independent drug testing agency, 5 years from now, 10 years 
from now, all sorts of things are possible. In the interim, we 
probably need to take an institution that exists, that is 
widely respected, that has independence, that has scientific 
integrity, and embody that with the responsibility of carrying 
out this test.
    The World Health Organization, there are some French 
institutions, some Austrian, some Brits, all of whom might do 
this. I, again, do not think we have a fixed view. The World 
Health Organization might well be useful.
    Senator Wyden. Well, I will tell you, I remain very, very 
skeptical. I think the IOC is obviously feeling the heat now. 
We have the 2000 games coming up. I think their effort is to do 
as much as they possibly can to kind of blunt and dilute the 
kind of real reform efforts that would bring about transparency 
and accountability the way you are talking about. And once the 
2000 games are over, they go back and sit in those opulent 
Swiss offices and do business as usual.
    So God speed to you, and do everything you can to keep the 
heat on them. You have a variety of us up here on a bipartisan 
basis who will do everything we can to back you up.
    General McCaffrey. Senator, I think the other thing we need 
to do is focus on the U.S. national problem. It has been 
interesting to me that the IOC--one aspect of denial has been 
to suggest the U.S. is a broadly based, drug riddled society.
    We made no effort to clean up our own professional or 
amateur sports. Why do we not get off their back and focus on 
our own problems?
    Now to some extent, that is true. We ought to focus on the 
U.S. national drug problem. I am more concerned about 56 
million American school children by far than I am the Olymic 
competition. But the Olympic competition is important to us 
because i is the beauty and the symbolism of sports. We cannot 
get there in Little League competition unless we can also act 
responsibly with our world-class athletes.
    I do believe that our own support of the U.S. Olympic 
Committee and keepingan eye on the NBA--and thankfully we got 
their contract modified, as you remember. We now have ``no 
pot'' written into their contract. We do need to get steroid 
testing in American baseball. We do need to complete our 
analysis of Andro. It is a steroid, yes or no? I have the DEA 
doing the scientific analysis.
    There is a body of work there in the United States to be 
done. But at the same time, it is silly for the IOC, or anyone 
else, to point at European cycling, European soccer, American 
football--and by the way, the NFL is doing pretty well in all 
this--and say, go solve those problems. When you are done with 
it, we will then address Sydney and Salt Lake.
    I think they are just going to have to recognize before we 
are done with this, we are going to do the right thing.
    Senator Wyden. Well, as the parent of a 15-year-old 
lacrosse player and a 10-year-old basketball player, I can tell 
you that I very much share your feelings about those kids. I 
would just hope that we not look at these mutually exclusive.
    You have one strategy to go as aggressively and 
comprehensively as you possibly can at this issue of drugs in 
this country. Andro is a very serious problem. I mean, I think 
that practically every kid who plays baseball knows about Mark 
McGwire and the situation there. And that is why I touched on 
it in my opening statement.
    But I would hope that we not see these as mutually 
exclusive kinds of problems. The fact is that the IOC still 
remains the most visible international kind of forum. To think 
that for 30 years plus, they would just drag their feet and 
stonewall, do everything they can to duck on the questions you 
outline yet again today, the questions of accountability and 
transparency, leaves me concerned, concerned about them.
    Glad you are out there making the case. As you heard this 
morning, you will have bipartisan support in the Senate for it.
    General McCaffrey. Senator, one question you might want to 
ask, because in my mind you learn through anecdotes in some 
ways. The anecdote that grabbed my attention was the Atlanta 
games, which I hope the FBI aggressively pursues its 
investigation.
    At the Atlanta games we ended up with Prince Demarod, the 
IOC doping expert, losing some unknown number of alleged dirty 
samples out of a safe in his hotel room. The explanation was 
given at the time, as I understand, that the lost was due to 
some technical difficulties, which he has never explained to 
anyone's satisfaction since then.
    Mitt Romney has this superb team at Salt Lake City -- I 
walked through their drug testing laboratory. They are going to 
do it right. But at the end of the day that sample is going to 
go to an IOC body for a decision. We cannot have the integrity 
of the games decided by a body that currently lacks any 
transparency, accountability or credibility.
    That is the challenge all of us face.
    Senator Wyden. Well, you are being logical. Heaven forbid 
that all of that should just break out with respect to the IOC 
and the reform. Just know that we are going to hang in there 
and glad that you are making this fight.
    Unless you have anything further, I think the chairman 
wants to excuse you at this time.
    General McCaffrey. Thanks, Senator.
    Senator Wyden. The chairman will be returning very briefly.
    But let us bring forward our next panel: Mr. Scott Serota, 
Executive Vice President and Chief Operating Officer of Blue 
Cross and Blue Shield; Mr. Frank Shorter, U.S. Olympic gold 
medalist; and Ms. Nancy Hogshead, U.S. Olympic gold medalist. 
If you all would come forward.
    [Pause.]
    Senator Wyden. All right. We thank you all for your 
patience this morning, apologize for the fact that we have a 
hectic floor schedule. My understanding is the chairman would 
like to ask you to try to keep it in the vicinity of 5 minutes 
or thereabouts. And we will not adhere brutally to that kind of 
requirement.
    Why do we not begin with you, Mr. Serota?

 STATEMENT OF SCOTT SEROTA, EXECUTIVE VICE PRESIDENT AND CHIEF 
   OPERATING OFFICER, BLUE CROSS AND BLUE SHIELD ASSOCIATION

    Mr. Serota. Thank you, Senator. Good morning. I am Scott 
Serota, the Executive Vice President and Chief Operating 
Officer of the Blue Cross and Blue Shield Association. Thank 
you for the opportunity to testify today about our major new 
public health campaign to reduce the use of performance-
enhancing drugs.
    I would like to ask if my written statements can be 
introduced into the record.
    Senator Wyden. Without objection, so ordered.
    Mr. Serota. Thank you.
    I am honored to appear today on behalf of the thousands of 
physicians, nurses and insurance professionals who work in the 
nation's 51 independent Blue Cross and Blue Shield companies. I 
would also like to thank this committee for their statement of 
support for our anti-doping program, which is formerly known as 
the Healthy Competition Campaign.
    Both Senator McCain and Congressman Jim Ryun of Kansas are 
leaders in shedding light on this growing problem of athletic 
doping. We welcome lawmakers' interest in this critical public 
health issue and look forward to working with you toward 
eradicating drug use in sports.
    I can assure you that today's hearing is both timely and 
relevant to the American people. In a public opinion survey we 
recently commissioned, 76 percent of American adults said 
Congress should take steps to ensure that athletes who compete 
in the 2002 Salt Lake Games are drug free.
    Along with these poll results, many media outlets have 
extensively written about the need for drug testing to preserve 
the Olympic Games' fairness and integrity.
    But Blue Cross and Blue Shield believes the Olympic problem 
is just the tip of the iceberg. The much larger issue is the 
proliferation of performance-enhancing drugs at all levels of 
competition, especially among America's youth.
    That is precisely the reason why the Blue organization 
recently launched our Healthy Competition Campaign. Our 
campaign will use research, a website, and grassroots activism 
to eliminate the use of performance-enhancing drugs at all 
levels of athletic competition.
    We have submitted for the record a packet of our 
educational material. This packet is also available to the 
public on our website, www.healthycompetition.org. Throughout 
the coming year, we will sponsor a series of school- and 
community-based events, urging young people to sign the Healthy 
Competition Pledge and to wear the symbol of drug-free 
athletics.
    We are reaching out to parents, teachers, doctors, coaches 
and other community leaders who can make a difference in the 
lives our nation's youth. To oversee this campaign, Blue Cross 
and Blue Shield has endowed a new nonprofit foundation known as 
the Healthy Competition Foundation. This foundation will serve 
as a permanent watchdog on doping issues.
    Along with Blue executives, the foundation's board of 
directors include six Olympic medalists: Frank Shorter, the 
world-class marathoner, who is joining me on this panel; Edwin 
Moses, the legendary hurdler; swimming stars Donna de Varona 
and John Naber; basketball gold medalist and current Cleveland 
Rockers guard Suzy McConnell-Serio; and the wrestling hero 
Bruce Baumgartner.
    Let me briefly describe the reasons why Blue Cross and Blue 
Shield and our Olympian partners have decided to tackle the 
problem of doping in sports. We believe this growing epidemic 
is one of the greatest challenges facing young people today. 
The use of performance-enhancing drugs has reached crisis 
proportions, threatening the health and safety of thousands of 
athletes.
    Furthermore, doping is not limited to elite levels of 
athletic competition. In fact, performance-enhancing drugs are 
widespread at the community and interscholastic level. Steroids 
and other dangerous substances, including peptide hormones, 
stimulants, diuretics and various dietary supplements are 
increasingly available to athletes at ever-younger ages.
    As you heard earlier, there are estimates that in excess of 
a half a million children have used steroids during the past 
year. That is in excess of 175,000 teenage girls and 325,000 
teenage boys.
    In a recent survey we commissioned, one in four young 
people said they personally know of someone who uses these 
drugs. Further, while two-thirds of the kids said their parents 
are aware of performance-enhancing drug use by young people, 
less than one-third said their parents have actually talked to 
them about the dangers of these drugs. Parents are simply not 
talking to their children about the problems that these drugs 
can cause.
    Performance-enhancing substances pose tremendous risks to 
the long-term health of the young people who use them. Many of 
these complications are difficult to predict, and often they do 
not become evident until years after substance abuse has 
occurred.
    Moreover, the available research on the health effects of 
these drugs is quite limited because the young people taking 
them are using unusually high doses and hiding their usage from 
their parents and physicians.
    The limited information that we do have about the long-term 
complications of these drugs is extremely frightening. These 
drugs can cause a host of immediate health problems, including 
elevations in blood pressure and cholesterol, fluid retention, 
menstrual irregularities or enlargement of the prostate gland. 
Over the longer term, these drugs can cause liver cancer and 
contribute to serious behavioral and psychiatric disorders.
    Here is how we propose to help. Our Healthy Competition 
Foundation will fund further research among athletes who admit 
to drug use. We will work to better understand the long-term 
health challenges they face and help their doctors determine 
how best to treat them.
    Along with this research and our educational activities, we 
have called upon the International Olympic Committee to take 
stronger action to ensure that the Olympics are drug free and 
fair to all. We urge the IOC to establish an independent anti-
doping agency and to unify drug testing standards around the 
world.
    Further, we urge you to expand existing athletic oversight 
programs, not only to test for banned substances, but also, and 
perhaps more importantly, to help educate athletes and coaches 
about the health risks these substances pose. As your committee 
explores these issues further, we encourage you to focus not 
only on the questions of fairness and integrity, but also on 
the public health consequences of an athletic culture in which 
drug use is quietly tolerated or, worse yet, ignored.
    We are most concerned about trying to work on the demand 
side of this equation. When we focus our efforts on testing, in 
many instances the battle is already lost.
    We are very interested in reaching out to our young people 
and, through their role models, setting good examples for them 
on how to compete fairly and how to compete effectively. That 
is the critical public health issue that we are concerned 
about.
    I am sure you share our outrage about the growing epidemic 
of performance-enhancing drug use. As parents, many of us are 
shocked to learn that our children can be exposed to harmful 
substances while competing in sports activities that should be 
both healthy and educational. As a former competitive athlete 
and the father of children each of whom compete, I am 
personally concerned about young people who, in the pursuit of 
a few extra inches in their vertical leap or a few extra pounds 
in the bench press, will risk their lives.
    Competitive sports should support the ideals which have 
long been the cornerstone of success in any endeavor: hard 
work, dedication, teamwork and desire. A win-at-all-cost 
approach cannot and should not the cheating which is occurring 
today.
    Thank you for the opportunity to testify today and for your 
ongoing attention to this crucial public health issue. I will 
be more than happy to answer any questions you might have.
    [The prepared statement of Mr. Serota follows:]

Prepared Statement of Scott Serota, Executive Vice President and Chief 
       Operating Officer, Blue Cross and Blue Shield Association

Good morning. Mr. Chairman and Members of the Subcommittee, I am Scott 
Serota, executive vice president and chief operating officer of the 
Blue Cross and Blue Shield Association. Thank you for the opportunity 
to testify today about our major new public health campaign to reduce 
the use of performance-enhancing drugs. I would also like to thank the 
Chairman for his recent statement of support for our program, formally 
known as the Healthy Competition Campaign. Both Senator McCain and 
Congressman Jim Ryun of Kansas are leaders in shedding light on the 
growing problem of athletic doping. We welcome lawmakers' interest in 
this critical public health issue, and we look forward to working with 
you toward eradicating drug use in sports.
The witnesses appearing today are not alone in our eagerness to see 
congressional action to help reduce drug use in the Olympic movement. 
In a public opinion survey recently commissioned by Blue Cross and Blue 
Shield, 76 percent of American adults said Congress should take steps 
to ensure that athletes who compete in the 2002 Salt Lake Games are 
drug-free. Clearly, the American public supports your efforts to 
address this crucial issue.

Much has been written about the need for drug testing to preserve the 
Olympic Games' fairness and integrity. But Blue Cross and Blue Shield 
believes the Olympic problem is just the tip of the iceberg. The much 
larger issue is the proliferation of performance-enhancing drugs at all 
levels of competition -- especially among America's youth. I speak 
today on behalf of the hundreds of thousands of physicians, nurses, and 
insurance professionals who work in the 51 independent Blue Cross and 
Blue Shield companies throughout the United States. My colleagues and I 
believe that athletic doping is much more than a regulatory issue or a 
sports issue. It is also a silent -- but deadly -- health issue. Make 
no mistake: The abuse of these drugs is profoundly dangerous, and the 
long-term health effects are devastating.

That's why the Blue organization recently launched our Healthy 
Competition Campaign. This campaign uses research, a Web site, and 
grassroots activism to eliminate the use of performance-enhancing drugs 
at all levels of athletic competition -- from the neighborhood to the 
schoolyard to the Olympic Games. We have submitted for the record a 
packet of our educational materials. This packet also is available to 
the public at www.healthycompetition.org. Throughout the coming year, 
we will sponsor a series of school- and community-based events urging 
young people to sign the Healthy Competition Pledge and to wear the 
symbol of drug-free athletics. We also are reaching out to parents, 
teachers, coaches, and community leaders who can make a difference in 
the lives of our nation's youth.

To oversee this campaign, Blue Cross and Blue Shield has endowed a new, 
nonprofit foundation known as the Healthy Competition Foundation. This 
foundation will serve as a permanent watchdog on doping issues. Along 
with Blue executives, the foundation's Board of Directors includes six 
Olympic medallists: Edwin Moses, the legendary hurdler; Frank Shorter, 
the world-class marathoner who is joining me on this panel; swimming 
stars Donna de Varona and John Naber; basketball gold medallist and 
current Cleveland Rockers guard Suzy McConnell-Serio; and wrestling 
hero Bruce Baumgartner. We believe the active participation of these 
internationally renowned, elite athletes provides a positive role model 
for young people. We are honored to have them join us in communicating 
the drug-free pledge to children who seek success on the field or on 
the court.

Let me briefly describe the reasons why Blue Cross and Blue Shield 
decided to tackle the problem of doping in sports. We believe the 
growing epidemic of steroids and other performance-enhancing drugs is 
one of the greatest challenges facing young people today. The use of 
these drugs has reached crisis proportions -- threatening the health 
and safety of thousands of athletes. Furthermore, doping is not limited 
to elite levels of athletic competition. In fact, performance-enhancing 
drugs are widespread at the community and inter-scholastic levels. 
Steroids and other dangerous substances -- including peptide hormones, 
stimulants, diuretics, and various dietary supplements -- are 
increasingly available to athletes of ever-younger ages. The rapid 
proliferation of these drugs poses a serious threat to the long-term 
health of America's next generation.

The National Institute of Drug Abuse estimates that more than 500,000 
children -- 175,000 teen-age girls and 325,000 teen-age boys -- have 
used steroids during the past year. In a recent survey we commissioned, 
one in four young people said they personally know someone who uses 
these drugs. Further, while two-thirds of kids said their parents are 
aware of performance-enhancing drug use by young people, fewer than 
one-third said their parents have actually talked to them about the 
dangers of these drugs.

Performance-enhancing substances pose tremendous risks to the long-term 
health of the young people who use them. Many of these complications 
are difficult to predict; often, they do not become evident until years 
after the substance abuse has occurred. Moreover, the available 
research on the health effects of these drugs is quite limited -- 
because young people are taking them in unusually high doses and hiding 
their usage from their parents and physicians.
It is important to note that most of these drugs have legitimate 
medical uses. For example, certain steroids are commonly prescribed to 
treat disorders of the pituitary or adrenal gland. Steroids may also be 
used to reduce inflammation resulting from a medical problem. 
Similarly, many drugs used to control cold and flu symptoms include 
small doses of stimulants.

Each of the drugs I've just described has been extensively tested for 
safety and efficacy when used appropriately. But athletes are obtaining 
these legal substances in illegal ways -- and then taking them in much 
greater doses than intended. Little is known about the long-term health 
effects of this drug abuse, because the compounds involved have never 
been tested at such excessive doses. Even less is known about the long-
term effects of over-the-counter dietary supplements, such as ``andro'' 
and amino acids.

The limited information that we do have about the long-term 
complications of these drugs is frightening. For example, anabolic 
steroids can have adverse effects on virtually every organ of the body. 
Steroids cause elevations in blood pressure and cholesterol, increasing 
the athlete's risk of heart disease and stroke. These drugs also cause 
fluid retention and produce menstrual irregularities in women, along 
with enlargement of the prostate gland in men. Additionally, steroids 
can contribute to serious behavioral and psychiatric disorders, as well 
as a host of liver diseases.

These complications may barely scratch the surface of the medical 
problems caused by performance-enhancing drugs. New problems are 
becoming increasingly evident as more and more athletes admit to doping 
and seek help. Clearly, doctors need more information about the long-
term consequences of abusing these drugs and how those complications 
can be treated. Here's how we can help. The Healthy Competition 
Foundation will fund further research among athletes who admit to drug 
use. We will work to better understand the long-term health challenges 
they face. By demonstrating the courage to come forward and admit their 
problems, these athletes will help us turn the tide on the epidemic of 
performance-enhancing drug use.

Along with our research and educational activities, we have called upon 
the International Olympic Committee to take stronger action to ensure 
that the Olympics are drug-free and fair to all. We urge the I-O-C to 
establish an independent anti-doping agency and to unify drug testing 
standards around the world. We believe action by the I-O-C is critical, 
because internationally elite athletes have tremendous visibility and 
serve as role models for millions of young people spanning the globe.
Furthermore -- as health professionals who serve America's athletes -- 
we believe we have earned a place at the table in any international 
debate about doping. We believe Blue Cross and Blue Shield should be 
represented on any new anti-doping oversight agency. We urge you to 
expand existing athletics oversight programs to not only test for 
banned substances, but also help educate athletes and coaches around 
the world about the risks these substances pose for athletes' long-term 
health. As your Subcommittee explores these issues further, I urge you 
to focus not only on questions of fairness or integrity, but also on 
the public health consequences of an athletic culture in which drug use 
is quietly tolerated -- or, worse yet, ignored.
I'm sure you share our outrage about the growing epidemic of 
performance-enhancing drug use, and I look forward to your continued 
participation in spotlighting the problem. This issue really hits home 
for many of us at Blue Cross and Blue Shield -- because many of us are 
competitive athletes, or the parents of children who play organized 
sports. Like you, we are deeply troubled by the notion that some young 
people will risk their lives to gain a few extra pounds on the bench 
press or a few extra inches in their vertical leap. Blue Cross and Blue 
Shield believes sports should represent the ideals we hold most dear: 
Hard work, dedication, and the desire to succeed. We must not let the 
scourge of drug abuse undermine these important lifelong lessons. And 
we must not let a minor athletic payoff today produce tremendous 
medical problems tomorrow.

Thank you again for the opportunity to testify today about the Healthy 
Competition campaign, and for your ongoing attention to this crucial 
public health issues. I would be happy to answer any questions.

    Senator Wyden. Thank you very much, and we apologize to 
you. I hope you realize in these last days it is hard to keep a 
schedule let alone know where you are going to be next.
    Mr. Serota. I do understand.
    The Chairman [presiding]. But we do appreciate your 
comments. After the others have commented, I have a question 
for you. But I think we should proceed to the other witnesses.
    Who is next? On our list, Nancy and Mr. Shorter.

                 STATEMENT OF NANCY HOGSHEAD, 
                   U.S. OLYMPIC GOLD MEDALIST

    Ms. Hogshead. Mr. Chairman and members of the Committee, 
Mr. Stevens, it is an honor to be here. And as a member of the 
group of athletes that urged the Committee to hold the hearing, 
I am greatly appreciative that you are doing so today.
    My name is Nancy Hogshead. I represented the United States 
swim team in the 1984 Los Angeles Olympics and became a three-
time Olympic champion and four-time medalist. I am an honorary 
board member of the Olympic Advocates Together Honorably, also 
known as OATH, the world's leading independent athlete-centered 
organization whose mission is to restore and maintain the 
values underlying the fundamental principles of the Olympic 
Charter.
    I am also the former president of the Women's Sports 
Foundation, and I am currently practicing law for the firm of 
Holland and Knight.
    Athletes are at the heart of the Olympics. Without them, we 
would have no games. It is their dreams, their will, their 
spirit and their performance that make the games a success and 
which give the Olympic Movement its sole. It is their 
experiences with the Olympic Movement that provide a credible 
point of view, not only for the cleanup of dope in sports, but 
the overall reform of the Olympic Movement.
    Today the Olympic Movement faces two moral crises, the 
crisis of corruption and the crisis of doping, both of which 
have the power to destroy it. Corruption in the Olympic 
Movement became front-page news when allegations surfaced about 
bribes and awarding the Winter Olympic Games to Salt Lake City.
    Since then, we have seen resignations, recriminations and 
finger pointing. The IOC's response to the corruption crisis 
has been late, inadequate and inconsequential. A crucial 
question that should now be asked is whether the IOC can, in 
fact, reform itself and thereby restore the public's trust in 
Olympic competition. To date, the evidence is lacking the IOC 
has the will or ability to do what needs to be done.
    Senator Stevens, I know this is reminiscent of the status 
of the USOC back in the early seventies, when you put together 
the 1978 Amateur Sports Act. At that time, I know we had 
unelected, unrepresented, predominantly white males making 
decisions for the benefit and to the detriment of the athletes.
    As a result of that major restructuring that you did, we 
now have a much stronger USOC. And we have a much better United 
States Olympic team.
    The IOC right now is naturally in tension with itself. On 
the one hand, the IOC represents ethics and values that make it 
a player on a stage for world peace and world cooperation.
    On the other hand, it manages a sports empire with hundreds 
of millions of dollars, billions of dollars. Every 2 years it 
presides over a vast international sporting festival which 
brings tens of thousands of the world's athletes and media 
together, which in turn generates billions in revenue for 
cities, media sponsors and outlets.
    At times, the values that make the IOC so noble conflict 
with the organization's money-generating efforts. The doping 
issue clearly demonstrates this natural tension. As somebody 
who has experienced the Olympic competition first hand and seen 
the power of the Olympic movement, I am concerned about the 
doping crisis facing the Olympic family. And I know that 
athletes around the world share my concern. I know that Frank 
is going to concur on that point.
    There is a question of moral corruption when it comes to 
doping. Doping is a scourge that afflicts all athletes, those 
who are clean and those who are not, those who are on the 
podium and those who dream of greatness on the fields and 
arenas around the world. It ruins the lives, reputations and 
health of thousands of athletes worldwide, and it erodes the 
public trust in the Olympic Movement.
    All Olympic medals end up being tarnished by the sad and 
desperate acts of a few. Great Olympic performances, like that 
of Florence Griffith Joyner, are undermined by whispers of the 
use of performance-enhancing drugs. In the seventies and 
eighties, there were repeated accusations by swimming experts 
that the East German team was using anabolic steroids. However, 
the IOC did nothing to prevent them from taking home Olympic 
gold medals. Few athletes spoke out because it was classified 
as poor sportsmanship.
    At the height of my career, I was changing in a dressing 
room, and I heard men come in and enter the locker room. They 
chatted away. I quickly finished dressing and, you know, went 
around. I rounded the bend there, I saw that who had come in 
were female East German swimmers, athletes that I had just 
assumed were men coming into the locker room. These were 
obvious, flagrant, blatant abuses. We later got absolute 
confirmation on this. And nothing was done to take away those 
gold medals.
    As previously mentioned, the doping crisis has been 
prevalent since the seventies and eighties. The IOC's response 
to it, again, has been late, inadequate and inconsequential. 
Now is the time for the stakeholders in this public trust to 
take the leadership role in establishing an anti-doping agency 
to ensure that the agency is accountable and open to public 
scrutiny.
    New doping control measures must be rooted in sport ethics 
and values. They must flow from athlete agreement and must 
respect athletes' rights to privacy. All efforts are in vain 
unless anti-doping measures are independent, accountable and 
fairly administered. OATH supports a concept of out of 
competition, year-round, unannounced random drug testing.
    As guardians of the public trust in the Olympic Movement, 
the IOC must be answerable to their public. The IOC's proven 
lack of leadership with corruption scandals and the ongoing 
doping scandals indicates that it is time to put the doping 
crisis in the hands of those experts who care about preserving 
the Olympic Movement and the athletes who will be asked to 
abide by the measures taken to remedy these problems.
    International models for a structure, composition and 
mandate of such an anti-doping agency already exist. These 
organizations have sought athlete input and consent into the 
process. As a result, the process respects the right of 
athletes. They have bought the best experts. The IOC must be 
prepared to relinquish control of the new agency in order to 
secure independence and a genuine international partnership.
    In order for there to overall reform of the IOC, athletes 
must be allowed to elect their own representatives and 
participate in the decisionmaking process. Currently, no 
athletes from the Athletes Commission sit on the IOC's 
executive board.
    It is essential that athletes be formally represented on 
the executive board, a recent athlete, somebody who has ground 
zero, first-hand experience and knows what is going on today, 
and a lifetime athlete, somebody with sort of 20,000 feet 
experience, somebody who has been around for a long time and 
has the institutional memory that is so important.
    The athletes and the all the stakeholders in this public 
trust have to work together to build a brighter future for the 
Olympic movement and for tomorrow's young Olympic champions. As 
an athlete-led group, OATH members want an Olympic movement 
which they can be proud of and which they are happy to leave 
their children and their neighbors.
    It is time for an anti-doping agency that is accountable, 
transparent and independent. It is time to conduct out-of-
competition, random, unannounced, year-round drug testing of 
athletes. It is time for the IOC to work with experts and 
stakeholders in setting up such an agency. It is time for a new 
beginning.
    My efforts here today with OATH are to ensure the Olympic 
movement as a public trust continues to thrive and inspire 
young athletes for generations to come. Thank you.
    [The prepared statement of Ms. Hogshead follows:]

    Prepared Statement of Nancy Hogshead, U.S. Olympic Gold Medalist
Dear Mr. Chairman and Members of the Committee;

I am honored to have the opportunity to testify before this Committee 
today. My name is Nancy Hogshead, and I represented the United States 
Swim Team at the 1984 Los Angeles Summer Olympics where I became a 
three-time Olympic Champion and four-time medalist. I am an Honorary 
Board Member of OATH (Olympic Advocates Together Honorably), the 
world's leading independent athlete-centered movement which brings 
together stakeholders of the Olympic Movement creating an open debate 
and forum for discussion. Its mission is also to restore and maintain 
the values underlying the Fundamental Principles of the Olympic Charter 
and to promote ethical guardianship, responsible governance and 
effective management of the Olympic Movement. I am also the former 
President of The Women's Sports Foundation and am currently. practicing 
law for the firm of Holland & Knight LLP.

As someone who has experienced Olympic competition first-hand, I am 
keenly aware of the athletes are especially concerned about the doping 
crises facing the Olympic Movement. Through the many years of 
preparation and training for the Olympics, and ultimately winning three 
gold medals, I realized the incredible power of the Olympics. Now, I 
want to ensure that as a public trust it continues to thrive for 
generations of aspiring young athletes to come.
Athletes are the heart of the Olympics. It is their dreams, their will, 
their spirit and their performances that make the Games the spectacle 
they are and which give the Movement its soul. It is the athletes' 
honest blood, sweat and tears that has sustained and hopefully will 
continue to sustain the Olympic movement. Athletes live the Olympic 
dream and our voice provides a credible point-of-view not only in the 
clean up of doping in sport but in the clean up of the Olympic 
Movement.

A crucial question at this time is whether the International Olympic 
Committee (IOC) can reform itself. To date the evidence is lacking that 
it has the will or the ability to do what needs to be done.
The IOC has enormous potential. The Olympic Movement, however, faces 
two morale crises: the crisis of corruption, and the crisis of doping, 
either which have the potential to destroy it.

Corruption in the Olympic Movement became public knowledge when 
information was made available to the media about bribes, which were 
sought and paid in awarding the 2002 Winter Olympic Games to Salt Lake 
City. A handful of IOC members have resigned rather that face 
expulsion, but the IOC's response to the corruption crisis has been 
late,inadequate and inconsequential. It has now come to light that 
similar events occurred with the Atlanta Bid.

The IOC is naturally in tension with itself. On one hand, the IOC 
represents ethics and values that make it a player on the stage for 
peace and world cooperation. On the other hand, it manages a sports 
empire worth hundreds of millions of dollars. Every two years, it 
presides over a vast international sporting festival which brings tens 
of thousands of the world's athletes and media together and which in 
turn generates tens of billions of dollars in revenue for cities, media 
outlets and sponsors. At times, thevalues that make the IOC so noble 
conflict with the organization's money generating efforts. The doping 
issue clearly demonstrates this natural tension.

For the purposes of this testimony I will focus on the doping crisis 
and the need for a meaningful role for athletes on this issue.
Doping is first and foremost an athletes' issue. It is a scourge that 
afflicts all athletes--those who are clean and those who are not--those 
on the podium and those who dream of greatness on the fields and arenas 
around the world. All Olympic medals end up being tarnished by the sad 
acts of a few. Great Olympic performances like that of Florence 
Griffith Joyner's feat are undermined by whispers, whispers of use of 
performance-enhancing drugs. It ruins the lives, reputations and health 
of thousands of athletes worldwide, and it erodes the public trust in 
the Olympic Movement.

Doping could destroy the Olympic Movement. Public support for the 
Olympic Games and the Olympic Movement rests in large measure on the 
belief that Olympic sport embodies the highest set of values.
From the early 1970's to the late 1980's there were repeated 
accusations by swimming experts that the East German swim team was 
using steroids, however the IOC did nothing to prevent them from taking 
home Olympic Gold Medals and setting new world records. Few athletes 
spoke out because in the public's naive eye it was classified as ``poor 
sportsmanship''. By example, Shirley Babashoff who competed for the 
United States Swim Team at the 1976 Montreal Olympic Games won 4 silver 
medals and watched the East German swimmers walk away with the gold 
medals. Babashoff did speak out and was brandished a sore loser, 
``Surly Shirley'' the press dubbed her.

While the East Germans had a systematic doping program fortheir 
swimmers and for virtually all of their world-class athletes, the IOC 
turned a blind eye for decades. They allowed steroid assisted athletes 
to gohome with Olympic medals. It was only thanks to an independent, 
outside voice that the steroid use was investigated at all. Swimming 
World Magazine obtained and published Stasi Files in 1993 which 
indicated that the T/E ratio of four of the top East German swimmers, 
including 1988 six-time Olympic Gold Medalist and hero Kristine Otto, 
were all above the acceptable 6/1 level during an internal, pre-
competition doping check-up, clearly indicating that they used illegal 
steroids to enhance their performance. East German doctors utilized 
clearance curves for each swimmer to discern when the athlete's T/E 
level dropped back to normal, thus enabling the athletes to take drugs 
during training, discontinue the drugs prior to competitions and turn 
in clean drug tests administered at competitions.

After the East German situation was exposed by Swimming World Magazine, 
the problem moved to China and the same pattern repeated itself. Again, 
the IOC took no action against this flagrant cheating.

As evidenced in the above, the doping crisis has been prevalent since 
the 1970's. The IOC's response to it has been terribly late, inadequate 
and inconsequential. Now is time for the stakeholders of this public 
trust to take the leadership role in establishing an anti-doping 
agency. Now is the time to ensure that not only is a new agency fully 
independent, but that it is accountable and open to public scrutiny. 
The IOC has already wasted decades on this massive problem, and now it 
is time to put doping in the hands of an independent body of experts 
whose only motive is to clean up Olympic competition for future 
generations of athletes. Now is the time to ensure the public trust in 
the Olympic Movement is restored.

Doping is not a crisis of medicine or science, but rather a crisis of 
sport ethics and values. First, the judgement that a particular 
substance or activity is ``doping'' is an ethical judgement. New doping 
control measures must be rooted in sport ethics and values; they must 
flow from athlete agreement; they must respect athletes' rights to 
privacy; and all efforts are in vain unless and until anti-doping 
measures are independently, accountably and fairly administered and 
testing is performed out-of-competition, year-round, unannounced and 
random.

The IOC could have been leaders in a vigorous, concerted and world-wide 
effort to eliminate doping. It has not. The IOC could have led the 
world in creating a credible, ethics-based, independent, accountable 
organization to lead the fight against doping. It did not. Instead, it 
originally proposed an agency, based in Lausanne and to be headed by 
the IOC President Juan Antonio Samaranch. That idea was rejected by the 
delegates to the World Conference on Doping in Sport in Lausanne in 
February of 1999. The IOC has since created a ``Medical Commission'' 
without a medical expert as its leader and once again was accountable 
and answerable to no one. The IOC has failed to reach agreement and the 
current proposal, based on early discussions and still very much in its 
infancy stage, is for an agency based in Lausanne, with as yet to be 
determined partnerships and relations with other agencies or national 
governments. The IOC has not responded with a proposal for a world 
agency that would bring together the requisite anti-doping partners; 
the experts, the governmental liaisons, the International Sports 
Federations, and the athletes. In the meantime, the lives, reputations 
and health of countless athletes around the world have been suffered.
Throughout this internal dialogue the IOC is having with itself, the 
IOC has not reached out to the effected athletes nor to the expert 
anti-doping agencies who currently conduct successful out-of-
competition, random, unannounced, drug-testing. Seven countries 
(Australia, Canada, Great Britain, Sweden, Norway, the Netherlands, and 
New Zealand) have worked together to create common standards and 
protocols. They have experience running effective, open, and 
accountable testing programs. Has the IOC tapped into their collective 
wisdom? No.

Until now, the conceptual structure of anti-doping efforts has been the 
creation of rules based on ill-defined criteria, which are then imposed 
on athletes from above. Unless the IOC seeks active and informed 
athlete agreement and consensus, the fight against doping is doomed to 
the same fate as the IOC's war in the defense of amateurism. The IOC 
recently published the Olympic Movement Anti-Doping Code, which we find 
inadequate in key areas:

<bullet>  Doping control can only be accomplished by effective out-of-
competition, year-round, random and no-notice testing. The IOC code 
refers to such testing but offers no indication of how that testing 
would be carried out to ensure fairness, effectiveness and respect for 
the privacy anddignity of athletes.

<bullet>  The proposed anti-doping agency needs to be independent, open 
to public scrutiny and accountable in order to be credible. For this 
credibility, the IOC must be prepared to relinquish control of the new 
agency in order to secure its independence. The natural tension between 
doping detection and profit-making must be removed from within IOC's.

Athletes around the world who compete in summer and winter Olympic 
sports are in favor of anti-doping measures. They want a level playing 
field. Members of the 10C's Athletes' Commission are proposing a 
``Doping Passport'' which would be. an accessible and public indication 
of an athlete's availability for and history of doping tests. While the 
details of the ``Doping Passport'' have yet to be worked out, the 
creation of an athlete agreement to end doping and accept the testing 
required to enforce a level and clean playing field are critical in 
eliminating doping.

OATH, as the world's leading independent, international athlete-
centered organization of stakeholders and experts, can facilitate such 
undertakings. OATH started as a gathering of advocates who believed in 
or had lived that Olympic dream. OATH members want to pass on something 
better than the current corruption--something grand and noble; OATH 
members want an Olympic Movement which they can be proud of and into 
which they are happy to lead their children and their neighbors.
OATH members felt that the IOC-created reform process would not hear 
their voices, that they would again be marginalized and excluded. That 
is the genesis of The OATH Report. The Report was written in 
consultation with athletes and experts. It is a call to all those who 
believe in the Olympic Movement, those who watch the games and 
encourage their children to strive for excellence, those who drive 
their kids to swimming practice at 6am every morning. It is a call to 
those who profit from the Games, to sponsors and the media, to care for 
their investment. It is a call to governments that invest public funds 
in sport, the Gaines and bids for Games and to those who support the 
Movement through favorable tax arrangements. The Report is a call to 
partners to help the Olympic Movement be the best it can be. Together 
we want to make the world a better place through sport.

Outlined below are OATH's specific recommendations with respect to an 
anti-doping agency in which the IOC is one of many stakeholders in a 
new, independent, accountable, transparent, international, anti-doping 
agency:

1. The agency be rooted in sport ethics and values and will be driven 
by athlete agreement. Athletes, scientists, medical and ethical experts 
must be involved in drafting the anti-doping Code and developing the 
structure of the new agency. Athletes must formally approve theanti-
doping code.

2. Athletes be represented at all levels of the agency.

3. The agency be independent and accountable. The agency must have an 
independent governing council, scientific, medical, ethical, 
educational, legal and athletes' commissions.

4. The agency conduct doping control measures to the highest 
international, independent standards. The Agency adopt the 
International Anti-Doping Arrangement, International Standard for 
Doping Control International Organization for Standardization, Publicly 
Available Specification.

5. The agency conduct all doping control activities with due respect 
for the athlete, personal rights and the fairness of due process.

6. The agency conduct on-going, independent, legal and ethical reviews 
of its operations and make the results publicly available.

7. The agency lead in the development of educational and consensus-
building programs to pursue ethics and integrity in sport.

8. The agency conduct and sponsor doping and doping detection research 
to the highest standards of medical and research ethics. In particular, 
research should not be conducted without the express, written, informed 
and non-coerced consent of the athletes whose bodies or samples are 
being studied.

The doping crises and corruption crises are symptomatic of the overall 
need to clean up the IOC by creating an organization which is more 
accountable, transparent, inclusive and democratic.

Now, lets consider the clean up of the IOC. The issues confronting the 
IOC are not new to the Senate. Similar issues arose in the United 
States in the early 1970s, which ultimately led to the adoption of the 
Amateur Sports Act of 1978. Thank you, Senator Stevens. The USOC 
suffered from the same problems; an unelected, unaccountable body of 
white males without a constituency were not acting in the best interest 
of the USOC or the athletes. Sweeping reforms have given the United 
States a more democratic and representational organization. As a result 
of these dramatic reforms, we have a much stronger and healthier United 
States Olympic Team.

OATH believes the new IOC should be ethics and values-based and 
athlete-centered, accountable as the Olympic Movement is a public trust 
and it stewards that movement on behalf of its stakeholders; democratic 
so as to make room for democratically elected members drawn from key 
stakeholder constituencies; and transparent so that it opens its books 
and its decision-making to public scrutiny and criticism.
The Olympic Games are not just a multi-sport world championships. 
Olympism is a set of values embodied in the Olympic Movement, which is 
a movement for social change. When asked, the world public identifies 
Olympic values of excellence, dedication, fair play and international 
peace as key ingredients of the Olympic Games.

Olympic rings connote a higher set of ethics and values and this is 
what the public support is-based on. If the Olympic Movement loses 
support, if the public comes to see Olympic values mocked by the 
practices of the IOC, then the sponsorship value of the Olympic Games 
will diminish. Preservation of Olympic ideals is therefore not just the 
right thing to do, but it is also the best way of preserving the 
success of the Games.

The IOC stands in a management role to the Olympic Games and the 
Olympic rings, but the IOC is much more; they are stewards of the 
Olympic Movement. Currently, the IOC members are unelected and 
unaccountable--ambassadors of the IOC to their home countries rather 
than representatives of constituencies. Of the one hundred and five 
current members, all but eleven are men, and they hold office until 
they are eighty years old. They answer to no one.

The purpose of the Olympic Movement and the Olympic Gaines is to 
further ``sport development'', and to use sport to effect both personal 
and cultural change. That is Olympism. Formal mechanisms for openness 
and scrutiny and the development of several key constituencies, so that 
they can play a role in decision-making, are required.
Although there is an Athletes' Commission it needs to be strengthened 
to legitimately have the voices of athletes represented.
Working members of the IOC Athletes' Commission are still too few in 
number and they exercise relatively little direct power within the 
organization. The IOC Athletes' Commission needs to be strengthened by 
becoming an independent, even more democratically-based, grass-roots 
association of athletes.

The IOC athlete members and the athletes that sit on other committees 
and commissions should be the visible tip of an organization that has 
an on-going and close connection with athletes around the world. There 
should also be Paralympic athlete representation on the IOC Athletes' 
Commission.

Given the size of the full IOC session and the complexity of the IOC, 
much of the decision-making necessarily falls to a smaller group, the 
IOC Executive Board. Currently no athletes from the Athletes' 
Commission sit on the IOC Executive Board. It is essential that 
athletes be formally represented on the Executive Board, one recent 
athlete (competed within the last eight years) and one lifetime athlete 
(or World Olympian).
Outlined below are some other points to consider about the IOC's 
Athletes' Commission:

1. The Chairman (Peter Tallberg) and Vice-Chairman (HSH Prince Albert 
of Monaco) are appointed members of the Athletes' Commission and are 
the only two members who sit in the full IOC session.

2. The ``elections'' are not fully democratic in that there are varying 
methods by which NOCs putforward candidates.

3. The athletes who are elected are still in competition and in many 
instances are unable to fully represent their peers because of their 
own training and competition schedule.

4. The athletes who are now outside the 8 year rule for being 
``active'' have no voice to represent them and their continuing 
commitment to the Movement.

5. It is not an independent voice, it reports to the IOC President. It 
does not ask the IOC to be accountable to wider constituencies.

6. Comprises of 19 members of which 10 members have been elected some 
way or another in a modified democratic approach.

The World Olympians' Association, which represents the Olympic athlete 
alumni, needs to be far more active than it has been since its creation 
and its mission needs to be much more dynamic than social. It should 
also be the source of a great deal of practical wisdom. Olympians 
should be encouraged and provided the tools with which to be 
ambassadors of Olympism. The Olympians' Association needs to be 
developed into an independent and democratically-structured 
organization.

This centrality of the athlete means that sport administrators and 
leaders need to think from the point-of-view of the athlete and 
evaluate proposals on the basis of how well they promote the growth of 
athletes as athletes and as people. Sport systems must be designed to 
promote growth and to ensure fairness, accountability and the 
protection of athletes' rights.

The Olympic Movement requires a culture of accountability: 
accountability to athletes, to governments, to NOCs, to IFs, to 
sponsors, to the press and to the public at large.

The culture of accountability requires openness. The Olympic Movement 
is a public trust and belongs to the people of the world. We, the 
people, are its owners. As stakeholders in this social movement, people 
can know their interests are being handled well only if they can 
scrutinise the activities of its stewards. As guardians of the Olympic 
Movement, the IOC must be answerable to their public. The IOC is 
accountable, when its decisions are demonstrably in the best interests 
of the Olympic Movement.

If all of this were the private property of a private club perhaps this 
would not matter. But the Olympic Games and the Olympic Movement are 
not the private preserve of a set of unelected, unaccountable officials 
presiding in Lausanne. The Olympic Games and the Olympic Movement were 
created for the world as a beacon of hope and peace and excellence. The 
founder of the Games and the Movement, Pierre de Coubertin believed 
that sport could be a force for good, that it could serve in the cause 
of peace and in the moral and physical development of youth. It is that 
vision that gives the Games and the Movement its power. The Olympic 
Games and the Olympic Movement are a public trust and its guardians are 
the IOC.

But they have lost their way. The response to IOC corruption comes too 
little and too late. There have been reports of unethical practices by 
IOC members dating back to the early nineties. But nothing was done. 
Finally, when the facts began to emerge about Salt Lake City the IOC 
created an ethics panel and encouraged some members to resign. But the 
rules were always there--what was lacking was the will to enforce them. 
The IOC could have signaled a new beginning. The leader of the IOC 
could have agreed, as requested, to testify before members of the US 
Congress, he declined. The IOC could have created a reform process that 
actively sought input and that embraced its critics. It did not, 
instead it hand-picked the members of Reform 2000 and structured a 
process without public hearings and without formal methods of input and 
consultation.

The IOC's proven lack of leadership with the corruption scandals and 
the on-going doping scandals indicates it is time to put the doping 
crises in the hands of those experts who care about preserving the 
Olympic Movement. Decisive action needs to be taken now on the doping 
front. We cannot afford to loose the public confidence in the Olympic 
Movement. Athletes care too much about the doping crises and athletes 
want something done about it immediately. Too much time has passed and 
too little has been done to address the issues. The 10C has had the 
benefit of 20 years and now doping is a massive crises threatening the 
on-going credibility of the Olympic Games.

The IOC has been gravely remiss in its endeavors. And, given the 
unaccountable, un-transparent, un-inclusive and undemocratic structure 
of the IOC this is not surprising. However, as a public trust the 
Olympic Movement deserves better. It behooves the stakeholders of this 
public trust notto work together and build a brighter future for the 
Olympic Movement and for tomorrow's young and aspiring Olympic 
Champions. It is time for an anti-doping agency that is accountable, 
transparent and independent. It is time to conduct out-of-competition, 
random, unannounced and year-round testing of athletes.
It is time for the IOC to work with the experts and stakeholders in 
setting up such an agency. It is time for a new beginning. It is time 
to set in motion the anti-doping agency which will provide a clean 
start to the 21st century.

    The Chairman. Ms. Hogshead, you and Mr. Shorter have 
inspired not only athletes but a lot of public servants and a 
lot of Americans at--before I go to Mr. Shorter, I just want to 
ask you one question.
    When you saw these athletes, you mentioned the anecdote 
concerning being in the dressing room, did that ever tempt you 
to take these drugs?
    Ms. Hogshead. Well, I think--Shirley Babashov was probably 
the fall person. She got dubbed as being Surly Shirley for 
being upset about the fact that she was getting silver medals 
next to people who now have been proven that they in fact were 
using anabolic steroids.
    So at the time, the Olympic women's swimming team had felt 
like we had the moral high ground. You know, many times we got 
the gold medals. Sometimes we did not. But we knew that we were 
not taking drugs. I never had anybody offer me steroids. I 
never had them come up even as a possibility.
    I was glad that there was never part of Olympic experience 
or part of my--but at the same time, I do have to say that I 
resented it when somebody would suggest that maybe I did take 
them, just because, well, you won a gold medal in the Olympics, 
and is that not what it takes? And I deeply resented that.
    The Chairman. Thank you.
    Mr. Shorter, welcome and thank you. I want to again thank 
both of you for being the motivating factor, you and several 
others brought the attention of this Committee and the Congress 
onto this issue. I thank you very much.

                  STATEMENT OF FRANK SHORTER, 
                   U.S. OLYMPIC GOLD MEDALIST

    Mr. Shorter. Carpe diem, seize the day. I truly believe 
that this is for the future of the Olympic Games and for the 
future of our children who will participate in them.
    Mr. Chairman, Senator Stevens, Senator Wyden in absentia 
because I truly enjoyed his remarks. I realize you are not 
allowed to clap and cheer in here, so I did not. Senator 
Hollings, who has also been instrumental here, and other 
distinguished members of the Committee in abstentia on both 
sides of the aisle.
    My name is Frank Shorter. I was a member of the 1972 and 
1976 United States Olympic teams. I think the point to bring up 
is, Nancy and I have won medals, but a huge and maybe even the 
bigger part of this is actually participating in the Olympic 
Games themselves.
    But I was fortunate enough to win a gold medal in the men's 
Olympic marathon in 1972 and a silver medal in the same event 
in 1976. It is an honor and a privilege to be here today before 
you to present as strongly as I can my carefully considered 
opinion with regard to illegal performance-enhancing drugs and 
state as strongly as I can that these drugs, based on my 30 
years of experience as a self-coached athlete and commentator, 
are a true threat.
    Now 2 years ago, I never would have dreamed that you would 
be hearing testimony from General McCaffrey, a member of 
President Clinton's cabinet, who knows not only how pervasive 
and serious the problem truly is, but also, like you, has the 
power to implement change. This is a bona fide plea on behalf 
of the world's athletes for help from the American government.
    There have been questions here as to just how that might 
happen. But I think it is possible, and I certainly do hope 
that it happens. Because without major changes in the system 
that detects these drugs and imposes the penalty, they will 
continue, and I emphasize continue, to be the price of 
advancement for every young athlete who aspires to emulate a 
sports hero and pursue his or her own athletic career to the 
highest level.
    There will continue to be no choice but to put yourself at 
risk, even if you are aware of the potential dangers and care 
about your health after your career is over. I think again what 
has not been brought here is a young athlete is a very athlete 
in one sense, but a very unaware and innocent and 
impressionable human being in another, more aware than their 
parents, but in that sense more vulnerable.
    Two years ago I might have sounded extreme, but I do not 
think I sound extreme now. I would just like to give a brief 
outline of what I perceive to be the recent confluence of 
events that created this unique and historic opportunity. 
Because I think General McCaffrey alluded indirectly to the 
opportunity that is here.
    During the 1978 Tour de France, drugs were seized by French 
customs officials from a car belonging to one of the 
participating teams. Included were human growth hormone, hGH, 
and erythropoietin, EPO, two drugs with which you are or will 
undoubtedly become familiar in the media buildup to the 2000 
Games.
    There were also news reports, and I think this is more 
significant in terms of children, there were also news reports 
that perfluorocarbon, PFC, which is an experimental, artificial 
blood, only legally available to medical research institutions, 
was discovered, virtually unattainable, experimental, 
artificial blood, possibly found in Tour de France team car on 
its way to the next stage of the tour.
    Those of us close to international sport were not 
surprised. The elite athlete's grapevine--and I am certain you 
all familiar with grapevines here in Washington. The elite 
athlete's grapevine is very extensive and very thorough, as is 
the grapevine of teenage athletes. I think, again, that is a 
point that is not emphasized here.
    Fortunately, we were very surprised and very pleased to see 
the level of public outrage amongst the French people. Finally, 
the parents of a nation were beginning to understand what was 
going on. Since then, the French government has given serious 
consideration to nationalizing all drug testing within its 
borders. Such an obvious threat to control prompted the 
International Olympic Committee to call for a worldwide drug 
summit to take place in Lausanne, Switzerland, in February 
1999.
    But between the time of this announcement and the summit, 
the Salt Lake City bid scandal broke, and suddenly it was more 
than a public relations problem for the IOC. This is because, 
as you saw with General McCaffrey being here, the United 
States, Canada, Australia, New Zealand and many members of the 
European Union sent cabinet-level delegations to the summit.
    General McCaffrey more than ably represented the athletes. 
I had the privilege to advise him beforehand, to brief him and 
to work with him once we were there.
    As an athlete and father, I was very pleased that we shared 
several views. But we both arrived in Lausanne having decided--
and I think this is what is important with regard to parents--
independently and unequivocally that our nation's children, as 
athletes, are currently at serious health risk.
    I think we are all finally getting through the denial to 
which he alluded and that the level playing field of the 
Olympic Games has now been chemically skewed. And taking 
illegal drugs is now the price of entry into the competition.
    Teenage athletes of the world, as I said, they have their 
grapevine, and they know this. And so they also know that they 
have no choice as to whether or not to take these drugs to 
ultimately reach the top.
    At this conference, unfortunately--again, I keep alluding 
back to General McCaffrey because we are so independently in 
parallel in our evolution of thought here. The IOC 
unfortunately attempted to maintain the status quo and proposed 
a worldwide drug testing agency be established with Juan 
Antonio Samaranch as its head.
    Here I would like to make an aside. Again, the general 
alluded to the process of the IOC, which is basically to do 
things by executive committee and then to present them to a 
body that is handpicked by the president of the IOC to simply 
approve what is there. Well, that was the process that was 
going to take place in Lausanne, but the governmental entities 
in attendance decided that that was not for them and for the 
citizens of their country.
    In his address at the conference, General McCaffrey 
articulated a position, which is now 6 months old, and, as 
Senator Wyden alluded, really perhaps has not really been 
addressed yet by the IOC. Perhaps we will have negotiations go 
on for several more years in that regard.
    But as Nancy said, a truly independent, transparent, 
worldwide drug testing agency has to be established to oversee 
the testing. And so common sense tells you for this reason it 
cannot be based in Switzerland, and the IOC cannot be in 
control of the findings that are reported.
    The testing has to be year-round, random and involve blood, 
as well as urine, which has not been brought up yet, but will 
be later, because many performance-enhancing drugs produce 
long-term effects but will test positive for only a matter of 
days or weeks.
    Currently only urine testing is used. The drugs of choice, 
human-growth hormone and EPO, are only detectable through blood 
testing.
    Three, samples have to be saved for at least 10 years. I 
will get into that a little later. The disincentive to take 
illegal drugs has to be maximized, rather than minimized. And 
the point is right now the disincentive is not there. There 
should be no statute of limitations, and there should be 
ongoing advanced research funded and technically supported by 
both sports federations and government.
    Now for my personal views. It is not just about catching 
cheaters. It is also about creating as strong an overall 
deterrent system as is humanly possible. That is what I believe 
the clean athletes of the world truly want, as well as most and 
many of those--and I would say most--who currently feel 
compelled to take these drugs and are indeed taking them.
    So I want you to consider what I am going to say as an all-
of-the-above approach, because that is what has to happen here. 
Yes, part of the program has to be physical and immediate. This 
is the testing and penalty side. But the athletes will tell you 
it also has to be mental.
    This means making the process an ongoing, constantly 
evolving, psychological competition in which the cheater never 
feels secure in his achievement and always a bit behind whose 
mission it is to catch them.
    You cannot simply be reactive. That is the history to which 
Senator Wyden was alluding. You have to be retroactive with 
regard to no statute of limitations. You have to be proactive.
    With regard to the independent drug testing agency, 
everything possible should be done to avoid even the hint of a 
conflict of interest. This means no absolute IOC control. The 
current system is a textbook example of a conflict of interest.
    Along with that goes an inherent disincentive to catch 
cheaters. It is not individuals who have the disincentive. It 
is that system as it exists that has a built-in disincentive to 
catch the cheaters.
    This is where the IOC, I think, has not really be aware. 
The athletes are well aware of this disincentive. It is that 
much more motivation for them to find ways to stay ahead of the 
testing. In other words, the IOC is in a competition with the 
athletes who are cheating. But the IOC was not formed to 
compete with the athletes and try to detect these cheaters. So 
in a sense, the procedures they developed historically, and 
perhaps it is even in their genes as an organization, was to 
put on the Olympic Games. They did not evolve to catch 
cheaters.
    With regard to any statute of limitations, it is 
intuitively obvious to me as an athlete that to be constantly 
in fear that even your grandchildren might have to give back 
your Olympic medals would be a huge deterrent. But believe it 
or not, those who cheated with drugs in the Atlanta Olympics 
are now home free under the 3-year statute of limitations just 
adopted by the IOC between their drug summit and now.
    With regard to year-round testing and the saving of 
samples, cheaters should always live in fear. The United States 
Government's experience in drug testing would be invaluable to 
the new agency, so that procedures could be standardized and 
made less vulnerable to technical legal challenge.
    I view the taking of performance-enhancing drugs as a 
fraud. And under international law there should be no statute 
of limitations on fraud.
    With regard to ongoing research, it adds a sense of 
forever. Again, it is a competition. The pursuit should be 
methodical and relentless. The cheaters have to know that 
testers are committed morally and intellectually to catching 
them. And that the monetary and laboratory resources available 
to the agency, this independent agency, will be worldwide.
    Now, all this having been said, I am very optimistic. 
Again, carpe diem. I think the time is right. My emersion and 
love for my sport tells me the time for a drastic change in 
Olympic drug policy has arrived. As the parent of a young 
runner with talent, I am optimistic that perhaps in 5 years he 
will not be faced with the option of having to take drugs.
    This past summer he was an intern on a ship in the Bay of 
Fundi putting tracking collars on gray whales. I am much 
happier that he was there this summer than on the European 
track circuit.
    Finally, I have no doubt the true Olympians present and 
future will be cheering the drug-free, level playing field 
louder than anyone. Thank you. And I would like this submitted 
for the record.
    [The prepared statement of Mr. Shorter follows:]

    Prepared Statement of Frank Shorter, U.S. Olympic Gold Medalist

 Carpe Diem-Seize the Day-For the Future of the Olympic Games and Our 
             Children Who Are The Olympians of the Future 

    Mister Chairman and other distinguished members of the committee on 
both sides of the aisle. My name is Frank Shorter. I was a member of 
the 1972 and 1976 United States Olympic teams. In addition I was 
fortunate enough to win a Gold Medal in the men's Olympic marathon in 
1972 and a silver medal in the same event in 1976. It is an honor and 
privilege to be able to appear before you today to state as strongly as 
I can my carefully considered opinion with regard to illegal 
performance enhancing drugs in sport. It is an opinion based on thirty 
years of experience as a self-coached athlete and commentator.
    Two years ago, I would have never dreamed you would be hearing 
testimony from General McCaffrey, a member of President Clinton's 
Cabinet who not only knows how pervasive and serious the problem truly 
is, but also, like you, actually has the resources and power to 
implement change. This is a bone fide plea on behalf of the world's 
athletes for help from the American government.
    Without major changes in the system that detects these drugs and 
imposes penalties, they will continue to be the price of advancement 
for every young athlete who aspires to emulate a sports hero and pursue 
his or her career to the highest possible level. There will continue to 
be no choice but to put yourself at risk, even if you aware of the 
potential dangers and care about your health after your career is over.
    Two years ago I might have sounded extreme. I do not think I sound 
extreme now, and, would like to outline what I perceive to be the 
recent confluence of events that created this unique and historic 
opportunity for you to act.
    During the 1998 Tour De France, drugs were seized by French customs 
officials from a car belonging to one of the participating teams. 
Included were human growth hormone (HGH) and erythropoetin (EPO) two 
drugs with which you are, or will undoubtedly become, very familiar 
during the media buildup to the 2000 Olympic Games in Sydney. There 
were even news reports that perflourocarbon (PFC), an experimental, 
artificial blood only legally available to medical research 
institutions was discovered. Virtually unattainable, experimental, 
artificial blood possibly found in a Tour De France team car on its way 
to the next stage of the Tour.
    Those of us close to international sport were not surprised. The 
elite athletes' grapevine is very extensive, as is the grapevine of 
young athletes who are emulating their heroes and heroines. 
Fortunately, we were very surprised and very pleased to see the level 
of public outrage amongst the French people. Finally, the parents were 
starting to understand.
    Since then, the French Government has given serious consideration 
to nationalizing all drug testing within its boarders. Such an obvious 
threat to its control prompted the International Olympic Committee to 
call for a world wide Drug Summit to take place in Lausanne, 
Switzerland in February of 1999. Between the time of this announcement 
and the summit, the Salt Lake City Bid Scandal broke. Suddenly, it was 
more than a public relations problem for the IOC.
    This was because the United States, Canada, Australia, New Zealand 
and many members of the European Union sent cabinet level delegations 
to the summit. We were more than ably represented by General McCaffrey, 
Director of the White House Office Of National Drug Policy And Control, 
whom I had the privilege to brief beforehand, accompany to the summit 
and advise once there.
    As an athlete and father, I was very pleased several of my views 
were shared by the General, but, we both arrived in Lausanne having 
decided independently and unequivocally, that our nation's children, as 
athletes, are currently at serious health risk. The level playing field 
of the Olympic Games has been chemically skewed. Taking illegal drugs 
is now the price of entry into the competition, and, the teenage 
athletes of the world know this. They no longer have a choice of 
whether or not to take these drugs in order to ultimately reach the 
top.
    The IOC, unfortunately, attempted to maintain the status quo and 
proposed that a world wide drug testing agency be established with Juan 
Antonio Samaranch at its head. This was viewed as unacceptable by the 
governmental ministries in attendance, because it would not be truly 
independent and transparent.
    In his address to the conference General McCaffrey articulated a 
position with which I, as an athlete, totally concur:

    1. A truly independent, transparent world wide drug testing agency 
has to be established to oversee all testing for illegal performance 
enhancing drugs and enforce the penalties imposed for their use. For 
this reason, it can not be based in Switzerland and the IOC can not be 
in control of the findings or the way in which these findings are 
reported.

    2. The testing has to be year round, random and involve blood as 
well as urine tests. Many performance enhancing drugs produce long term 
effects but will test positive for only a matter of days or weeks. 
Currently, only urine testing is used and the drugs of choice are only 
detectable through blood testing.

    3. Samples have to be saved for at least ten years. The 
disincentive to take illegal drugs has to be maximized not minimized.

    4. There should be no statute of limitations.

    5. There should be ongoing, advanced research funded and 
technically supported by both sports federations and governments.

    Now for my personal views--It is not just about catching cheaters. 
It is also about creating as strong an overall deterrent system as 
humanly possible. I believe this is what the clean athletes of the 
world truly want, as well as most of those who currently feel compelled 
to take these drugs. Consider it an ``all of the above'' approach.
    Yes, part of the program has to be physical and immediate This is 
the testing and penalty side. But, the athletes will tell you it also 
has to be mental. This means making the process an ongoing, constantly 
evolving, psychological competition in which the cheater never feels 
secure in his achievement and always a bit behind those whose mission 
it is to catch him.
    With regard to the independent drug testing agency: everything 
possible should be done to avoid even the hint of a conflict of 
interest. This obviously means no IOC control. The current system is a 
textbook example of a conflict of interest with an inherent 
disincentive to catch cheaters. The athletes are well aware of this 
disincentive, and, are that much more motivated to find ways to stay 
ahead of the testing technology.
    With regard to year round testing and the saving of samples: the 
cheaters should always live in fear. United States governmental 
experience in drug testing would be invaluable to the new agency so 
that procedures could be standardized and made less vulnerable to 
technical, legal challenges.
    With regard to any statute of limitations: it is intuitively 
obvious to me, as an athlete, that to be constantly be in fear that 
even your grandchildren might have to give back your Olympic medals 
would be a huge deterrent. Believe it or not, those who cheated with 
drugs in the Atlanta Olympics are now ``home free'' under the three 
year statute of limitations just adopted by the IOC.
    I view the taking of performance enhancing drugs as perpetrating a 
fraud, and under international law, there is and should never be a 
statute of limitations for fraud. Medals, honors and money should be 
returned whenever it might be determined illegal performance enhancing 
drugs were used.
    With regard to ongoing research: it adds a sense of ``forever''. 
The pursuit should be methodical and relentless. The cheaters have to 
know the testers are committed morally and intellectually to catching 
them and that the monetary and laboratory resources available to the 
agency will be world wide.
    All this having been said, I am very optimistic. My immersion in 
and love for my sport tells me the time for a drastic change in Olympic 
drug policy has indeed arrived. As the parent of a young runner with 
talent, I am optimistic that perhaps in three years he will not be 
faced with the option of taking drugs because all our young athletes 
will be emulating drug free Olympians. Finally, Ihave no doubt the true 
Olympians, present and future, will be cheering the drug free level 
playing field louder than anyone.
So, I urge you: Carpe Diem-Seize the Day 

    The Chairman. Thank you. Without objection, your statement 
will be made part of the record.
    I want to thank all three witnesses.
    Ms. Hogshead, do you share Mr. Shorter's optimism that the 
time is right and that we can act and that the IOC is going to 
act in a manner which will resolve these problems?
    Ms. Hogshead. Do I think the IOC will act in a manner? I 
think that they need outside groups like OATH to get them to 
act, if they are going to. When I was swimming, I think that 
the United States Olympic Committee did an excellent job of 
testing us. We were tested year-round. And I am grateful that 
we had all those tests that went on.
    I have talked to people who have taken--who told me at the 
time that they were taking steroids. They were not swimmers. 
They told me they were taking steroids. And to them steroids 
was like spinach. It was the same thing. It was one more thing 
that they did to help them do better.
    It was like getting enough rest. It was like eating right. 
It was like training. Their attitude was, if I do not work hard 
when I take these steroids, they do not anything. So it is not 
the steroids. It is the fact that I am working so hard while I 
am doing all these other things.
    That is what we need to attack. When Frank was talking 
about the--you know, what can we do to undermine or to change 
our attitude about--to help the young children today.
    The Chairman. Mr. Shorter, General McCaffrey and others 
have commented on the positive influence of Dr. Kissinger in 
this process. Have you gotten the same impression?
    Mr. Shorter. I was just made aware of Dr. Kissinger's 
involvement the other day, but I took it as a very, very 
significant happening. Because I have been in my sport for 30 
years, and I understand that I think there is probably no one 
better suited to approach the IOC than a true diplomat and 
someone with the capability to present another side and perhaps 
a bit of the reality of the situation.
    Because you still have to think of the International 
Olympic Committee as an entity that has total discretion. And 
so you are dealing with a body. At least the athletes' 
perception always was that they had total discretion.
    Then I think what has been more important over the last 2 
years is that it truly has come to the point where the world is 
starting to understand that the IOC does, as Nancy said, hold 
the Olympics in trust for the rest of the world and for the 
athletes of the world and the citizens. And that always means 
the children.
    I think this obligation, they, as trustee, if you want to 
think of it this way, should take all the other help that they 
can possibly get. And perhaps Mr. Kissinger can convince Juan 
Antonio Samaranch that, as General McCaffrey said, we are all 
in this together. The only enemy is the drugs.
    The Chairman. There is so much at stake here, which is the 
credibility of the transcendent event in sports in the world.
    Senator Stevens.
    Senator Stevens. No, I do not have any questions. I have 
some problems, and I think we all ought to address them. 
Because I am reminded of the skating incident and the problem 
of how an organization that is putting on these games can 
protect itself from liability, if there is an error. We have 
some real extensive legislation to pursue here, if we are going 
to have this kind of--develop this kind of regime at the pace 
you want to go.
    I am not disagreeing with the goal, but it is whether or 
not we have the framework that will permit these judgments to 
be made. Human beings are not perfect. And we are talking about 
testers that are going to make mistakes. And that is going to 
lead some real intensive litigation.
    Nancy, you will be very busy.
    But when you look at this, I think that it will be very 
timely for us to address this early next year and see if we 
cannot find some way to achieve some of the limitations on 
liability that are going to be required, if we are to go as 
fast as you want to go, Mr. Shorter.
    Yes, Nancy?
    Ms. Hogshead. Yes. I just want to say that that is why I 
think it is key to involve the athletes in whatever drug 
testing process goes on and is ultimately adopted, that the 
athletes, through their representatives, agree that this is the 
best way, you know, obviously with input from experts, but the 
best way to do it.
    My feeling is, in talking with the athletes--and Frank can 
talk about this as well--is that we would welcome blood 
testing. It is much more accurate. You know, whenever you have 
humans involved, there is always going to be some mistakes. But 
it is the most accurate way to go right now. And they simply 
will not adopt it without consulting the athletes.
    What is your read on that, Frank?
    Senator Stevens. Well, that was the question I was going to 
ask Mr. Shorter. That would be my only question. I remember too 
well a time when I was in a rural part of my state, and I ate 
some seafood, shellfish. And I ended up with enormous balls on 
my feet and my hands, had to be Medivac'd.
    When I got into the hospital, they gave me a substance that 
made them disappear. I later discovered that it was a steroid. 
Now I am told that if I had a blood test today, that will show 
up. And I did not voluntarily take it even.
    Now you have some areas here, in fairness to athletes, that 
we have to pursue to make sure that there is not a snap 
judgment made about the use of these substances. And that is I 
agree with you. We have to keep them for a period of time. 
There has to be a baseline to show what is in the athlete's 
system at the time we start testing.
    It is going to be--it is a very difficult area of the law, 
as you know, for us to perfect a system that will use a test, 
blood test in particular, to disqualify an athlete who has 
spent a lifetime to participate. So it is not something that--
in my mind, it is not something you make a snap judgment on.
    But I think we ought to all work toward establishing a 
system that will be fair all around. That is going to be very 
difficult.
    Mr. Shorter. Senator, I think if you take the athlete's 
point of view, an athlete who starts out clean literally and 
figuratively, when faced with reality, I believe, in having to 
give a blood test, will not be worried. Because he or she as an 
athlete, they have a goal.
    I feel those athletes will have no problem with that as the 
price of entry into the Olympic Games. Your concern is well 
justified. But from the perspective of the clean athletes of 
the world, I do believe they have no problem with this.
    There is a move afoot amongst many athletes in conjunction 
with the Healthy Competition concept that Blue Cross and Blue 
Shield has come up with to perhaps have some symbol that they 
would wear at the games next year to say, I am a drug-free 
athlete. And not only that, test me with anything, all of the 
above. Do it.
    I do not think you are going to have a problem from the 
athletes' perspective. I think it is more a reason, amongst a 
litany of reasons perhaps, that a federation might use not to 
have a certain type of test. But from the athletes' 
perspective, the athletes deal with what is there. That is why 
I made allusion again to it really is a competition between the 
IOC and the athletes.
    Whatever the rules of that competition, whatever level of 
playing field the athletes perceive, they will then train and 
prepare physically and mentally for that field. And so I think 
if that process of truly testing is set up, most of the 
athletes, if not all, will have no problem with it, because 
that is not the way they think. They are only thinking about 
their competition.
    Senator Stevens. I do not disagree. I just still say there 
is a line there somewhere. People coming from parts of the 
Third World who get some medicines are going to suddenly 
discover that those medicines had a steroid in them. There has 
to be some level of fairness here in dealing with how that is 
treated when it shows up. But that is part of the whole system 
we will have to evolve.
    Mr. Shorter. I think the difference, Senator, is that you 
are talking about perhaps committing resources to make sure 
that that does not happen, rather than saying: For that reason, 
we cannot do it. I think that is the difference.
    Senator Stevens [presiding]. I am saying commit resources 
so that person knows in advance and does not get stopped at the 
edge of the final competition with some statement saying that 
that person cannot participate because of the presence of 
something in their blood. This is a long-term concept to deal 
with. And I hope we can evolve on this all the way through.
    We thank you all very much.
    We are both supposed to be at a conference. I am going to 
stay. Senator McCain is gone, and I want to ask the next panel 
to present their statements. I apologize to you for the 
circumstances that there are not 15 of us up here.
    Mr. Hybl, Mr. Pound, Dr. Wadler and Ms. Coleman.
    [Pause.]
    Senator Stevens. I--I know you have all come a long way to 
present the testimony and there is nothing that I can do to 
change the circumstance that this committee has two conferences 
going on in the House right now, and we just cannot have other 
members here.
    I--I would suggest to you that if you all have prepared 
statements, that we put--place them in the record in full as 
though you presented them and have you highlight for us what 
you want us to know. --and we will see if we can have a dialog 
after that.
    My first one on the list is President of the United States 
Olympic Committee, Mr. Hybl. Bill.

  STATEMENT OF WILLIAM HYBL, PRESIDENT, UNITED STATES OLYMPIC 
                           COMMITTEE

    Mr. Hybl. Mr. Chairman, I would like to thank you and the 
committee for the opportunity to address you today, and would 
point out that I am accompanied by Rich Young, our Counsel on 
drug matters, who has probably prosecuted, defended and tried 
more drug cases than any individual in the world; Dr. David 
Joiner, the chair of our Sports Medicine Committee; Baaron 
Pittenger, who chairs our Anti-Doping Committee; and Frank 
Marshall, who was the chair of the USOC Drug Externalization 
Task Force, which I would like to discuss today.
    We have talked about the Olympic scandal at some lengths 
today. But one of the greatest problems facing Olympic Movement 
throughout the world is drug abuse. And our interest lies, Mr. 
Chairman, with creating a level playing field for our athletes.
    At present the USOC provides drug testing for United States 
athletes except during international competitions. An 
alternative concept would involve externalizing all of our drug 
testing and making it an autonomous activity of an independent 
organization completely separate from the United States Olympic 
Committee.
    In June of this year, we created the USOC Task Force on 
Drug Externalization and charged it to take into consideration 
all of these concerns.
    This committee reported back on September 30th and provided 
your staff and the members of this committee with a report, 
which we will be taking to the Executive Committee of the 
United States Olympic Committee and the USOC Board of Directors 
this coming Friday and Saturday.
    We think the recommendations of the task force are very 
important. I would like to briefly highlight just a few of the 
recommendations in that report.
    This independent organization should be created to conduct 
a comprehensive anti-doping program in the United States on 
behalf of the USOC.
    This would alleviate the perception inherent in any system 
of self-regulation that the USOC is not doing everything within 
its power to eliminate doping by U.S. athletes.
    Its responsibilities would include: testing for prohibited 
use of performance enhancing drugs; interfacing with all 
appropriate national and international sports bodies and anti-
doping organizations; conducting research in the areas of 
doping, doping methods, and testing procedures and methods; the 
development of ethical principles in the area of drug use; the 
development and promotion of informational drug education for 
U.S. athletes; and the establishment of a fair, timely and 
impartial adjudication system.
    Adjudication is one of the areas where we feel we are going 
to have to work very hard. Just as you alluded to, Mr. 
Chairman, it is important that we have standards. But these 
standards have to be fair and deal effectively with the 
athletes.
    As we look at this independent organization, we have tried 
to address the very question that has been raised today: Would 
it be a non-profit, non-member organization? Would it be 
independent?
    We are suggesting that the board of directors would be 
comprised of nine individuals: two athlete members under the 
current definition of the USOC; two national governing body 
members; and five members who have no association with the 
United States Olympic Committee to be drawn from the medical, 
the ethical and the sports communities to operate the 
organization, that does not report and respond automatically to 
anyone.
    As proposed, the USOC would provide an initial capital 
contribution of $24 million in a four-year period. This would 
be 2000 through 2004. This amount would nearly double the 
current funding of $12.6 million.
    Each year, $2 million of the $6 million would be earmarked 
for drug research. You have heard the evidence today of the 
necessity for that.
    That would be an increase from the quarter of a million 
dollars a year, or $1 million in the four-year period, that the 
U.S. Olympic Committee currently spends.
    While this is a significant amount for research, we do not 
believe it will provide all the funds that are needed. As a 
result, the independent organization, in cooperation with the 
United States Olympic Committee, would pursue support from the 
Federal Government and sponsorship from the private sector/
business community for funding.
    The USOC would maintain a broadened, value-based drug 
education program. This is a program we have briefed the U.S. 
Government and General McCaffrey on. One that would be 
implemented, first, in cities where our Olympic development 
programs are operating.
    The independent organization, in cooperation with the USOC, 
would make athletes aware of the resources that can assist them 
in dealing with the short and long term ill effects of doping 
or in overcoming any drug dependence.
    There would be significant increases in no-advance-notice 
out-of-competition drug testing.
    Currently, the United States Olympic Committee conducts 
nearly 5,000 of these tests annually.
    The goal would be to increase this number to 7,000 with one 
half of these tests, being no-advance-notice.
    The independent organization would conduct this testing 
program and the in-competition testing program. It would also 
have the authority to conduct tests in addition to those agreed 
upon by the USOC and each National Governing Body.
    Our goal is to have the new independent organization in 
place and operating early enough in 2000 to provide independent 
drug testing at our Olympic Team Trials. Our goal is March 1, 
Mr. Chairman.
    The report of the Select Task Force on Drug Externalization 
will be presented, as indicated, to the USOC's executive 
committee and the board this week. The officers have already 
approved the report, and we believe that the approval of the 
executive committee and the board of directors will be 
forthcoming.
    I would note, however, this is like the Congress. It is a 
two step process. First, you have the authorization 
legislation, and then we have to go through the budgeting 
process. We anticipate that we will be able to substantially 
achieve all of these objectives.
    We agree that a new anti-doping system should be 
implemented. To this end, the USOC is prepared, as indicated, 
to commit significant financial resources.
    However, at the same time, the USOC needs your help. In 
order for a new independent organization to participate and 
contribute to international anti-doping activities, it will 
need an appropriate designation that can be granted only by the 
U.S. Government.
    This is necessary so we are able to participate with other 
nations as the representative group from the United States.
    Senator Stevens. What are you going to call that 
organization?
    The nine-person board, what--what--what is the name of that 
entity?
    Mr. Hybl. The proposed name of the entity will be the 
Independent Drug Organization of the United States Olympic 
Committee, although we have not completely decided as of yet. 
This is one of the issues to come before the executive 
committee this Friday.
    Senator Stevens. Thank you.
    Mr. Hybl. Thank you, Mr. Chairman.
    Senator Stevens. Thank you very much.
    [The prepared statement of Mr. Hybl follows:]

 Prepared Statement of William Hybl, President, United States Olympic 
                               Committee

Good morning, I am Bill Hybl, President of the United States Olympic 
Committee. I appreciate the opportunity to address you today.

                             I. Background 

While the Olympic bid city scandal has captured the majority of recent 
public and media attention, it is drugs in sport that is one of the 
greatest problems affecting the Olympic Movement today. For the past 18 
months, the United States Olympic Committee has been evaluating 
whether, and how, it should radically alter the structure of its anti-
doping program as one means to better addressing the many issues and 
complexities associated with ensuring drug-free competition and a fair 
and level playing field for our athletes. At present, the USOC provides 
drug testing for United States athletes, except during international 
competitions. An alternative concept involves ``externalizing'' all of 
our drug testing and making it an autonomous activity of an independent 
organization, completely separate from the USOC.

At the outset, I would like to point out that a principal reason for 
considering changes to the USOC's drug testing and education program is 
the international view that drug testing of athletes should be done by 
independent and autonomous agencies. Some have argued that having the 
USOC test its ``own'' athletes compromises the entire anti-doping 
process. While the USOC does not hold completely with this view, we 
also appreciate that the impact of such a perception must be taken 
seriously.

Initially, good progress was made in defining key elements of what such 
an independent organization should look like, but legitimate concerns 
surrounding some very complicated issues, including governance, 
athletes' rights, testing protocols, adjudication and sanctions 
required the process to move slowly. In June of this year, I created 
the USOC Select Task Force on Drug Externalization and charged it to 
take all of these concerns into account and to make a recommendation 
with respect to externalization.

Members of the Select Task Force include: Frank Marshall, Chair and 
USOC Public Sector Board Member; Baaron Pittenger, Vice Chair and Chair 
of the USOC Anti-Doping Committee; Brian Derwin, President, USA 
Weightlifting; James M. Betts, M.D., Children's Hospital Oakland; 
Thomas H. Murray, Ph.D., President, The Hastings Center; Rachel Mayer 
Godino, USOC AAC Athlete Representative/Figure Skating; Mary McCagg, 
USOC AAC Representative/ Rowing; and Herman Frazier, USOC Vice 
President, and Evie Dennis, Ph.D., USOC Special Assistant to the 
President, both serving as liaisons to the USOC Executive Committee and 
the USOC President.

    The Select Task Force met numerous times and reviewed information 
provided by the USOC staff, representatives of the two International 
Olympic Committee-approved United States drug testing labs, United 
States National Governing Bodies (NGBs), athletes, and United States 
government representatives. On September 30, 1999, the Task Force 
submitted its report on Drug Externalization, which has been provided 
to your staff. On October 4th, the Officers of the USOC approved the 
report for presentation to the Executive Committee and the Board of 
Directors of the USOC.

Completing this very complicated work within such a compressed time 
period was not easy, and I want to complement all the members of the 
Select Task Force on Drug Externalization for their conscientious 
approach to developing a program that, if adopted, can certainly have 
very positive and far-reaching effects on drug testing and education 
for this country's athletes.

 II. Recommendations of the Select Task Force on Drug Externalization 
I would like to briefly highlight some of the key recommendations of 
the report.

        <bullet>  An Independent Organization should be created to 
        conduct a comprehensive anti-doping program in the United 
        States on behalf of the USOC. This would alleviate the 
        perception, inherent in any system of self-regulation, that the 
        USOC is not doing everything within its power to eliminate 
        doping by U.S. athletes.
        <bullet>  Responsibilities would include: testing for 
        prohibited use of performance enhancing drugs; interfacing with 
        all appropriate national and international sports bodies and 
        anti-doping organizations; conducting research in the area of 
        doping, doping methods, and testing procedures and methods; 
        development of ethical principles in the area of drug use; 
        development and promotion of informational drug education 
        programs for U.S. athletes; establishment of a fair, timely and 
        impartial adjudication system; imposition and communication of 
        sanctions when warranted (of note: this would eliminate the 
        current practice of NGBs prosecuting doping infraction cases, 
        an unsatisfactory arrangement that puts NGBs in an adversarial 
        role against their own athletes); and establishment of 
        bilateral and multilateral agreements with other anti-doping 
        agencies.
        <bullet>  The Independent Organization would be a non-profit, 
        non-member corporation. Its Board of Directors would be 
        comprised of nine individuals; two athlete members, two NGB 
        members and five members who have no association with the USOC.
        <bullet>  As proposed, the USOC would provide an initial 
        capital contribution of $24 million ($6 million per year for 
        four years). This amount, if approved by the USOC's Board of 
        Directors, would nearly double the current $12.6 million in 
        funding. Each year, $2 million of the $6 million would be 
        earmarked for drug research. While this is a significant amount 
        for research, we do not believe it will provide all the funds 
        needed. As a result, the Independent Organization, in 
        cooperation with the USOC, would pursue federal and sponsorship 
        funding to conduct additional research.
        <bullet>  The USOC would maintain a broadened, value-based Drug 
        Education program aimed at elementary, junior high and high 
        school age groups as a part of the USOC's general education 
        programs. This effort would include general information on the 
        dangers of drug use for performance enhancement, but would also 
        have a strong ethical message emphasizing fair play and 
        sportsmanship consistent with the ideals of the Olympic 
        Movement.
        <bullet>  The Independent Organization, in cooperation with the 
        USOC, would make athletes aware of resources that can assist 
        them in dealing with the short and long term ill effects of 
        doping or in overcoming any drug dependence.
        <bullet>  There would be significant increases in no-advanced 
        notice out-of-competition testing. Currently, 5,000 tests are 
        conducted annually. The goal would be to increase this number 
        to 7,000; half with no-advance notice. The Independent 
        Organization would conduct this testing program and the in-
        competition testing program. It would also have the authority 
        to conduct tests in addition to those agreed upon by the USOC 
        and each NGB.

                          III. Implementation 

Our goal is to have the new Independent Organization in place and 
operating early enough in 2000 to provide independent drug testing at 
our Olympic Team Trials. The Report of the Select Task Force on Drug 
Externalization will be presented to the Executive Committee two days 
from now, and to the USOC's Board of Directors in three days. Assuming 
approval by both bodies, implementation will begin immediately. The 
USOC will, however, fall back to the use of its existing anti-doping 
system if we cannot guarantee a seamless transition to the new 
Independent Organization in time to support our responsibilities for 
the 2000 Sydney Olympic Games.

                              Conclusion 

I agree with the Select Task Force's finding that a new system needs to 
be implemented in order to enhance the credibility of United States 
efforts in the area of anti-doping and to resolve some inherent 
problems within existing programs. The USOC has committed significant 
financial and other resources to reach this point, and I believe this 
proposal goes a long way in providing solutions to the concerns 
expressed by those involved with the anti-doping effort, worldwide.
At the same time, however, the USOC needs your help. In order for the 
new Independent Organization to productively participate and contribute 
to international anti-doping activities, it will need an appropriate 
designation that can only be granted by the United States government. 
This would provide the Independent Organization with the legitimacy and 
identity necessary to interact as an equal with other sanctioned 
national and international organizations.

    Senator Stevens. Mr. Pound, we welcome you, my southern 
neighbor. Always glad to have a Canadian here.

     STATEMENT OF RICHARD W. POUND, FIRST VICE PRESIDENT, 
                INTERNATIONAL OLYMPIC COMMITTEE

    Mr. Pound. It--is nice to be here--It reminds me of Winston 
Churchill when he was here saying that--if only his mother had 
been British, and his father American, he might have got here 
on his own.
    [Laughter.]
    With me, it is my wife and myself, but--well, thank you for 
the opportunity, Senator, to be here today.
    I--hope that I can help provide some information that will 
be helpful to you and your colleagues as you consider a very 
important problem in--sports today.
    My name is Richard Pound. I am a lawyer in Montreal and the 
chancellor at McGill University.
    Within the Olympic context, I am one of two Canadian 
members of the international Olympic Committee, having been co-
oped in 1978.
    I was secretary and then president of the Canadian Olympic 
Association between 1968 and 1982. The Canadian Olympic 
Association is--the counterpart to my friend Bill Hybl's 
organization, the USOC.
    I have been elected on four separate occasions to 4-year 
terms on the IOC executive board, and I am presently the first 
vice president of the IOC.
    As you pointed out, in accordance with the rules of the--
commission, I have prepared and deposited written testimony, 
which I understand you will make part of the--record of the 
hearing.
    Senator Stevens. Yes.
    Mr. Pound. Thank you. The--nature of the problem that we 
are here addressing is--quite simple and I think we are all 
agreed on it. There are, we believe, too many athletes using 
doping methods to improve their sport performance. In my books, 
one athlete doing it is too many.
    It is a problem in sport, because it contravenes the 
fundamental ethical principles, upon which sport as a 
consensual activity is based. Because there is a genuine risk 
to the health of the athletes involved.
    Our first efforts to fight against doping in sport were 
undertaken by the International Olympic Committee when its 
medical commission was established in 1967.
    These included development of a list of prohibited 
substances and procedures, and testing for such substances and 
procedures on the occasion of the Olympic Games, the--event for 
which the IOC is responsible.
    We have persuaded most, if not all, of the international 
Olympic sport federation to adopt the IOC medical code or at 
least an analogous provision within their own rules. And while 
this has been successful to some degree, it is quite clear from 
what we have heard today and elsewhere that the effort has not 
been sufficient to eradicate drug use in sport.
    Most recently and--I should say that in the past 30 years, 
no initiative in the fight against drug use in sport has been 
taken by any other organization than the IOC or in which the 
IOC was a central participant.
    But at the World Conference of Doping and Sport convened by 
the IOC in February of this year and to which we invited 
representatives of governments in order to--help them 
understand what we were doing and what the nature of the 
problem was, we agreed that the anti-doping code of the Olympic 
movement would form the basis of the fight against doping in 
sport.
    In addition, it was agreed that we would establish what is 
now being called the World Anti-Doping Agency, the WADA, with a 
governance structure that would ensure that no constituency 
within the Olympic movement or outside the Olympic movement, 
would be in a position to control the WADA.
    It is our plan to have the WADA in operation by the end of 
1999. And in order to give the governmental authorities an 
opportunity to organize the financing because the--thought is 
that they will contribute equally to this, we will carry all of 
the financial burden of the WADA for the first 2 years.
    Following the world conference, there were several meetings 
of a working group consisting of officials as opposed to 
ministers, within the public authorities, mostly international 
governmental authorities, the identities of which are in my 
prepared testimony, and within the Olympic movement to work out 
what that governance structure ought to be and how the agency 
should operate.
    Consensus was reached on a very broad basis as to how that 
should occur and what the mission statement of the--WADA ought 
to be.
    A good deal of the discussion I--might say, Senator, 
because it is--of concern here in the United States in 
particular, was how best to--accommodate the interest of 
national governments in this international problem.
    We did not invite any national governments to the--working 
group, because if we had invited one, we would have had to 
invite 199. That would have added to the--time delays in the 
problem.
    But it is an issue that we do want to address, and there 
are many possible variations on the theme that we could--
envision, such as, for example, having the--host countries of 
the next two or three Olympic games automatically included in 
the governance structure and perhaps the--host country of the--
previous games.
    There was some concern that I have--heard expressed as to 
whether the Olympic movement is concerned about the interest 
of--governmental authorities in this problem.
    The answer to that, Senator, is a resounding no. We are 
delighted that the governmental authorities both and--if I use 
today's occasion as an example, both the Congress of the United 
States and the Administration of this government are 
interested, because in our respectful view, the--international 
solution to doping in sport is going to require the cooperation 
and the very close cooperation between the public authorities 
in all of the countries involved and the Olympic sports 
authorities.
    I think that will do perhaps as--my initial statement. I 
would be happy to try and answer any questions that you have.
    Senator Stevens. Thank you very much.
    [The prepared statement of Mr. Pound follows:]

     Prepared Statement of Richard W. Pound, First Vice President, 
                    International Olympic Committee

Introduction 

    Sport is a consensual activity, entered into by individuals of 
their own free will, governed by agreed-upon rules. These rules relate 
to all aspects of the sporting activity, including the definition of 
the sport, its rules of play, the field of play, the nature of the 
equipment used, age and weight limits for certain sports and, generally 
all matters germane to the practice of the sport. Of particular 
interest to the Committee today is the sub-set of these rule that 
relate to doping in sport.
    The focus of my testimony is the involvement of the International 
Olympic Committee (``IOC'') in the evolution of these ``anti-doping'' 
rules and the procedures for their enforcement and the resolution of 
disputes arising out of their interpretation.
    Sport occurs within society as a whole. In that respect, the laws 
of the land pertaining to certain substances or procedures that are 
regulated, civilly or criminally, necessarily have primacy over the 
privately agreed-upon rules of sport. No one would disagree with this 
characterization.
    In the tradition of this and most other democratic countries, 
however, to the extent that there are no applicable public laws 
restricting the actions of individuals, those individuals are free to 
act as they wish. They may also associate with others and agree to 
their respective conduct as between themselves, including the 
applicable sanctions in the event that the agreed-upon conduct is 
breached. They may form associations to organize their sport 
relationships, locally, nationally and internationally. That is how 
sport has been organized on a worldwide basis.
    Doping in sport has become a serious problem. Sport, within the 
Olympic Movement, has recognized this and has taken steps to identify 
the problem, to define it and to fight against it. Because sport is now 
practiced on a worldwide basis, the fight against doping is an 
international problem and the solution to it must necessarily be 
international or the level playing field, which is fundamental to 
sport, cannot exist. There must be national building blocks in arriving 
at the solution, but, unless there is an international and coordinated 
approach to the question of doping in sport, however well-intentioned 
the disparate efforts may be, they will inevitably end in failure.

The International Olympic Committee 

    I am here today to represent the International Olympic Committee 
(``IOC'') and to provide whatever assistance I can to your Committee in 
its appreciation of the issues involved in doping in sport, from the 
perspective of the Olympic Movement.
    The IOC was established more than a century ago, in 1894, to 
renovate the Olympic Games conceived in ancient Greece. It has 
coordinated and supervised the Olympic Movement ever since and has 
stimulated the development of sport on an international basis, with the 
result that some 200 countries now participate in the Olympic Games. It 
has been a remarkable achievement and the Olympic Games have become the 
most important sports event in the world today.
    The IOC itself is an organization consisting of approximately 100 
members who act as trustees of the Olympic Movement on a voluntary 
basis. It is organized as an association having legal personality under 
Swiss law and is headquartered in Lausanne, Switzerland. It co-opts 
members selected for their personal qualities and their ability to help 
promote the Olympic Movement. Its activities and relationships are 
governed by the terms of the Olympic Charter. It has a permanent staff 
of slightly more than 100 employees. It acts as a non-governmental 
organization (``NGO'').
    It operates, in a manner akin to governments, by ``recognition'' of 
international sports federations (``IFs'') that govern particular 
sports and of national Olympic committees (``NOCs'') that agree to 
subscribe to and be bound by the provisions of the Olympic Charter. The 
responsibilities of NOCs are, inter alia, to promote the Olympic 
Movement within their respective territories and to select the athletes 
from those territories who will participate in the Olympic Games. The 
NOC recognized by the IOC in the United States is the United States 
Olympic Committee (``USOC''), to which the Congress has assigned 
additional responsibilities and in respect of which the Congress has 
assumed an oversight role, governed, as I understand it, by the 1978 
Amateur Sports Act. 
    In addition to the matters for which it has direct responsibility 
(including the granting of recognition referred to above, the choice of 
Olympic sports on the Olympic program, choosing the sites of Olympic 
Games), the IOC exercises a coordinating role within the Olympic 
Movement. In that role, it deals regularly with IFs, NOCs and the 
Organizing Committees of each edition of the Olympic Games (``OCOGs''). 
Other than matters for which it has a clear constitutional 
responsibility, the IOC has no power to impose its will on any of the 
autonomous organizations within the Olympic Movement. There is a 
widespread misconception that the IOC is in a position to control 
organizations such as IFs and NOCs. It is not in such a position. The 
IOC depends on developing a consensus amongst them and using its moral 
suasion to bring about courses of conduct which it considers beneficial 
to the Olympic Movement and the development of sport.

Role of the IOC in Matters of Doping 

    There has, unfortunately, always been some element of cheating in 
sport. In that respect, sport is no different from other social 
activities in which rules of conduct or of law have been established. 
As in other elements of society, sport has adopted a combination of 
education and sanctions to promote compliance with its rules. There are 
penalties, suspensions, forfeitures of games and events and all the 
other sanctions with which we are familiar. In society at large, 
similar sanctions have been adopted for behaviour that does not comply 
with social norms. These sanctions, as is the case in sport, are 
graduated, depending upon the severity of the breach and the nature of 
the particular social rule.
    Over the last few decades, concern for the health of athletes and 
the erosion of sporting ethical values has led the IOC into the field 
of doping in sport. The first indications of systematic use of 
performance-enhancing drugs appeared in the late 1950s, when 
testosterone was discovered to assist in building bulk and strength for 
weight and field events and stimulants were used to increase 
performance in certain events, such as cycling. In 1960, a Danish 
cyclist in the Olympic Games collapsed and died following the use of 
stimulants.
    This led to the formation of the IOC Medical Commission and the 
creation and publication of a list of substances that were prohibited 
on the occasion of the Olympic Games. There is little question that, in 
the initial years, the primary focus of the IOC Medical Commission was 
the health of the athletes, since it was unclear what all of the 
damaging side-effects of the substances used might be. The reliable 
scientific data available to researchers at the time were very limited. 
This lack of data has been a complicating factor in the work of the IOC 
Medical Commission ever since its inception, since, once the particular 
substances were declared prohibited, the use of them went 
``underground'' and further data became even scarcer. The work of the 
IOC Medical Commission has been dominated by its focus on the 
scientific aspects of doping control. The sports-ethics aspect has been 
secondary.
    Over time, the IOC developed the IOC Medical Code, which, in its 
earlier iterations, was a combination of prohibitions and of 
indications of what was allowable. It was, essentially, a medical 
document, rather than a legal document. Its application was, on the 
occasion of the Olympic Games, very much a matter of decision by the 
IOC Medical Commission, ratified almost as a matter of course by the 
IOC Executive Board, from whose decision there was no effective appeal.
    During this same period, there were growing concerns that the sport 
system, especially the international sport system, did not have 
adequate safeguards to protect the rights of those affected by the 
decisions of sports organizations. This is referred to, as I understand 
it, in the United States as ``due process'' and in many other 
jurisdictions as the rules of ``natural justice.'' Many national 
organizations built into their internal rules an appeal process to deal 
with cases in which the applicable rules (with which everyone agreed) 
were improperly applied and an injustice resulted. Prior to such 
developments, the only recourse of a person affected by such decisions 
was to the ordinary courts.
    The IOC moved in the same direction. In 1983, it established the 
Court of Arbitration for Sport (``CAS'') to deal with sports-related 
disputes. The CAS was organized and funded by the IOC and had 
arbitrators of international experience and reputation available for 
selection by the parties to any dispute. The roster of arbitrators was 
originally made up from nominations from the IOC, IFs and NOCs. It 
functioned in this manner and, in 1993, was judged by the Swiss Federal 
Tribunal (the country's supreme jurisdiction) to be a real arbitral 
tribunal offering sufficient guarantees of independence and objectivity 
for its awards to be final and enforceable. The same Tribunal suggested 
that the role of the CAS could be made even stronger, were it not seen 
to be an organization controlled by the IOC.
    This led to the establishment on June 22, 1994 of the International 
Council of Arbitration for Sport (``ICAS''), a governance structure for 
the CAS consisting of an equal number or representatives of the IOC, 
the IFs, the NOCs and (particularly important) Olympic athletes.\1\ 
Thus, no particular constituency is in a position to control the ICAS 
or the CAS and the independence of both has become a well-accepted 
matter of record. This is an important feature in relation to the 
problem of doping in sport, since the basic structure proposed for the 
World Anti-Doping Agency [see below] is modeled upon the structure 
developed for the ICAS. There has been no question of the complete 
independence and freedom of the ICAS and the CAS from the ``control'' 
of the IOC or any other constituent element. Even decisions of the IOC 
are capable of being arbitrated in the CAS.\2\
---------------------------------------------------------------------------
    \1\ Concurrent with this development, athletes also became entitled 
to nominate arbitrators to the CAS roster. I have acted as an 
arbitrator in a dispute before the CAS in which one of the arbitrators 
was one nominated by athletes and found the ability and conduct of the 
particular individual to have been completely professional and 
impartial.
    \2\ This was demonstrated during the Olympic Games in Atlanta in 
1996, when decisions of the IOC to disqualify certain athletes for the 
use of the drug Bromantan were overruled by the CAS and the athletes 
and their results reinstated.
---------------------------------------------------------------------------
    The only event that the IOC actually controls is the Olympic Games. 
All other sport events are organized under the auspices and control of 
the IFs (such as world championships or world cups), national 
federations (``NFs'') (such as national championships) or NOCs (such as 
Olympic trials). Depending upon the particular sport system in a 
country, there might also be other sport organizations with authority 
over sport competitions, such as universities (e.g., the NCAA) or 
professional associations (e.g., NBA, NFL, NHL and MLB). The IOC has no 
power to impose its own views or rules on any such events.
    Despite its limited jurisdiction, what the IOC has tried to do, in 
addition to testing for prohibited substances and prohibited methods at 
its own event,\3\ is to persuade the other elements within the Olympic 
Movement to adopt its rules in respect thereof, or, at the very least, 
analogous rules. The politics of organizational autonomy, however, make 
simple adoption of an IOC rule unattractive to such organizations. 
Attached as Exhibit ``A'' to this statement is a chronology of the 
actions initiated by the IOC to develop consensus on the matter of 
doping in sport.
---------------------------------------------------------------------------
    \3\ There are many, and obvious, frustrations implicit in such 
testing. While it is clear that so-called ``race day'' drugs will be 
detected during the competitions, others, which are used in the period 
of preparation for the Games, might no longer be present in the systems 
of the athletes at the time of the Games, but the athletes may 
nevertheless have benefited from having used them during the period of 
training.
---------------------------------------------------------------------------
    There have been long periods of time during which the IOC has led 
the fight against doping in sport virtually alone. There are many 
reasons for the lack of what might appear to have been sufficiently 
aggressive initiatives on the part of the sport community as a whole, 
some of which include:

        <bullet>  Lack of specific knowledge of what substances and 
        procedures were being used.
        <bullet>  Insufficient connection between the international 
        organizations governing sport on a worldwide basis and the 
        grassroots level of sport where the doping was actually 
        occurring.
        <bullet>  Lack of financial resources necessary to conduct 
        research and testing, especially out-of-competition testing.
        <bullet>  Possible desire for continued ``progress'' in the 
        sport.
        <bullet>  ``Underground'' and clandestine use of drugs and 
        methods.
        <bullet>  Participation by certain national governments and 
        organizations in doping.
        <bullet>  Perceptions that any positive result in a test 
        constituted a ``failure'' or an embarrassment to the sport or 
        country involved, rather than a success for having helped to 
        level the playing field.
        <bullet>  Difficulty in developing tests that could withstand 
        expensive legal, scientific and procedural challenge.

    As is the case with any scenario of ``perpetrator'' and ``police,'' 
the perpetrators take the initiative and are always ahead of the 
police. The inevitable result is a constant situation of trying to 
catch-up, first by finding out what is happening and then devising a 
means of detecting the effects of the doping, so that sanctions can be 
applied with the confidence that the science is reliable.

The Overall Nature of the Doping Problem 

    The conclusion of the working group established to prepare for the 
World Conference on Doping in Sport, held in February, 1999, was that 
doping in sport is fundamentally an ethical problem, with important 
possible health risks, rather than a medical or scientific problem. It 
must be approached primarily from the perspective of ethics, while 
recognizing that, at the same time, there must be an ancillary function 
of testing and detecting.
    In that respect, the model is not unlike society in general, in 
which there is an implicit understanding that the laws of the society 
reflect the shared values of that society. There must, nevertheless, be 
some element of policing such laws and values against those who might 
seek to gain some unfair advantage in relation to those who follow the 
rules. The IFs and NOCs are in the best position to promote the ethical 
principles involved and, at the same time, to identify those athletes 
who are at the highest risk (generally the best athletes) and who 
should be tested, particularly in the periods of preparation for sports 
competitions.
    It is clear, however, that there is also a health concern involved 
and that this concern should not be minimized. Interestingly enough, 
there has been some criticism of the IOC in that regard, the suggestion 
being that such an approach is paternalistic and not within its 
mandate. The IOC has continued to reflect this concern despite such 
criticism, since the anecdotal, if not fully scientific, evidence is 
that there can be very serious side effects from the use of certain of 
the substances which are prohibited and other medical risks arising 
from some of the procedures. The IOC considers, notwithstanding the 
criticism (which is not universal), that it does have a role to be 
concerned about the health of athletes within the Olympic Movement.
    Scientific research is expensive. The best researchers (and this is 
not a criticism of any career choices) follow the funding derived from 
granting agencies or go into the pharmaceutical industry where they 
may, some day, benefit from discoveries they make in the course of 
their research. There is not a great deal of funding available for 
research designed to detect the use of drugs amongst otherwise healthy 
athletes, nor any particular glory, academic or otherwise, from 
devising tests for such purpose.
    One of the challenges of the Olympic Movement will be to obtain 
access to more and better research if it is to have any realistic 
chance of keeping up with the development of new and increasingly 
sophisticated substances. The research is that much more complicated 
because it first has to be determined that a particular substance or 
method is being used and that it is either performance-enhancing or 
dangerous to the health of the athletes. Then a test must be developed 
to be able to identify the substance or method in the body of the 
athlete.
    This leads to yet another problem, that is more complicated for the 
Olympic Movement than it is, for example, in normal medical practice. 
In the latter, physicians can operate on the basis of probabilities for 
purposes of practicing the art of healing. Within the Olympic Movement, 
however, the standards are much higher, because the results of a 
positive test for a prohibited substance or prohibited method mean 
disqualification and/or suspension of the athlete. Instead of tests 
that are reliable on a balance of probabilities, we need tests that are 
reliable virtually beyond a reasonable doubt. This is an additional 
burden that must be met. The legal exposure to sports organizations 
that act without such certainty is enormous, as many have found to 
their detriment.\4\ Even an entirely frivolous challenge can be 
ruinously expensive.
---------------------------------------------------------------------------
    \4\ The IOC is prepared, for example, to rely upon the results 
obtained from blood samples, but must be certain that the scientific 
results of such analysis can meet the standards of reliability required 
for purposes of imposing sanctions in the event of ``positive'' cases. 
There may be circumstances, or substances, in respect of which the 
traditional method of analyzing urine samples could be the most 
reliable technology.
---------------------------------------------------------------------------
    Already touched upon above is the lack of reliable data with which 
to work, both for purposes of assessing the health risks and for the 
development of more reliable tests. Data may vary, for example, by 
gender, by age, by the length of time during which the substance or 
method is used and, possibly, by race or continent. The clandestine use 
of prohibited substances impedes access to such data for control group 
purposes in the scientific process.
    It is physically impossible for international sports organizations 
to have a ``hands-on'' involvement in the practice of sport in each 
country and in the implementation of out-of-competition tests. They are 
not, and can never be, equipped to do so. It is the sports 
organizations ``on the ground'' that have the ability to undertake the 
general supervisory and educational activities necessary to bring the 
phenomenon under control. Even they, however, need assistance to do so. 
Several countries have developed independent agencies that carry out 
testing procedures and this model has enjoyed a certain amount of 
success. Such models have been the genesis of the idea to create an 
independent international anti-doping agency that emerged from the 
World Conference on Doping in Sport.
    Doping in sport is a domestic, but also international, issue. If 
any campaign against doping in sport is to be successful, it must be 
accepted by every country and the standards must be consistent: as to 
the prohibited substances and methods, the testing protocols, the 
exposure to out-of-competition testing, the laboratory analysis, the 
privacy concerns and the rights to appeal against findings. The matter 
of doping in sport cannot be resolved on the basis of inconsistent 
national programs, nor by ad hoc bilateral agreements. It is too 
pervasive a problem to be dealt with in such a manner.
    One final aspect of the problem relates to the athletes affected by 
the anti-doping rules. I think it is fair to say that there has been no 
real ``buy-in'' from many athletes. Athletes perceive the system, 
rightly or wrongly, as one that is imposed upon them by the ``suits'' 
who administer sport organizations, that is wildly inconsistent and in 
which many of the major drug-users have access to products for which no 
reliable tests have yet been developed. They have also seen national 
governments involved in some of the worst excesses of doping in sport, 
implementing sophisticated doping programs, insisting upon drug use by 
their athletes as a condition of participation and routinely covering 
up such doping activities. Many athletes, in consequence, appear to 
have become convinced that they, too, must resort to drug use if they 
are to be competitive.
    One of the reasons for insisting that athletes be involved in the 
new international agency is to provide them with input into the 
policies and their methods of implementation. If they can see a system 
that works and in which their interests have been protected, then they 
will develop confidence in it. If they know that drug users will be 
caught and sanctioned, they will know that it will no longer be 
necessary for them to sink to the lowest common denominator. The 
Olympic Movement has to win back the confidence of the athletes. But, 
at the same time, athletes must accept their share of the 
responsibility, not only for the problem, but also for its solution.

Development of International Consensus 

    The solution to the problem of doping in sport must be 
international. It is not enough for some countries to have successful 
domestic programs, although such domestic programs are necessary 
components of the overall solution.
    I believe that the events of the past couple of years have finally 
driven home to all sports organizations that there is a real threat to 
their continued existence if the solution is not found. The sight of 
police taking athletes and officials from competition sites or their 
hotels for investigation and/or prosecution has made it clear that 
there is a real possibility of sport becoming criminalized. This would 
lead to a state of affairs that strikes at the very foundation of what 
sport should represent as a humanistic social activity. The particular 
autonomies of sport organizations must perforce be subordinated to 
concerted action in the interests of sport in general.
    It is this approach that has governed the efforts of the IOC to 
coordinate this struggle against doping in sport. It is in the common 
interest of all sport to put the collective house in order and to seek 
the assistance of the public authorities in those aspects in which the 
public authorities have jurisdiction. It brings to mind the famous 
words of your Benjamin Franklin at the signing of the Declaration of 
Independence on July 4, 1776, ``We must all hang together, or assuredly 
we shall all hang separately.'' If sport is to remain independent, it 
must hang together. Our solution must be inclusionary, not exclusionary 
and not accusatory. No country is immune from doping in sport. We must 
convince, not force. A sanction of excluding a sport from the Olympic 
Movement must be the last, the final, resort and be recognized as the 
ultimate failure, not a victory, in the struggle.

World Anti-Doping Agency 

    In February of this year, the IOC convened a World Conference on 
Doping in Sport. Recognizing that the solution to the problem of doping 
in sport may not be solely within the control of the sports 
authorities, it invited representatives of governments (including the 
United States of America) and certain intergovernmental organizations 
to participate in the Conference, in addition to the so-called Olympic 
Family. The final conclusions of the Conference were contained in what 
is now referred to as the Lausanne Declaration, dated February 4, 1999.

The Lausanne Declaration consists of the following:

        Considering that doping practices contravene sport and medical 
        ethics, and that they constitute violations of the rules 
        established by the Olympic Movement, and concerned by the 
        threat that doping poses to the health of athletes and youth in 
        general;
        Recognizing that the fight against doping in sport is the 
        concern of all: the Olympic Movement and other sports 
        organizations, governments, inter-governmental and non-
        governmental organizations, sportsmen and sportswomen 
        throughout the world, and their entourage;
        The World Conference on Doping in Sport, with the participation 
        of representatives of governments, of inter-governmental and 
        non-governmental organizations, of the International Olympic 
        Committee (IOC), the International sports Federations (IFs), 
        the National Olympic Committees (NOCs), and of the athletes, 
        declares:

        1. Education, prevention and athletes' rights 

        The Olympic oath shall be extended to coaches and other 
        officials, and shall include the respect of integrity, ethics 
        and fair play in sport. Educational and preventive campaigns 
        will be intensified, focusing principally on youth, and 
        athletes and their entourage. Complete transparency shall be 
        assured in all activities to fight doping, except for 
        preserving the confidentiality necessary to protect the 
        fundamental rights of athletes. Partnership with the media 
        shall be sought in anti-doping campaigns.

        2. Olympic Movement Anti-Doping Code 

        The Olympic Movement Anti-Doping Code is accepted as the basis 
        for the fight against doping, which is defined as the use of an 
        artifice, whether substance or method, potentially dangerous to 
        athletes' health and/or capable of enhancing their 
        performances, or the presence in the athlete's body of a 
        substance, or the ascertainment of the use of a method on the 
        list annexed to the Olympic Movement Anti-Doping Code. The 
        Olympic Movement Anti-Doping Code applies to all athletes, 
        coaches, instructors, officials, and to all medical and 
        paramedical staff working with athletes or treating athletes 
        participating in or training for sports competitions organized 
        within the framework of the Olympic Movement.

        3. Sanctions 

        The sanctions which apply to doping violations will be imposed 
        in the framework of controls both during and out of 
        competition. In accordance with the wishes of the athletes, the 
        NOCs and a large majority of the IFs, the minimum required 
        sanction for major doping substances or prohibited methods 
        shall be a suspension of the athlete from all competition for a 
        period of two years, for a first offence. However, based on 
        specific, exceptional circumstances to be evaluated in the 
        first instance by the competent IF bodies, there may be a 
        provision for a possible modification of the two-year sanction. 
        Additional sanctions or measures may be applied. More severe 
        sanctions shall apply to coaches and officials guilty of 
        violations of the Olympic Movement Anti-Doping Code.

        4. International Anti-Doping Agency 

        An independent International Anti-Doping Agency shall be 
        established so as to be fully operational for the Games of the 
        XXVII Olympiad in Sydney in 2000. This institution will have as 
        its mandate, notably, to coordinate the various programmes 
        necessary to realize the objectives that shall be defined 
        jointly by all the parties concerned. Among these programmes, 
        consideration should be given in particular to expanding out-
        of-competition testing, coordinating research, promoting 
        preventive and educational actions and harmonizing scientific 
        and technical standards and procedures for analyses and 
        equipment. A working group representing the Olympic Movement, 
        including the athletes, as well as the governments and inter-
        governmental organizations concerned, will meet, on the 
        initiative of the IOC, within three months, to define the 
        structure, mission and financing of the Agency. The Olympic 
        Movement commits to allocate a capital of US $25 million to the 
        Agency.

        5. Responsibilities of the IOC, the IFs, the NOCs and the CAS 

        The IOC, the IFs and the NOCs will maintain their respective 
        competence and responsibility to apply doping rules in 
        accordance with their own procedures, and in cooperation with 
        the International Anti-Doping Agency. Consequently, decisions 
        handed down in the first instance will be under the exclusive 
        responsibility of the IFs, the NOCs or, during the Olympic 
        Games, the IOC. With regard to last instance appeals, the IOC, 
        the IFs and the NOCs recognize the authority of the Court of 
        Arbitration for Sport (CAS), after their own procedures have 
        been exhausted.
        In order to protect athletes and their rights in the area of 
        disciplinary procedure, the general principles of law, such as 
        the right to a hearing, the right to legal assistance, and the 
        right to present evidence and call witnesses, will be confirmed 
        and incorporated into all applicable procedures.

        6. Collaboration between the Olympic Movement and public 
        authorities 

        The collaboration in the fight against doping between sports 
        organizations and public authorities shall be reinforced 
        according to the responsibilities of each party. Together, they 
        will also take action in the areas of education, scientific 
        research, social and health measures to protect athletes, and 
        coordination of legislation relative to doping.

    In pursuance of the Lausanne Declaration, and the timetable it 
contained, the IOC convened the meetings of a working group that has 
achieved a significant degree of consensus amongst the sports 
organizations and public authorities, particularly intergovernmental 
and international agencies.\5\
---------------------------------------------------------------------------
    \5\ The participants of the working group included the Arabic 
Confederation of Sports, the Association of the International Winter 
Sports Federations, the Association of National Olympic Committees, the 
Association of Summer Olympic International Federations, the Council of 
Europe and the Monitoring Group of the Anti-Doping Convention, the 
European Union, the International Criminal Police Organization, the 
International Olympic Committee, the IOC Athletes Commission, the 
United Nations International Drug Control Program and the World Health 
Organization.
---------------------------------------------------------------------------
    This work has led to the announcement of the formation of the World 
Anti-Doping Agency (``WADA''), which will come into existence effective 
as of the end of this month. I have attached, as Exhibit ``B'', for the 
information of the Committee, some of the related documents, including 
the draft constating document and proposed Mission Statement.
    The mandate of the WADA is quite clear. The fundamental changes in 
approach that are reflected in the establishment of the WADA include 
the following:

        <bullet>  No single organization (including the IOC) will be in 
        a position to control the WADA.
        <bullet>  There will be, once the WADA is fully established, an 
        equal representation of the Olympic Movement and the public 
        authorities.
        <bullet>  Athletes will be equally represented in the 
        governance of the WADA, along with the other constituent 
        organizations.
        <bullet>  The approach to the problem of doping in sport will 
        be international in scope and be designed to achieve uniformity 
        both in the rules and their implementation.
        <bullet>  Its activities will include research,\6\ as well as 
        education and prevention.
---------------------------------------------------------------------------
    \6\ US$2 million has already been earmarked for second phase 
research designed to develop controls for two elusive and potentially 
dangerous substances, erythropoietin (EPO) and human growth hormone 
(hGH).

    I should also mention the establishment of the Olympic Movement 
Anti-Doping Code. This is a Code that was accepted in the Lausanne 
Declaration as the basis for the fight against doping in sport. It will 
come into force as of January 1, 2000, applicable to the entire Olympic 
Movement. In its present format, the Code is essentially a generic 
version of the IOC Anti-Doping Code, written in language that seeks to 
make it applicable for the entire Olympic Movement. It is the starting 
point from which the WADA can work.
    As you will note from paragraph 2 of the Lausanne Declaration, this 
Code applies, inter alia, to ``all athletes ... participating in or 
training for sports competitions organized within the framework of the 
Olympic Movement.'' This is a big step forward, since it renders any 
athlete who may wish to participate in the Olympic Games liable, in 
addition to in-Games testing, to out-of-competition testing under the 
Code, even if such individual may normally be participating within an 
organization that does not have the same anti-doping rules as those 
applicable within the Olympic Movement. The mechanics of how and when 
such individuals may indicate that they wish to be considered for 
selection on Olympic teams, and thereby fall within the Olympic 
``system'' will have to be determined. These could well vary from sport 
to sport and organization to organization. A significant portion of the 
WADA budget will be devoted to funding additional tests, some of which 
could be dedicated to such hybrid situations.
    The Code is by no means perfect and I hope that when all the 
parties forming the WADA come together, we can develop significant 
improvements to it. The likelihood of success in that respect will be 
greatly improved by having everyone at the same table at the same time, 
so that, in the desire to have a comprehensive and integrated solution, 
the issues can be resolved by consensus.
    The IOC, alone, cannot provide the solution to doping in sport. It 
does not assert any particular claim to control the process by which 
eventual success will be achieved. Nor has it ever acted in such a 
manner. The IOC can and does seek to lead by example and has encouraged 
a comprehensive effort by all the constituent elements of the Olympic 
Movement in the overall struggle. It will continue to do so, out of its 
conviction that the fundamental ethical values inherent in sport and 
the health of athletes must be protected.

The Role of Legislators 

    I do not presume to come before this Committee to lecture it on 
what should be the substance of any legislation or other action that 
you may consider. That is a mandate for which you have a sovereign 
responsibility. There are, however, some general considerations arising 
out of the testimony before you to which you may wish to direct your 
thoughts as you reflect upon the proper course to follow.

        <bullet>  What is the proper role of government in the practice 
        of sport? Should sport generally be free to regulate itself or 
        should sport only be possible by virtue of and pursuant to 
        legislation?
        <bullet>  To what extent should government move in the 
        direction of applying criminal sanctions to sport activities?
        <bullet>  Should government be legislating the ethical 
        principles inherent in sport, or is that a social issue best 
        left to sport?
        <bullet>  If a drug or a procedure, which may be prohibited 
        within a sport system, presents no overriding danger within 
        society as a whole, should government intervene with 
        legislation or other regulatory actions?
        <bullet>  What, if any, is the philosophical difference to be 
        applied in the consideration of doping in sport within the 
        Olympic Movement and in sport outside the Olympic Movement, 
        such as in the professional sport organizations or leagues?
        <bullet>  Can government assist sport organizations in their 
        efforts to fight against doping by providing that disputes in 
        such matters be definitively settled in accordance with the 
        appeals processes properly applied by such organizations?
        <bullet>  Should government assist the fight against doping in 
        sport by directing resources to research for the development of 
        reliable scientific methods for detection of drug use and for 
        educational programs?
        <bullet>  What is the best method for government to act in the 
        interests of achieving international consensus between 
        governments on the harmonization of the approach to such 
        questions as trafficking, access to athletes for purposes of 
        out-of-competition testing, protection of appropriate rights of 
        privacy of athletes and the general approach to supporting 
        sports organizations in their desire to achieve drug-free 
        sport?

This, clearly, is not an exhaustive list of issues, but it may be 
helpful in the development of any matrix against which you might 
approach the subject matter.

Conclusion

    As you already know, the questions that are raised in any 
consideration of doping in sport are complex and interrelated. They 
cannot be solved easily or in isolation. But I believe that they can be 
solved, if the sport and public authorities, together with the 
athletes, work together toward a common objective, each recognizing the 
value contributed to the overall solution by the others. If we can do 
this, and I pledge the continuing commitment of the IOC in this regard, 
then, in the words of Winston Churchill, while this may not be the end, 
nor even the beginning of the end, it will at least be the end of the 
beginning in this particular struggle.

                             Exhibit ``A'' 
            Brief history of the IOC's fight against doping 

1960: IOC Session in San Francisco
    President Brundage called the attention of the IOC members to the 
use being made of amphetamines in some sports.

1961: IOC Session in Athens
    Creation of the Medical Commission

1963: Publication of a list of banned substances by the Council of 
Europe's Committee on Out-of-School Education.

1965: In the light of experiences at the Tokyo Games in 1964, Prince 
Alexandre de Merode presented a report which provided the starting 
point for future anti-doping efforts.

9th May 1967: The approach of the Mexico City Games brought the problem 
of doping into particularly sharp focus and prompted further debate at 
the highest level within the IOC. At the 66th IOC Session in Tehran, 
from 6th to 9th May 1967, the problems associated with drug testing, 
the list of products and methods used for doping and sex testing for 
the 1968 Games were expounded by the retiring Sir Arthur Porritt. 
Prince Alexandre de Merode (Belgium) was appointed Chairman of the IOC 
Medical Commission. The basic principles of the commission were set out 
by the chairman.


These are:

        <bullet>  protection of athletes' health
        <bullet>  defence of sports ethics
          equality for all participants at the moment of competition.

1968: The first tests were performed by the IOC at the Winter Games in 
Grenoble. At that time, the list of banned substances was revised and 
extended.

1968: Wide-ranging anti-doping tests were performed at the Games of the 
Olympiad in Mexico City, under the leadership of the IOC Medical 
Commission.

1981: Creation of the ``Doping and Biochemistry of Sport'' sub-
commission within the IOC Medical Commission. At that time, the sub-
commission's role was to prepare the list of banned substances and 
define the procedures to be applied when tests were performed. Outside 
sources from all parts of the sports world were asked to make proposals 
regarding the list of banned substances. Careful study of which 
substances should be added to or withdrawn from the list allows it to 
cover substances which, when misused or abused, represent either a 
danger to the health of an athlete or an artificial increase in 
performance, or both. This list is published annually and is recognized 
by the whole of the sports world.

1981: The IAAF introduced a laboratory accreditation process. This 
procedure was deemed necessary to ensure a high level of testing and 
avoid any uncertainty concerning the results obtained.

After this procedure was put in place, the following laboratories were 
accredited during the next two years:

-- Cologne, Germany
-- Kreischa, ex GDR
-- Leningrad, USSR
-- London, United Kingdom
-- Magglingen, Switzerland
-- Montreal, Canada

 The IOC ``anti-doping'' sub-commission recognized the laboratories 
accredited by the IAAF at the joint IAAF/IOC meeting on 23rd May 1981, 
and they were granted IOC accreditation.
This accreditation process is conducted by the ``Doping and 
Biochemistry'' subcommission of the IOC Medical Commission. The 
Commission ratifies the decisions, and submits them to the IOC 
Executive Board for approval. Its secretariat is in Barcelona, and is 
run by Prof. Jordi SEGURA.
A reaccreditation procedure takes place every year, with aptitude 
checks every four months. This system of accreditation and permanent 
checks allows the IOC to guarantee athletes reliability of testing 
meaning that the same results should be obtained in any of the 
accredited laboratories.
This reliability is achieved through strict monitoring of the equipment 
and staff of these laboratories. Any change in staff, particularly 
among the senior staff in any laboratory must be reported to the IOC 
straightaway, whereupon a new accreditation procedure will be started.

There are two temporary suspension phases.

The growth in the number of laboratories is shown below:




        1986                                                          18
        1987                                                          21
        1988                                                          20
        1989                                                          20
        1990                                                          21
        1991                                                          21
        1992                                                          23
        1993                                                          23
        1994                                                          24
        1995                                                          24
        1996                                                          25



At present, there are 27 accredited laboratories across the five 
continents.The number of samples analysed by these laboratories in 1997 
was 106,561.

1988: The idea and purpose of an International Charter Against Doping 
in Sport was mooted for the first time by Canada at the 5th Conference 
of European Ministers Responsible for Sport in September 1986. 
Subsequently, a working group co-chaired by Canada and the IOC, and 
including representatives of the Council of Europe, the European Sport 
Conference and the United States Olympic Committee (USOC), met several 
times to establish the framework and text of the initial Charter.
The International Olympic Charter Against Doping in Sport, prepared by 
the IOC, the Canadian government, Council of Europe, European Sports 
Conference and the USOC, was adopted by the IOC in September 1988 at 
the Olympic Games in Seoul.

26th--29th June 1988: First Permanent World Conference on Anti-doping 
in Sport co-chaired by the Canadian government and the IOC.

April 1989: Barcelona agreement between the IOC and ASOIF aimed at 
stepping up the fight against doping by increasing action in terms of 
prevention and education.

1989: Second Permanent World Conference on Anti-doping in Sport on the 
theme of out-of-competition testing. 

November 1989: Presentation by the Prince de Merode to the IOC 
Executive Board of plans for an Olympic Movement anti-doping agency 
involving the IFs, NOCs and IOC. Governments and outside experts would 
also be included.

1991: Third Permanent World Conference on Anti-doping in Sport in 
Bergen, Norway, on the theme of education and information for athletes.

December 1991: Creation of the working group on out-of-competition 
testing by the IOC Medical Commission. The Commission members realized 
that the doping tests currently in place were not sufficient to detect 
the misuse of anabolic steroids, peptide hormones and related 
substances during training. To be truly effective, doping measures had 
to be employed during training periods. The out-of-competition tests 
should be performed without warning athletes beforehand and 
sufficiently often, in order to be effective.
Controls of this kind have been developed in recent years both 
nationally (USA, CAN, GER, GBR, FRA, URS, AUS, SUI, NOR, SWE, etc.) and 
through bilateral and multilateral agreements (RUS-USA, RUS-FIN, AUS-
GBR-CAN, Nordic League, etc.). Some International Federations have set 
up their own programmes (IAAF, FISA, IWF). However, these isolated 
efforts are clearly inadequate. Effective coordination and 
harmonization between the various authorities responsible for these 
activities are indispensable; this should be undertaken by an ad hoc 
committee under the moral authority and guidance of the IOC.

June 1993: Lausanne agreement between the IOC and ASOIF on closer 
harmoniztion of rules and procedures for out-of-competition tests.

1993: Fourth Permanent World Conference on Anti-doping in Sport in 
London, on the theme why do athletes dope? 

January 1994: Lausanne Declaration ``Preventing and fighting against 
doping in sport'' signed by the IOC, ASOIF, AIWF, ANOC and the 
athletes. was agreed that the first stage in the fight against doping 
would be for the ``voluntary'' bodies to reach an agreement to enable 
them to negotiate with the governmental bodies, with a view to 
eliminating the existing contradictions between national legislation 
and the rules of the sports movement.

1994, 1995 and 1996: Meetings of the working group to follow up on the 
agreement of 13th January 1994, defining the harmonization of:

        -- sampling equipment
        -- out-of-competition testing procedures
        -- qualification of the officials responsible for sampling

June 1995: The IOC adopted the IOC Medical Code, drafted by the IOC's 
lawyers, which replaced the International Olympic Charter Against 
Doping in Sport.

1996: Signature of the Gh2000 agreement between the European Union and 
the IOC for a 1,800,000 ECU project over three years for research into 
detecting growth hormone.

1997: The Lausanne scientific days brought together international 
experts on detecting testosterone, EPO and human growth hormone. The 
purpose of this meeting was to provide an overview of what research was 
being carried out on detecting these three substances.

1998: Signature of an agreement between the IOC and the European Union 
(DG XII) on the harmonization of anti-doping methods and measures. The 
agreement included funding for a preliminary study.

The final project is scheduled to be presented in November 1999 to the 
European Union in Brussels.

1999: World Conference on Doping in Sport--Lausanne 2nd, 3rd, 4th 
February 1999.

After the events which shook the world of cycling in the summer of 
1998, the IOC decided to convene a World Conference on Doping, bringing 
together everyone directly or indirectly involved in the fight against 
doping.
                             Exhibit ``B'' 
            Draft Mission Statement and Constating Document 
                                  for 
                       World Anti-Doping Agency 

1.Draft Mission Statement 

4.1 General Mission

        The mission of the Agency shall be to promote and coordinate at 
        international level the fight against doping in sport in all 
        its forms; to this end, the Agency will cooperate with 
        intergovernmental organisations, governments, public 
        authorities and other public and private bodies fighting 
        against doping in sport, inter alia, the International Olympic 
        Committee (IOC), International Sports Federations (IF), 
        National Olympic Committees (NOC) and the athletes;

The Agency's principal task will be to coordinate a comprehensive anti-
doping programme at international level, laying down common, effective, 
minimum standards, compatible with those in internationally recognized 
quality standards for doping controls, particularly with regard to out-
of-competition controls, and seeking equity for all athletes in all 
sports (including professional sports) and in all countries. Whereas 
priority will be given to high-level international competitive sport, 
the Agency will also take account of anti-doping programmes at all 
other levels of sport.
For these purposes, the International Federations, while preserving 
their autonomy and their own authority, agree to cooperate with the 
Agency and coordinate their respective anti-doping programmes with it 
in order to ensure that duplication is avoided and that the same 
application is achieved worldwide. The Agency will encourage and 
support the IFs in this endeavour.
The tasks of the Agency will also have consequences for anti-doping 
work at national level. The Agency shall cooperate with, and have 
recourse to the capacities of, competent national anti-doping agencies 
and other organisations (such as national Olympic committees or 
national confederations of sport) in charge of and conducting national 
anti-doping work. The Agency will help countries or federations who at 
present do not have effective anti-doping programmes or agencies to 
develop them, or, following agreement, to act on their behalf with 
regard to the Objects of the Agency.
In order to carry out these tasks the Agency may execute agreements 
between itself, the international federations and the national anti-
doping agencies or bodies, taking account of relevant international and 
national regulations and texts. On those occasions where there is a 
conflict of jurisdiction in anti-doping matters between an 
international and national body (or vice-versa), the Agency will use 
its good offices to seek a satisfactory solution.
The Agency will be entitled to make proposals to the Olympic Movement 
and to international sports organisations and to the public authorities 
on measures that could be taken to ensure further harmonisation and 
equity in anti-doping questions.
The Agency will be entitled to give an opinion to the International 
Olympic Committee on the implementation by international federations of 
the Olympic Movement's Anti-Doping Code.The Agency shall monitor the 
application of the Agency's principles and work.

4.2 Reinforcement of ethical principles and protection of the health of 
athletes

        The mission of the Agency shall be to reinforce at 
        international level the ethical principles for the practice of 
        doping-free sport and to help protect the health of athletes;

The Agency shall prepare materials, aimed at athletes, coaches and 
others in the athlete's entourage, for strengthening the ethical 
principles for the practice of doping-free sport. In order to help 
protect the health of athletes, the Agency shall prepare similar 
materials for doctors working with athletes, taking account also of 
medical ethics.

4.3 Lists of prohibited substances and methods

        The mission of the Agency shall be to establish, adapt, modify 
        and update for all the public and private bodies concerned, 
        inter alia the IOC, the IFs and NOCs, the list of substances 
        and methods prohibited in the practice of sport; the Agency 
        will publish such a list at least once a year, to come into 
        force on 1st January each year; or at any other date fixed by 
        the Agency if the list is modified during the course of the 
        year;

The Agency will draw up a common list of prohibited classes of 
substances and prohibited methods for adoption by all sports and by all 
national anti-doping agencies. This list will be updated periodically, 
at least once a year, for entry into force as stipulated in the 
Statutes.
The Agency will establish a procedure for including a new prohibited 
substance or method when circumstances require outside the usual annual 
cycle (urgent procedure).
The list will be initially based on that prepared by the IOC's Medical 
Commission. This Commission will be entitled to provide inputs into the 
updating of the list, and for the identification of new doping 
practices and forms of use.
In order to facilitate its approval and application by national anti-
doping agencies and other interested bodies, the list will be updated 
in consultation with appropriate international bodies including those 
responsible for the regulation of medicines.
The Agency will pay attention to the need to define clearly the 
legitimate use for genuine therapeutic purposes of substances or 
methods which could be in conflict with the list, and draw up 
guidelines for their use.
The Agency will disseminate the list as widely as possible by all 
available means.

4.4 Unannounced out-of-competition controls

        The mission of the Agency shall be to encourage, support, 
        coordinate, and when necessary undertake, in full agreement 
        with the public and private bodies concerned, the organisation 
        of unannounced out-of-competition testing;

The Agency will develop, on the basis of existing texts, common 
operating procedures with minimum, high quality standards for the 
conduct of unannounced out-of-competition controls.
The Agency, from the point of view of uniformity and equity in all 
sports and in all countries, will:

<bullet>  determine annually the number of unannounced out-of-
competition controls which it will finance;
<bullet>  organise and conduct unannounced out-of-competition controls 
with the approval of and in liaison with International Federations, 
concentrating in the first instance on countries and sports where such 
controls are not at present carried out;
<bullet>  coordinate and ensure harmony between such controls carried 
out internationally and those carried out nationally.
The focus of the controls, in the first instance, will be on those 
athletes eligible for, or striving to be eligible for, competition at 
international level.

The Agency may execute agreements (cf 4.1) for the performance of 
unannounced out-of-competition controls on a regular basis or for an ad 
hoc purpose. Such controls may be performed by the IFs themselves, by 
national federations, National Olympic Committees and/or national 
agencies or other specialized public or private entities.

4.5 Harmonisation and unification of the scientific, sampling and 
technical standards, development of a reference laboratory 

        The mission of the Agency shall be to develop, harmonise and 
        unify scientific sampling and technical standards and 
        procedures with regard to analyses and equipment, and to 
        develop a reference laboratory; 

These standards will include standards for doping control officers 
(sampling officers) carrying out these controls. The Agency will 
develop a sad certification procedure for such doping control officers, 
applicable to those working at international level, and, via the 
national agencies, to those conducting such controls at national level.
To this end, the Agency may develop training programmes, validation 
procedures and standards, and re-training programmes.
The Agency will develop standards for sample collection and for 
sampling equipment.
The Agency will develop, on the basis of the existing systems approved 
by the IOC Medical Commission:

<bullet>  a procedure, to be prepared in consultation with the 
appropriate international bodies, for the accreditation and the regular 
re-accreditation of anti-doping laboratories; this procedure will be 
based on the relevant international standards;
<bullet>  protocols for the analysis of prohibited substances and 
methods; standards for laboratory equipment, techniques, methods and 
staff recruitment and training.

With regard to the reference laboratory, the Agency will develop the 
standards for and appoint in due course an independent reference 
laboratory, which should no longer be concerned with routine anti-
doping analytical work, with the task of overseeing the above-mentioned 
protocols and standards, verifying new laboratory methods and 
techniques, developing common reference samples and substances, 
validating and certificating analytical work, and ensuring quality 
control and good laboratory practice. The reference laboratory will 
help and advise anti-doping laboratories seeking accreditation. It will 
act as a source of neutral expertise with regard to laboratory 
questions.
The Agency will produce annual statistics on the number of tests 
performed world-wide and their results.

The Agency will develop standards for the protection of privacy and 
personal data in anti-doping questions.

4.6 Harmonisation of rules, disciplinary procedures, sanctions and 
other means of combating doping in sport

        The mission of the Agency shall be to promote harmonised rules, 
        disciplinary procedures, sanctions and other means of combating 
        doping in sport, and contribute to the unification thereof 
        taking into account the rights of athletes;
The Agency, respecting the autonomy and authority of the International 
Federations, will:

<bullet>  promote the development by international federations of 
harmonised disciplinary procedures, incorporating measures to protect 
the rights of athletes, in particular:

        - the reporting and disciplinary bodies to be distinct from one 
        another
        - the rights to a fair hearing and to be assisted or 
        represented
        - clear and enforceable provisions for appealing against any 
        judgement made.\7\
---------------------------------------------------------------------------
    \7\ Article 7.2.d of the Anti-doping Convention of 16th November 
1998.

<bullet>  make proposals for a range (both in kind and in time) of 
adequate sporting sanctions, common to all sports, and appropriate to 
the offence. These sanctions, for implementation by the federations and 
by national anti-doping agencies or bodies will, in the case of the 
latter, bear in mind any specific relevant national legislation.
The Agency will monitor compliance with this Article by international 
and national bodies and make recommendations as appropriate.
The Agency will also develop means of bringing those responsible for 
anti-doping offences in the athlete's entourage within the scope of 
sporting anti-doping sanctions.
The Agency can make proposals to intergovernmental organisations for 
measures that could be taken to improve the fight against international 
trafficking and supply of doping substances in sport.

4.7 Anti-doping education and prevention programmes

        The mission of the Agency shall be to devise and develop anti-
        doping education and prevention programmes at international 
        level, aimed at promoting the practice of doping-free sport 
        according to ethical principles.

The Agency will develop all appropriate measures to improve anti-doping 
information and education programmes and other preventative anti-doping 
work and campaigns. It will support exchange network, advise, and 
provide tools for international sports organisations and national anti-
doping agencies and the various ``health professionals'' linked to 
sport on measures that could be taken in this field. The Agency will 
exploit the possibilities offered by existing dissemination channels as 
well as modern communication techniques and media. This part of the 
Agency's work should also take particular account of the positive role 
played by the mass-media and cooperate with them in informing the 
public of the nature of anti-doping work in international sport.
The Agency should also contribute to the dissemination of information 
on anti-doping questions generally. To this end, it may organise 
conferences, seminars or workshops.

4.8 Promotion and coordination of research in the fight against doping 
in sport

        The mission of the Agency shall be to promote and coordinate 
        research in the fight against doping in sport; 

The Agency will establish an inventory of anti-doping research carried 
out around the world. It will endeavour to coordinate such research, in 
order to avoid duplication and to promote complementary research, 
particularly with regard to research carried out by accredited 
laboratories. It will seek complementarity with relevant research 
programmes.
The Agency may undertake research itself within its scope and budget.
The Agency will stimulate, foster and seek proposals for new research 
into:

<bullet>  (new) substances and methods being used (or thought to be so) 
by sports people and devising appropriate analytical techniques and 
reasons for adding or excluding them from the list of prohibited 
substances and methods;
<bullet>  the pyschological and sociological aspects of doping, with a 
view, inter alia, of helping to develop more effective anti-doping 
strategies.

The Agency will stimulate research into scientific training programmes 
respecting the integrity of the human body.
The Agency may create a Research Fund, to which the private sector 
would be encouraged to contribute. The Board will pay attention to any 
possible conflict of interest in this respect.
The Agency will be entitled to draw up plans and proposals for its 
conversion, as the need may arise, into a different structure, possibly 
one based on international public law.
The Agency will seek to build upon existing and relevant competences, 
structures and networks, only creating new ones when necessary. The 
Agency may however set up working parties, commissions, or working 
groups, on a permanent or ad hoc basis, for the accomplishment of its 
tasks. It may hold consultations with other interested public or 
private organisations, whether involved in sport or not.

2. Draft Constating Document

                               FOUNDATION
                        WORLD ANTI-DOPING AGENCY
                              - Statutes -

                               Article 1 
                              Designation 
Under the name World Anti-doping Agency hereinafter referred to as 
``the Foundation'', a foundation governed by articles ... and by the 
present provisions is hereby constituted.

                               Article 2 
                                  Seat
The legal and statutory seat of the Foundation is in ....The Foundation 
Board is entitled to transfer the seat of the Foundation to another 
place, in ....... (country) ....... or abroad.

                               Article 3
                                Duration
The duration of the Foundation is unlimited.

                               Article 4
                                 Object
The object of the Foundation is:

4.1 to promote and coordinate at international level the fight against 
doping in sport in all its forms; to this end, the Agency will 
cooperate with intergovernmental organisations, governments, public 
authorities and other public and private bodies fighting against doping 
in sport, inter alia, the International Olympic Committee (IOC), 
International Sports Federations (IF), National Olympic Committees 
(NOC) and the athletes;

4.2 to reinforce at international level the ethical principles for the 
practice of doping-free sport and to help protect the health of 
athletes;

4.3 to establish, adapt, modify and update for all the public and 
private bodies concerned, inter alia the IOC, the IFs and NOCs, the 
list of substances and methods prohibited in the practice of sport; the 
Agency will publish such a list at least once a year, to come into 
force on 1st January each year; or at any other date fixed by the 
Agency if the list is modified during the course of the year;

4.4 to encourage, support, coordinate, and when necessary undertake, in 
full agreement with the public and private bodies concerned, the 
organisation of unannounced out-of-competition testing;

4.5 The mission of the Agency shall be to develop, harmonise and unify 
scientific, sampling, and technical standards and procedures with 
regard to analyses and equipment, and to develop a reference 
laboratory;

4.6 to promote harmonised rules, disciplinary procedures, sanctions and 
other means of combating doping in sport, and contribute to the 
unification thereof taking into account the rights of athletes;

4.7 to devise and develop anti-doping education and prevention 
programmes at international level, aimed at promoting the practice of 
doping-free sport according to ethical principles;

4.8 to promote and coordinate research in the fight against doping in 
sport;

The Agency will be entitled to draw up plans and proposals for its 
conversion, as the need may arise, into a different structure, possibly 
one based on international public law.
The Agency will seek to build upon existing and relevant competences, 
structures and networks, only creating new ones when necessary. The 
Agency may however set up working parties, commissions, or working 
groups, on a permanent or ad hoc basis, for the accomplishment of its 
tasks. It may hold consultations with other interested public or 
private organisations, whether involved in sport or not.
In order to achieve its object, the Foundation has the right to 
conclude any contract, to acquire and transfer, free or against 
payment, all rights, all movables and any real estate of whatever 
nature, in any country. It may entrust the performance of all or part 
of its activities to third parties.

                               Article 5
                         Capital and Resources
The founders allocate to the Foundation an initial capital of ....
The other resources of the Foundation shall consist of any other 
contributions, donations, legacies and other forms of allowance or 
subsidy from all natural or legal persons and all intergovernmental 
organizations, governments, public authorities and other public and 
private bodies.

                               Article 6 
                            Foundation Board
The Foundation Board shall initially be composed of not less than ..... 
members; this number may be increased to a total of no more than 35 
members. The members of the Foundation Board are personalities 
designated for a period of three years. They may be re-elected for two 
additional periods of three years. The first members of the Foundation 
Board shall be designated as follows:
6.1 ..... members designated by the Olympic Movement, in accordance 
with the following distribution:

        3 members designated by the IOC;
        3 members designated by the IFs, of whom 2 members will be 
        designated by the Association of Summer Olympic International 
        Federations (ASOIF) and one by the Association of International 
        Winter Sports Federations (AIWF);
        1 member designated by the General Association of International 
        Sports Federations (GAISF);
        3 members designated by the Association of National Olympic 
        Committees (ANOC);
        3 athletes designated by the IOC Athletes' Commission.

6.2- ... members designated by the intergovernmental organizations, 
governments, public authorities or by other public bodies active in the 
fight against doping in sport (hereinafter ``public authorities'') in 
accordance with the following distribution:

- ...................................

-....................................

-....................................

6.3 The other members shall be designated, as the case may be, by the 
Foundation Board upon joint proposal by the Olympic Movement and the 
Public Authorities.
6.4 As a general rule, when it is renewed and added to, the Foundation 
Board will ensure that a balance is struck and maintained between, on 
one side, the members of the Foundation Board representing the Olympic 
Movement (viz. the IOC, ASOIF, AIWF, ANOC and the IOC Athletes' 
Commission), and, on the other side, those representing the public 
authorities. The provisions of paragraph 6.6 below are reserved.
6.5 The Board may also invite a limited number of intergovernmental or 
other international organizations to act in an advisory capacity to the 
Foundation. Such organizations, which will be invited on the basis of 
their legitimate interest in the work of the Foundation and their 
expertise in relevant fields, may participate in the discussions of the 
Board but may not vote on Foundation Board decisions.
6.6 To the extent that the annual allocations or contributions to the 
budgetof the Foundation paid pursuant to article 13, paragraph 1 below, 
by the Olympic Movement on one side, and by the public authorities on 
the other side are equivalent, each of the two parties, namely the 
Olympic Movement on one side, and the public authorities on the other 
side, shall be entitled to designate an equal number of Foundation 
Board members.
Failing such equivalent annual allocations by each of the two above-
mentioned parties, the party whose allocation actually paid is lower 
will be entitled to designate a number of members of the Board which 
shall be inferior by at least one to the number of members designated 
by the other party; this system will apply for as long as the annual 
allocations or contributions to the Foundation budget paid by the two 
above-mentioned parties are not equivalent.
6.7 The Foundation Board may depart from the provisions of paragraphs 
6.1 to 6.6 above by a unanimous decision on the part of its members.

                               Article 7

                 Organization of the Foundation Board 

The Foundation Board is self-organized. It designate a chairman, a 
vice-chairman and a secretary; the secretary may be chosen from outside 
the Foundation Board.

                               Article 8
             Meetings and Decisions of the Foundation Board
The Foundation Board meets as often as is necessary, but at least once 
a year. The meetings of the Foundation Board are convened by the 
Chairman or by the secretary upon delegation of the Chairman. The 
Chairman is bound to convene a meeting at the written request of at 
least five members.
A set of minutes, signed by the Chairman and by the minute-taker, 
records the deliberations and decisions of the Foundation Board.
At meetings, the members of the Foundation Board have the right to ask 
the persons entrusted with running and representing the Foundation for 
information on the conduct of the activities of the Foundation and on 
specified questions.
The Foundation Board takes its decisions by an absolute majority of the 
votes of the members present, subject to the provisions of article 17, 
paragraph 2 of the present statutes. In the event of a tie, the 
Chairman has the casting vote.
The decisions of the Foundation Board may be taken on the approval 
given in writing to a proposal, unless discussion thereof is required 
by any of the members; decisions shall be recorded in the minutes.

                               Article 9
                 Attributions of the Foundation Board 
The powers of the Foundation Board are determined, with regard to the 
Foundation, by the law, the present statutes and all other regulations 
and decisions of the Foundation Board.
The Foundation Board has the inalienable right to:

9.1 Propose amendments to the present statutes.
9.2 Designate the auditing body of the Foundation.
9.3 Designate the Executive Committee provided for in the present 
statutes.

9.4 Designate if it deems it necessary to do so, other ad hoc or 
standing committees, inter alia a scientific committee, with the task 
of providing opinions or advising the Foundation on specific issues or 
in specific fields.
9.5 Take all decisions relating to the acquisition, against payment, or 
transfer, free or against payment, of all real estate.

                               Article 10
                  Obligations of the Foundation Board 

The Foundation Board is obliged, in particular:

10.1 to ensure the independence of the Foundation and transparency in 
all its activities;
10.2 to supervise the committees or persons entrusted with the running 
and representation of the Foundation, in order to ensure that the 
activity of the Foundation is in accordance with the law, the present 
statutes and the regulations, and to keep itself informed about the 
conduct of the activities of the Foundation;
10.3 to designate the members of the Executive Committee and other 
committees as provided for in the present statutes;
10.4 to promulgate the regulations relating to the Foundation Board 
itself, the Executive Committee and other committees, together with all 
other regulations indispensable to the operation of the Foundation;
10.5 to see to it that the minutes of the Foundation Board and the 
necessary books are duly kept and that the management report, profit 
and loss account and balance sheet are established in conformity with 
the provisions of the law.
10.6 to publish each year in French and English a report on all its 
activities, its profit and loss account and statement in accordance 
with the applicable legal requirements.

                               Article 11
                          Executive Committee

The Foundation Board delegates to an Executive Committee of at least 5 
members and a maximum of 9 members, the majority chosen from amongst 
the Board members, the actual management and running of the Foundation, 
the performance of all its activities and the actual administration of 
its assets.
11.2 The members of the Executive Committee are designated by the 
Foundation Board for periods of one year at a time. They may be re-
elected.
11.3 Furthermore, in case of incapacity or death of a member of the 
Executive Committee, he will be replaced immediately, either by the 
Foundation Board or temporarily by the Executive Committee; such 
temporary appointment shall become final upon its ratification by the 
Foundation Board no later than during its next meeting.
11.4 The Chairman of the Executive Committee is disignated by the 
Foundation Board; furthermore, the Executive Committee appoints, if 
necessary, a vice-chairman chosen from amongst its members. The 
Committee may also designate a secretary, who may be chosen from 
outside the Committee.
11.5 The Executive Committee is competent to take all decisions which 
are not reserved by the law or by the present statutes for the 
Foundation Board; its mission and organization will be specified in one 
or more sets of regulations which the Foundation Board will promulgate 
to this end.

                               Article 12
                    Representation of the Foundation

The Foundation is duly represented and bound vis-a-vis third parties by 
the collective signature of two of the persons designated by the 
Foundation Board as follows:
(a) at least two members of the Executive Committee.
(b) at least two members of the Foundation Board, one of whom must be 
one of the members designated by the Olympic Movement, and another must 
be one of the members designated by the public authorities.

                               Article 13
                Annual management report, balance sheet 
                      and profit and loss account

No later than November 30 of each year, the Foundation Board shall 
approve the budget for the following financial year; failing such 
approval, the budget of the current year shall apply to the next year. 
The annual allocations and other contributions shall be paid no later 
than December 31 of each year for the following year.
Each year, the Foundation Board submits to the supervisory authority 
the management report, balance sheet and profit and loss account as 
approved by the Board.
The financial year corresponds to the calendar year. The first 
financial year will thus end on 31 December 2000.

                               Article 14
                             Auditing Body
Each year, the Foundation Board designates a qualified and independent 
auditing body. Each year, the auditing body submits to the Foundation 
Board a report on the accounts of the Foundation; such report will be 
submitted to the supervisory authority.

                               Article 15
                              Indemnities
The members of the Foundation Board are not entitled to any indemnity 
for the performance of their functions; they are however entitled to 
reimbursement of their expenses subject to the conditions fixed by the 
Foundation Board.
For the performance of their functions, the members of the Executive 
Committee are entitled to an annual indemnity fixed by the Foundation 
Board, and to the reimbursement of their expenses.
The auditing body is entitled to fees in accordance with professional 
practice.
The staff employed by the Foundation is entitled to the remuneration 
fixed by the Executive Board which also decides on the other conditions 
of employment.

                               Article 16
                      Modification of the statutes
The Foundation Board may propose amendments to the present statutes to 
the supervisory authority.
Any proposed amendment must be approved by an absolute majority of all 
the members of the Foundation Board. In the event of a tie, the 
Chairman has the casting vote.

                               Article 17
                              Dissolution
The Foundation may be dissolved in the cases provided for by the law.
The Foundation Board may designate one or more liquidators.
No winding up measure may be performed without the express agreement of 
the supervisory authority.
Any surplus from winding up is given, with the agreement of the 
................................, to an institution pursuing the same 
or a similar object.

                               Article 18
                      Entry in the Trade Register
The Foundation will be entered in the ... Trade Register.

                               Article 19
                         Supervisory Authority
The Foundation will be placed under the supervisory authority of the 
................................................ , the competence 
whereof is hereby reserved.

    Senator Stevens. Dr. Wadler, Associate Professor of 
Clinical Medicine, New York University School of Medicine. 
Thank you.

   STATEMENT OF GARY I. WADLER, M.D., ASSOCIATE PROFESSOR OF 
   CLINICAL MEDICINE, NEW YORK UNIVERSITY SCHOOL OF MEDICINE

    Dr. Wadler. Senator Stevens, members of the committee, it 
is indeed an honor for me to be here today.
    I am a physician, a sports medicine physician. During the 
past 15 years, I have attempted to focus attention on the 
cascading problem of drugs in sports.
    Drug testing is at a crossroads, the point where everyone 
agrees at last that something must be done. There are four 
elements to consider in your deliberations.
    The first one is the why. With so many major public health 
crises, why should we care if a few elite athletes abuse their 
bodies? The answer is that the real abuse we are witnessing is 
that of the public trust.
    At a time when role models are crumbling, the Olympics 
should be, can be, and must be one of the purest examples of 
human achievement. We cannot allow performance enhancing drugs 
to cloud this event. We cannot allow another generation of 
young people to approach adulthood believing in the power of 
chemical manipulation over the power of character.
    The second element is the how. Since the 1950's, when 
anabolic steroids first appeared, the manipulators have 
consistently stayed a step ahead of the monitors.
    In 1956, Olga Fikatova Connolly bemoaned the fact that, 
``These awful drugs, anabolic steroids, have changed the 
complexion of track and field.'' Nearly, a half century later, 
that refrain is still accurate and still poignant.
    There are two broad ways to deal with doping. The first is 
cultural. The second is methodological.
    We must work to create a climate where the critical mass of 
public opinion turns against doping. We need that great 
movement of the national hinge, the way it swung in the cases 
of tobacco, drunk driving and seat belts.
    We need consumers to put pressure on sponsors to assure 
that events are credibly drug tested. And only then will we 
witness a sea-change.
    We need to ratchet up in a dramatic fashion our commitment 
to recognizing abuse.
    New drugs create new demands. For example, the use of 
endogenous substances, that is substances that occur naturally 
in our bodies, such as testosterone, growth hormone and 
erythropoietin, better known as EPO, creates the need for a 
higher ground of independent, peer-reviewed science coupled 
with credible year-round, out-of-competition testing.
    Case in point, in 1997, the United States Olympic Committee 
executive director Dick Schultz admitted the test to detect 
testosterone abuse, the so-called T/E ratio, had not been 
validated in women. Yet it continues to be used by both the IOC 
and the USOC. Bad science, bad policy.
    Let me assure you, whiz-bang new machines are not the 
answer either. Prior to the Atlanta Games, the IOC extolled the 
virtues of their expensive, new high resolution equipment. But 
after the games, the positive results were discarded because of 
``technical difficulties.''
    About this, Dr. Donald Catlin, director of the IOC 
accredited laboratory at UCLA, and a director at the Atlanta 
Laboratory stated, ``There were several other steroid positives 
from around the end of the Games, which we reported. I can 
think of no reason why they have not been announced.''
    What is needed is a Federal commitment to research, whether 
in the form of grants or tax credits with tight oversight 
controls.
    The third element is the who. We must place the 
responsibility for drug testing and enforcement of standards in 
the hands of a structure with unquestioned probity. The public 
trust in the IOC has been shaken by conflicts of interest and 
by a dangerous opacity, where transparency and accountability 
are required.
    We must call upon the IOC to replace semantics with 
science, fine print with fine judgment, and waffling with 
wisdom.
    Now, is the time for an independent and accountable anti-
doping agency, nationally and internationally, built on a best 
practices model with top notch due process protections and 
broad stakeholder input, especially from athletes.
    OATH, the recently created international organization, 
spearheaded by athletes, has made valuable contributions toward 
defining this independent body.
    The final essential element is the when. The simple answer 
is yesterday.
    When a celebrated athlete like Mark McGwire admits using 
androstenedione--and make no mistake, androstenedione is a 
steroid--and millions of kids witness the presumed power of 
these drugs, we are clearly on the slippery slope to disaster. 
And we cannot wait any longer to act.
    Congress must revisit the DSHEA Act of 1994. Substances 
like androstenedione were never contemplated by this 
legislation, and--and if it requires the reclassification of 
steroid supplements as prescriptive drugs, then let the process 
begin.
    In closing, I want to remind you that the current approach 
simply has not worked. Today's half-hearted drug testing and 
limited enforcement matrix are inadequate and porous. High 
profile drug cases underscore the work that needs to be done to 
restore public confidence.
    Some assert the IOC deserves a gold medal for stonewalling 
and inaction. Clearly, much work needs to be done to restore 
public confidence.
    We need to use drug-free athletes as role models and to 
marshall the force of parents and the media. We need to 
encourage the USOC and the IOC to pursue truly independent and 
accountable drug testing.
    We need to recognize that genetic engineering will create 
further opportunities for abuse and will require a greater need 
for intelligence than ever before.
    When it comes to eliminating doping in sports, there can be 
no compromise, no middle ground, no rhetorical acrobatics. We 
must go for the gold.
    Senator Stevens. Thank you, Doctor.
    [The prepared statement of Dr. Wadler follows:]

  Prepared Statement of Gary I. Wadler, M.D., Associate Professor of 
       Clinical Medicine, New York University School of Medicine
Dear Mr. Chairman and Members of the Committee;

I am honored to be here today and appreciate the opportunity to 
testify. My name is Dr. Gary I. Wadler and I am an Associate Professor 
of Clinical Medicine at New York University School of Medicine, a 
Trustee and Vice-President of The Women's Sports Foundation and a Board 
Member of OATH. Additionally, I am a former Trustee of the American 
College of Sports Medicine, the largest sports medicine and exercise 
science organization in the world, and currently I serve as Chairman of 
its Health and Science Policy Committee. I am also a member of the 
Technical Advisory Group of the CASA National Commission on Sports and 
Substance Abuse. At the local level, I serve as Chairman of the Nassau 
County Sports Commission in Nassau County, New York. Thus, I am in a 
unique position to address the subject of performance enhancing drugs 
from many perspectives--the health perspective, the science 
perspective, the community perspective and the public policy 
perspective. As a Board Member of OATH (Olympic Advocates Together 
Honorably), I have also had the opportunity to address the subject from 
the athlete's perspective. OATH is the world's leading athlete-centered 
movement committed to restoring and maintaining the values underlying 
the Fundamental Principles of the Olympic Charter by promoting ethical 
guardianship, responsible governance and effective management of the 
Olympic Movement. I have no vested interest in testifying today other 
than to share my views with the Committee about the complex and 
pervasive subject of performance enhancing drugs in society.
For the past 15 years, I have attempted to focus attention on the 
cascading problem of drugs in sports.
Drug testing is at a crossroads...the point where everyone agrees--at 
last that something must be done.
There are four elements to consider in your deliberations.
The first is the WHY:
With so many major public health crises, why should we care if a few 
elite athletes abuse their bodies?
The answer is that the real abuse we are witnessing is that of the 
public trust. At a time when role models are crumbling, the Olympics 
should be one of the purest examples of human achievement.
Athletes commit tremendous time and energy in the pursuit of the 
Olympic dream. For most athletes that commitment and dedication is 
motivated, not by the desire for external rewards or pay, but simply by 
a love of sport for its own sake. Athletes pursue excellence. They push 
themselves beyond their limits; they try, and when they fail, they try 
again. It is this kind of heroic dedication and the suspense of seeing 
who prevails in the Olympic contests that draws and holds the 
spectators. The world watches as its greatest athletes push the human 
body and spirit in the pursuit of human excellence. People are drawn to 
this great Olympic Movement because of the athletes and the Olympic 
values they live and embody. Olympic athletes affirm an oath at the 
start of every Olympic Games. The Oath says:

        ``I promise that we shall take part in these Olympic Games, 
        respecting and abiding by the rules which govern them, in the 
        true spirit of sportsmanship, for the glory of sport and the 
        honor of our teams.''

The athletes' pledge is to go beyond merely following the rules of 
sport, to strive for something higher--true ``sportsmanship''-- for in 
this lies honor.
Doping is a matter of ethics, which affects not only Olympic athletes 
but also youth, high school, college and professional athletes. The 
fact is doping threatens to undermine the ethical and physical well 
being of children.
There is no doubt that Olympic athletes are role models for younger 
athletes and alarmingly these young athletes are increasing their usage 
of steroids. Statistics in the United States indicate that the use of 
steroids in boys and girls has increased since 1991 and with teenage 
girls it has increased 100%. What is also alarming is that 3% of girls 
and just under 3% of boys at the very young ages of 9-13 have used 
steroids. This is on par with the use of other drugs of abuse as 
reported by the findings of the 1997 National Household Survey, which 
found that lifetime cocaine use by children ages 12-17 was 3%. The 
National Institute on Drug Abuse estimates that 500,000 high school 
students have tried steroids. These facts highlight the serious nature 
of the steroid problem and the impact it is having on our youth.
Clearly most athletes, especially Olympic athletes, serve as positive 
role models, shaping the behavior of our youth. Regrettably, there is a 
negative ripple effect from those who resort to doping.
The Olympic Movement is a public trust. It is a trust established to 
promote the ideals of Olympism. How well the guardians of the Olympic 
Movement discharge their responsibility to the public they serve will 
be measured by how well they live up to Olympic ideals. The Congress as 
well as the guardians of the Olympic Movement need to take this matter 
seriously.
The Olympic Games are not just multi-sport world championships. When 
asked, the world public identifies Olympic values of excellence, 
dedication, fair play and international peace as key ingredients of the 
Olympic Games. The Olympic Games command the sponsorship they do 
because the public supports the Games. The Olympic rings connote a 
higher set of ethics and values and this is what public support is 
based on. Furthermore, it contributes to physical and moral development 
of young people.
We cannot allow performance-enhancing drugs to undermine the Olympic 
Movement. We cannot allow another generation of young people to 
approach adulthood with a pervading sense of cynicism, and a belief in 
the power of chemical manipulation rather than the power of character.
The second factor is the HOW?
How do we deal with the crisis, given the clandestine nature of doping 
and its growing sophistication?
The year was 1886, a period characterized by the genesis of new 
industries and the creation of great wealth. A period when we believed 
anything was possible. A period, in short, much like today.
1886 is a significant year because it marked the first recorded 
fatality from a performance enhancing drug.
An English cyclist died of an overdose of what is only known as 
``trimethyl'', during a race between Bordeaux and Paris.
Of course, in the more than 100 intervening years, doping in sports, 
like the rest of technology, has grown in scientific and ethical 
complexity.
A new inflection point of abuse appeared in the 1950s with anabolic, 
androgenic steroids. Since then the manipulators have consistently 
stayed a step ahead of the monitors.
In 1956, Olga Fikatova Connolly bemoaned the fact that ``These awful 
drugs, anabolic steroids, have changed the complexion of track and 
field.''
Nearly half a century later that refrain is still accurate, still 
poignant.
There are two broad ways to deal with doping.
The first is cultural, the second, methodological.
We must work to create a climate where the critical mass of public 
opinion turns against doping. We need that great Movement of the 
national hinge, the way it swung in the cases of tobacco, drunk 
driving, seatbelts and most recently, in the use of off-shore child 
labor in manufacturing.
We need consumers to put pressure on sponsors to assure that events are 
credibly drug tested. Only then will we witness a sea-change.
We need to ratchet up, in a dramatic fashion, our commitment to 
recognizing abuse.
New drugs create new demands. For example, the use of endogenous 
substances--that is, substances that occur naturally in our bodies, 
such as testosterone, human Growth Hormone (hGH) and Erythropoietin 
(EPO)--creates the need for a higher ground of independent, peer-
reviewed science coupled with credible year round out-of-competition, 
random and unannounced testing.
Recombinant hGH means normal height for children otherwise destined to 
be dwarfs, but for the drug abusing athlete it means bigger, albeit not 
stronger, muscles. EPO means renewed vitality for those with anemia, 
but for the drug abusing athlete, it means greater endurance. 
Derivatives of testosterone mean normal sexuality for those deficient 
by means of disease or surgery and genetic engineering can only mean 
new and more complex challenges in the future.
Given the complexities of the drugs and related substances legitimately 
available, determining whether an athlete has or has not doped requires 
both good science and good policy.
In 1997, USOC Executive Director Dick Schultz admitted the test to 
detect testosterone abuse, the so-called T/E ratio, had not been 
validated in women. Yet it continues to be used by both the IOC and 
USOC. Bad science. Bad policy.
And let me assure you, whiz-bang new machines aren't the answer, 
either.
Prior to the Atlanta Games, the IOC extolled the virtues of their 
expensive new high resolution equipment. But after the games, the 
positive results were discarded because of ``technical difficulties''.
About this, Dr. Donald Catlin, Director of the IOC accredited 
laboratory at UCLA, and a director at the Atlanta Laboratory stated: 
``There were several other steroid positives from around the end of the 
Games which we reported. I can think of no reason why they have not 
been announced.''
The Atlanta Games were further clouded by the presence in the urine of 
the ``new'' stimulant drug, Bromantan, and why political machinations 
resulted in five athletes being cleared of a doping offense by the on-
site Court of Arbitration in Sport.
In part what is needed is a federal commitment to research, whether in 
the form of grants or tax credits with tight oversight controls.
Banned drug lists must be based on a generally recognized body of 
science, and where one does not exist, it must be based on some clearly 
reasoned rationale, including issues related to laboratory science.
Because advances in biotechnology have outpaced advances in laboratory 
science, the detection of certain drugs or biologicals is today either 
impractical or impossible. To wit, hGH, EPO and most recently, IGF-1.
IGF-1 is a polypeptide that is indirectly responsible for most of the 
growth-promoting effects of hGH. It is associated with a plethora of 
physiologic functions many of which are shared with hGH. These include 
increased protein synthesis, decreased protein breakdown and increased 
fat metabolism--all attractive to athletes.
Its approved uses in the United States are for a certain form of 
dwarfism and a rare form of insulin resistant diabetes. Like hGH, IGF-1 
is not detectable with current screening methods and like hGH it needs 
to be administered intramuscularly.
One of the newer performance enhancing drugs, relatively little is 
known about its abuse patterns, cost, availability and long term side 
effects. The cost of IGF-1 is about $3 thousand per month and 
counterfeit products are problematic.
Sadly, it seems, we define international sports competitions and 
events, not by the city or country in which they were held, but by the 
drug that made the headlines--the Clenbuterol Olympics, the Bromantan 
Olympics, the Growth Hormone Games, the Steroid Pan Am Games, or the 
EPO Tour de France, or as some have suggested the Tour des Drugs.
There is good reason for this. If we look at the number and kind of new 
drugs that have come to market since the introduction of doping control 
in the Olympic movement in 1960s, the number is staggering.
That's today. But what about tomorrow? What is around the corner--brake 
drugs, blood substitutes, genetic manipulation? It is not a matter of a 
brave new world, but of brave new worlds.
And just as researchers are closing in on a method to detect the abuse 
of EPO, a potentially dangerous new EPO replacement, which is likely to 
increase endurance, has surfaced.
The substance is perfluorocarbon, or PFC, a substance with enormous 
oxygen-carrying capacity. It has been suggested that the abuse of this 
synthetic blood--like substance first surfaced in Nagano where it had 
been allegedly abused by cross-country skiers and speed skaters.
The International Cycling Federation has issued warnings about PFC to 
its national federations.
Although not officially on the market in the United States, there is 
active research into PFCs for legitimate medical use. PFC can 
significantly increase endurance by delivering more oxygen to working 
muscles.
With the global market for blood substitutes probably exceeding $2 
billion, the number of new products will undoubtedly continue to grow. 
For example, active research is continuing using purified bovine 
hemoglobin rather than products of human origin or the use of PFCs to 
carry oxygen, and work continues on genetically engineered blood 
substitutes.
The injection of this gene limits the effect of IGF-1 to the skeletal 
muscles into which the gene is directly injected obviating any adverse 
effects of IGF-1 on the rest of the body.
With this technique young mice experienced a 15% increase in muscle 
strength, and old mice a 27% increase. Accordingly, the gene has been 
dubbed the ``fountain of youth'' for skeletal muscles.
But in the world of doping, milestones become millstones.
The author of the original study has already expressed concern that 
this technology may be sought out by athletes who are seeking a 
competitive edge. Interestingly, muscle strength increased without any 
exercise and there was no way to detect the use of gene therapy from 
analyzing the blood.
Trials are to begin in monkeys and, in the not too distant future, the 
first human study may be done in people with a form of muscular 
dystrophy.
And in another study, IGF-1 producing genes have been successfully 
introduced into mouse embryos. Is it a stretch that with the new 
technologies of genetic engineering that we are arming parents with the 
tools to create designer offspring whether inside the uterus or out of 
it?
Of course, the ethical, moral and biological debate transcends sports. 
Indeed, it touches on the transcendent as George Wald, the Nobel Prize-
winning biologist and Harvard professor, opined: ``Recombinant DNA 
technology (genetic engineering) faces our society with problems 
unprecedented not only in the history of science, but of life on earth. 
It places in human hands the capacity to redesign living organisms, the 
products of some three billion years of evolution''.
We stand at the brink of an uncertain future. But I personally believe 
that the unpredictability and the velocity of change are not an excuse 
for reserving judgment about some profound distinctions that should 
fundamentally govern our perspective on the role of sports in our 
social fabric.
With that in mind, the columnist George Will has reminded us: ``A 
society's recreation is charged with moral significance. Sport--and a 
society that takes it seriously--would be debased if it did not 
strictly forbid things that blur the distinction between the triumph of 
character and the triumph of the chemistry.''
In order that we not blur the distinctions George Will speaks of, what 
we must do in this complex and challenging environment, is confront the 
issues related to doping from the broadest possible perspective.
The third element is the WHO:
The athletes' confidence in the public trust has been shaken. We must 
place the responsibility for drug testing and enforcement of standards 
in the hands of a structure with unquestioned probity.
The public trust in the IOC has been shaken by conflicts of interest 
and by a dangerous opacity, where transparency and accountability are 
required.
We must call upon the IOC to replace semantics with science, fine print 
with fine judgment, waffling with wisdom.
Now is the time for an independent and accountable anti-doping agency, 
nationally and internationally, built on a best-practices model with 
topnotch due process protections and broad stakeholder input, 
especially from athletes.
OATH (Olympic Advocates Together Honorably), the world's leading 
independent athlete-centered movement, has made valuable contributions 
toward defining this independent body. The OATH Report underscores a 
credible anti-doping agency needs to be independent, open to public 
scrutiny and accountable.
New doping control measures must be rooted in sport ethics and values; 
they must flow from athlete agreement; they must respect athletes' 
rights to privacy; and they must be independently, accountably and 
fairly administered.
Moving forward in the fight against doping the IOC's progress is 
painfully slow and its commitment questionable. By example in 1999 the 
IOC has undertaken marketing efforts valued at $150 million in a 
campaign to bolster its waffling public image and $25 million to the 
fight against doping, unquestionably a moral crises of enormous 
magnitude and the single largest threat to the continued integrity of 
the Olympic Movement. The priority of image over substance seems clear.
Furthermore, efforts by the IOC this year at their Conference on Doping 
in Lausanne in February finished far short of expectations. Any ground 
being made at the conference was seemingly lost in the newly published 
Olympic Movement Anti-doping Code, which is inadequate in key areas.

The anti-doping code defines doping as:

1. The use of an expedient (substance or method) which is potentially 
harmful to athletes' health and/or capable of enhancing their 
performance, or
2. The presence in an athlete's body of a Prohibited Substance or 
evidence of the use thereof or evidence of the use of a Prohibited 
Method.

The first part of the definition, taken literally (as it needs to be in 
a document that will form the basis of legally enforceable rule) would 
have the effect of banning training. Any method of training is a method 
of enhancing performance, which, under the definition, is doping and 
therefore prohibited. Clearly this meaning cannot be what is intended, 
but the point is illustrative. Unless we know what the enemy is, our 
battles will be doomed to failure.
The choice of whether to permit or prohibit a substance or practice is 
a decision about the rules and values of sport. These decisions are 
similar to decisions about the permissibility of any technological 
development in sport. They are decisions, but the decisions are not 
arbitrary. The crucial question concerns, who will be empowered to make 
the decision and on what grounds the decisions will be made.
The anti-doping code is also deficient in other crucial areas. Doping 
control can only be accomplished by effective out-of-competition, year 
round, no notice testing conducted by an independent and accountable 
agency open to public scrutiny. Research into substances per se without 
this is essentially pointless. The Anti-doping code refers to such 
testing but offers no indication of how that testing would be carried 
out to ensure fairness, effectiveness and respect for the privacy and 
dignity of athletes.
Interestingly most athletes favor anti-doping regulations. The 
importance of out-of-competition testing which is unannounced and 
random is due to the fact that many drugs such as hGH, EPO and anabolic 
steroids are training drugs and are not taken during competition thus 
enabling drug tests administered during competition to show no signs of 
doping. Furthermore, when the test is out-of-competition, unannounced 
and random, athletes are unable to put someone else's urine in their 
bladder, a practice not unheard of. However, if these out-of-
competition, unannounced and random tests are to be properly 
administered, athletes consent is required so not to violate their 
rights.
A credible anti-doping agency needs to be independent, open to public 
scrutiny, and accountable. The IOC retains control of the new anti-
doping code and hence of the new agency, by insisting that all 
modifications to the code be made by the IOC Executive Board and also 
by insisting that inclusion or exclusion in the Code is not a matter 
subject to appeal. The IOC must be prepared to relinquish control of 
the new agency in order to secure independence and a genuine 
international partnership. It appears the IOC seems more interested in 
control than credibility.
The fight against doping is international, requiring cooperation and 
partnerships. In particular, national governments and international 
sports' federations are necessary partners. The current Anti-Doping 
Code is silent on the commitments required from International 
Federations and the structure of partnerships with national 
governments. It is estimated national governments fund 90% of current 
drug testing, or globally that amounts to $43.5 million annually.
The IOC's announcement of a new World Anti-Doping Agency suggests that 
the IOC plans to `go it alone''. For example, it has failed to 
recognize throughout the world that much has already been done in 
establishing anti-doping agencies from which the IOC could learn, such 
as in Canada and Australia. Why the reluctance to learn from those with 
experience and expertise?
There are international models for the structure, composition and 
mandate of such a body. The International Anti-Doping Arrangement is a 
working agreement between the national anti-doping agencies in 
Australia, Canada, Great Britain, Sweden, the Netherlands, New Zealand 
and Norway. Between them, they have many years of experience of in and 
out-of-competition testing and disappointingly none of them have been 
consulted by the IOC to assist in setting up their new World Anti-
Doping Agency.
Their recommendations are clear. The new agency must be independent and 
accountable. This independence must include the independence both to 
determine the content of the Anti-Doping Code and also the methods of 
testing, adjudication and enforcement. The new agency must also set 
consistent minimum standards that would apply to all anti-doping 
efforts whether those efforts are conducted by the Agency itself, other 
national testing agencies or the International Federations. These 
minimum standards would include quality control of doping procedures, a 
minimum percentage for unannounced testing, consistent sanctions and a 
fair appeal process.
Athletes are leading the fight against doping. The ``Doping Passport'' 
proposed by members of the Athletes' Commission, would be an 
accessible, and public, indication of an athlete's availability for, 
and history of doping tests. While the details for the ``Doping 
Passport'' have yet to be worked out, the creation of an athlete 
agreement to end doping and accept the testing required to enforce a 
level and clean playing field are central elements in The OATH Report's 
proposal to eliminate doping.
The IOC must go to independent experts to create a new anti-doping 
agency. It must go to those who have the experience to design and to 
operate an effective, open and accountable testing program. It must go 
to medical and scientific experts to determine the effects of new 
methods of doping and to find safe, effective means of detection. It 
must go to ethical experts for judgment on the permissibility or 
otherwise of drugs and practices and the means of enforcement. It must 
go to legal experts to create a system of adjudication and punishment 
that is fair and consistently enforceable. It must go to educational 
experts to develop strategies for encouraging ethical change. And, it 
must go to athletes to ask them about their bodies and their sports and 
to seek their wholehearted cooperation and agreement in combating the 
scourge of doping.
The final essential element is the WHEN:
The simple answer is yesterday.
When a celebrated athlete like Mark McGwire admits using 
androstenedione--and make no mistake, androstenedione is a steroid--and 
million of kids witness the presumed power of these drugs--we are 
clearly on a slippery slope to disaster.
Manufacturers of androstenedione have reported that their sales are up 
five-fold in the past year. We are living in a culture where young 
people are particularly comfortable using the internet and the number 
of web sites which sell androstenedione is staggering not to mention 
other related steroid supplements. Not surprisingly the Healthy 
Competition Foundation 1999 survey found that 1 in 4 American teens and 
pre-teens personally know someone who has used performance-enhancing 
drugs.
And we cannot wait any longer to act.
Congress must revisit the DSHEA Act of 1994. Substances like 
androstenedione were never contemplated by this legislation, and if it 
requires the reclassification of steroid supplements as prescriptive 
drugs, then let the process begin.
I want to remind you that the current approach simply hasn't worked. 
Today's half-hearted drug testing and limited enforcement matrix is 
inadequate and porous. High profile drug cases underscore the work that 
needs to be done to restore public confidence.
Some assert the IOC deserves a gold medal for stonewalling and 
inaction. Clearly much work needs to be done to restore public 
confidence.
We need to use drug-free athletes as role models and to marshal the 
force of parents and the media. We need to encourage the USOC and the 
IOC to pursue truly independent and accountable drug testing.
We need to recognize that genetic engineering will create further 
opportunities for abuse, and will require a greater need for 
intelligence than ever before.
When it comes to eliminating doping in sports, there can be no 
compromise, no middle ground, not rhetorical acrobatics. We must go for 
the gold. Our athletes and the public deserve no less.

    Senator Stevens. Ms. Coleman.
    Ms. Coleman. Senator Stevens, good morning. My name is 
Doriane Coleman, and I teach at the Duke Law School.
    Senator Stevens. Ms. Coleman, could -- could I interrupt 
you just a minute?
    I see that a lot of people are leaving. I -- I -- I would 
like to inform those that are here that I -- I have already 
started working on a draft of a bill to deal with these issues, 
and I -- I would invite anyone who wants to submit suggestions 
to send me suggestions.
    I will be working, of course, in conjunction with the 
chairman in -- in terms of this bill, and my hope is that we 
will be able to introduce it very soon after the -- the Senate 
convenes in January, with the hopes that we would have some 
hearings by -- by February or early March.
    Thank you.
    Ms. Coleman.

       STATEMENT OF PROFESSOR DORIANE LAMBELET COLEMAN, 
                 DUKE UNIVERSITY SCHOOL OF LAW

    Ms. Coleman. Thank you, Mr. Stevens -- Senator Stevens.
    I appreciate the opportunity to testify today concerning 
the problem of doping in Olympic sport.
    It is a subject that I have observed from perhaps more 
vantage points than anyone else. I was an elite athletes 
subject to drug testing.
    I was the lawyer for the predecessor to USA Track and Field 
and was instrumental in establishing its out-of-competition 
drug testing program, which was the first in the United States. 
I prosecuted doping cases. I defended an athlete against doping 
charges.
    Currently as an academic, I study and teach about the 
structure of international sport. Most recently, I was the 
director of the Duke Conference on Doping, which sought to 
develop a model for a fair and effective drug testing strategy.
    My remarks today are based on this experience. They concern 
the progress that the IOC and USOC have made toward such a 
model, and the role that the U.S. Government might properly 
play in encouraging its further development.
    As a threshold matter, it is useful to understand that the 
calls for reform of the IOC's and USOC's anti-doping strategy 
were very specific. To restore integrity to Olympic sport, 
their drug testing operations should be externalized from and 
made independent of these organizations.
    This means that the IOC and the USOC should create a new 
body or bodies that they do not control and that have the 
authority those organizations now have to conduct relevant 
research, do drug testing, prosecute positive cases, et cetera.
    I have included in my written testimony a memorandum that 
contains a detailed evaluation of both organizations' proposals 
for reform and how they should be modified to satisfy these 
requirements. I confine my oral remarks to a summary of that 
evaluation.
    The IOC's proposal can be characterized simply as a false 
start. What it suggests is the creation of a new entity, which 
it calls ``The Foundation'' that is not formally tied to the 
IOC, but it does not give that Foundation any real authority.
    While the Foundation could recommend to the IOC rule 
changes, it would not be responsible for relevant research. It 
would not develop a new drug testing program. It would not do 
drug testing. It would not be responsible for sample analysis. 
It would not evaluate suspicious samples. Indeed, it would not 
even know about those samples. It would not prosecute athletes 
with positive drug tests.
    In sum, this proposal would not externalize anything. The 
same is true with respect to independence.
    The proposal suggests a governing structure for the 
Foundation that leaves control in the hands of the IOC and the 
Olympic Movement, so long as it is willing to pay for that 
control, quite literally.
    In stark contrast to the IOC proposal, it is clear that the 
USOC, through its Task Force on Drug Externalization is 
committed to the principle of externalization.
    Indeed, with respect to this, its response to the public 
calls for reform is complete. The proposal contemplates that 
the new anti-doping agency would take over all aspects of the 
USOC's anti-doping effort, everything from the development of 
its rules to the collection of samples and the prosecution of 
cases.
    On the other hand, however, like the IOC's proposal, the 
USOC's proposal also fails on the question of independence. All 
of the agency's board members would either come out of the USOC 
or be selected, at least initially, by individuals within the 
USOC.
    In essence, the proposal suggests the creation of a wholly 
owned subsidiary.
    While there are other important areas that are of concern 
in the USOC's proposal, all of which I have described in my 
memorandum, to the extent that the USOC is willing to revise 
its view toward independence, it is likely that these remaining 
issues also could be resolved.
    The IOC and USOC will tell you that the calls for 
externalization and independence, particularly independence, 
are inherently unfair, that the so-called stakeholders have 
every right to continue to control the Olympic anti-doping 
program, either because they view the Olympic enterprise as a 
private club or because they and their constituencies are most 
directly affected by drug testing.
    While this argument has superficial appeal, it is precisely 
because these organizations are insular and have the most to 
lose in the drug testing process that they should not be in 
control of that process.
    Indeed, the reason it is so critical that the IOC and USOC 
both externalize and make independent their drug testing 
operations is that they are neither willing nor capable, as a 
structural matter, of conceiving and administering a fair and 
effective drug testing program.
    Both organizations have demonstrated this fact repeatedly 
over the years. The particular deficiencies in their current 
proposals for reform are consistent with their historical 
reluctance to do the right thing with respect to drug testing.
    In the view of many observers, what lies behind this 
reluctance is concern about the impact of an independent drug 
testing program on the ability of these organizations to market 
the Olympics and to raise the enormous amounts of money they 
need to do this successfully.
    I note that this fund-raising mission is not only self-
imposed. The Olympic and Amateur Sports Act also acknowledged--
acknowledges that this is, in principal part, what they exist 
to do.
    But because the success of their fund-raising effort 
depends uniquely on positive public relations, it is 
fundamentally at odds with fair and effective drug testing, 
which at times would require the IOC and USOC publicly to 
punish the very stars they rely upon in that effort.
    The result is that the IOC and USOC sometimes act 
arbitrarily with respect to individual doping cases, in order 
to protect their larger economic interests.
    The historical record is relatively clear that this 
conflict of interest is real and that the public's image of the 
IOC and USOC in any given circumstance has driven their anti-
doping policy and decisions, which brings me to my final point.
    The U.S. Government not only has the right, but the 
obligation, to intervene in the affairs of these organizations 
to address the drug testing problem in Olympic sport.
    The right resides in the government's--government's 
commerce power. The fact that this government also subsidizes 
the IOC and USOC through special trademark protections and 
their tax-exempt status merely reinforces this right.
    The obligation of the United States to intervene resides in 
the fact that through the Olympic and Amateur Sports Act, the 
government is responsible for giving the IOC and USOC the scope 
of authority those organizations currently are abusing.
    The deference that this government has historically given 
to these organizations is simply not merited in circumstances 
where their economic interests are in conflict with the 
interests of athletes.
    The obligation of the government to intervene also arises 
because the IOC and USOC are selling to the product--to the 
public a product that, in some instances, they misrepresent, 
because they permit athletes who use drugs to steal 
opportunities and dreams from those who follow the rules; and 
most importantly, because their failure to stop the use of 
drugs affects the health and welfare, including especially the 
ethical development, of American children.
    Thank you.
    Senator Stevens. Thank you very much.
    [The prepared statement of Ms. Coleman follows:]

            Prepared Statement of Doriane Lambelet Coleman, 
                     Duke University School of Law
    Mr. Chairman, Senators, I appreciate the opportunity to testify 
today concerning the problem of doping in Olympic sport, a subject that 
I have observed from perhaps more vantage points than anyone else: I 
was an elite athlete subject to drug testing; I was the lawyer for the 
predecessor to USA Track & Field and was instrumental in establishing 
its out-of-competition drug testing program, which was the first in the 
United States; I prosecuted doping cases; I defended an athlete against 
doping charges; currently, as an academic, I study and teach about the 
structure of international sport; and most recently, I was the Director 
of the Duke Conference on Doping, which sought to develop a model for a 
fair and effective drug testing strategy. My remarks today are based on 
this experience. They concern the progress that the IOC and USOC have 
made toward such a model, and the role that the U.S. government might 
properly play in encouraging its further development.
    As a threshold matter, it is useful to understand that the calls 
for reform of the IOC's and USOC's anti-doping strategy were very 
specific: To restore integrity to Olympic sport, their drug testing 
operations should be ``externalized'' from and made ``independent'' of 
these organizations. This means that the IOC and the USOC should create 
a new body or bodies that they do not control, and that have the 
authority those organizations now have to conduct relevant research, do 
drug testing, prosecute positive cases, etcetera. I have included in my 
written testimony a memorandum that contains a detailed evaluation of 
both organizations proposals for reform and how they should be modified 
to satisfy these requirements, and so I confine my oral remarks to a 
summary of that evaluation.
    The IOC's proposal can be characterized simply as a false start. 
What it suggests is the creation of a new entity which it calls the 
Foundation, that is not formally tied to the IOC, but it does not give 
that Foundation any real authority: While the Foundation could 
``recommend'' to the IOC rule changes, it would not be responsible for 
relevant research; it would not develop a new drug testing program; it 
would not do drug testing; it would not be responsible for sample 
analysis; it would not evaluate suspicious samples, indeed it would not 
even know about such samples; and it would not prosecute athletes with 
positive drug tests. In sum, this proposal would not externalize 
anything. The same is true with respect to independence. The proposal 
suggests a governing structure for the Foundation that leaves control 
in the hands of the IOC and the Olympic Movement so long as it is 
willing to pay for that control (quite literally).
    In stark contrast to the IOC proposal, it is clear that the USOC, 
through its Task Force on Drug Externalization, is committed to the 
principle of externalization. Indeed, with respect to this, its 
response to the public's calls for reform is complete: The proposal 
contemplates that the new anti-doping agency would take over all 
aspects of the USOC's anti-doping effort, everything from the 
development of its rules to the collection of samples and the 
prosecution of cases. On the other hand, however, like the IOC 
proposal, the USOC proposal also fails on the issue of independence: 
All of the agency's board members would either come out of the USOC or 
be selected (at least initially) by individuals within the USOC. In 
essence, the proposal suggests the creation of a wholly-owned 
subsidiary. While there are other important areas that are of concern 
in this proposal, all of which I have described in my memorandum, to 
the extent that the USOC is willing to revise its view toward the 
independence of the proposed agency, it is likely that these remaining 
issues also will be resolved. The IOC and USOC will tell you that the 
calls for externalization and independence are inherently unfair, that 
the so-called ``stakeholders'' have every right (either because they 
view the Olympic enterprise as a ``private club'' or because they and 
their constituencies are most directly affected) to continue to control 
the Olympic anti-doping program. While this argument has superficial 
appeal, it is precisely because these organizations are insular and 
have the most to lose in the drug testing process that they should not 
be in control of that process. Indeed, the reason it is so critical 
that the IOC and USOC both externalize and make independent their drug 
testing operations is that they are neither willing nor capable (as a 
structural matter) of conceiving and administering a fair and effective 
drug testing program. Both organizations have demonstrated this fact 
repeatedly over the years; the particular deficiencies in their current 
proposals for reform are consistent with their historical reluctance to 
``do the right thing'' with respect to drug testing.
    In the view of many observers, what lies behind this reluctance is 
concern about the impact of an independent drug testing program on the 
ability of these organizations to market the Olympics, and to raise the 
enormous amounts of money they need to do this successfully. I note 
that this fund-raising mission is not only self-imposed; the Olympic 
and Amateur Sports Act also acknowledges that this is in principal part 
what they exist to do. But because the success of their fund-raising 
effort depends uniquely on positive public relations, it is 
fundamentally at odds with fair and effective drug testing, which at 
times would require the IOC and USOC publicly to punish the very stars 
they rely upon in that effort. The result is that the IOC and USOC 
sometimes act arbitrarily with respect to individual doping cases, in 
order to protect their larger economic interests.
    The historical record is relatively clear that this conflict-of-
interest is real, and that the public's image of the IOC and USOC in 
any given circumstance has driven their anti-doping policy and 
decisions. I will provide just two brief examples here: First, while 
the IOC has long asserted publicly its dedication to drug-free sport, 
there is evidence that it suppressed positive drug tests at least at 
the 1984 and 1996 Summer Games in Los Angeles and Atlanta. Second, 
while the USOC also has long professed publicly to be committed to fair 
and effective drug testing, I know personally that it went kicking-and-
screaming into the era of out-of-competition drug testing; and, in a 
case with which I also am personally familiar, it has professed 
publicly to support an athlete it believed was treated unfairly by 
international doping authorities, while it has confessed privately 
that, ``even if she is innocent, how can the USOC help [her] without 
looking like [it']s soft on drugs.'' Where image and ``the right 
thing'' are in conflict, it is the latter that is sacrificed.
    Which brings me to my final point: The United States government not 
only has the right but also the obligation to intervene in the affairs 
of these organizations to address the drug testing problem in Olympic 
sport. The right resides in the government's commerce power. The fact 
that this government also subsidizes the IOC and USOC, through special 
trademark protections and their tax-exempt status, merely reinforces 
this right. The obligation of the United States to intervene resides in 
the fact that through the Olympic and Amateur Sports Act, the 
government is responsible for giving the IOC and USOC the scope of 
authority those organizations currently are abusing. The deference that 
this government has historically given to these organizations is simply 
not merited in circumstances where their economic interests are in 
conflict with the interests of athletes. The obligation of the 
government to intervene also arises because the IOC and USOC are 
selling to the public a product that in some cases they misrepresent; 
because they permit athletes who use drugs to steal opportunities and 
dreams from those who follow the rules; and most importantly, because 
their failure to stop the use of drugs affects the health and welfare, 
including the ethical development, of American children.

    Thank you.

    Senator Stevens. I am sure my colleagues might have some 
questions for you.
    My basic problem that has been running through my mind, if 
we accept this very high standard, which I agree with, for 
those who participate in Olympic sports, what do we do with 
those who participate in our college and -- and other type of 
sports? Have you all addressed that issue?
    Ms. Coleman. I would be happy to, Senator.
    Senator Stevens. Yes.
    Ms. Coleman. I--I--I would not include only the Olympic 
committees in this effort. I think that they are particularly 
symbolic of purity in sport and--and--and the high status in 
which the society holds sport, but I believe that other sports 
and sports enterprises also affect children especially, both 
health and ethical development of children.
    While I think that it is important that we work with the 
IOC and the USOC toward the end that I think we all at least 
state that we are seeking, it is also important that we seek to 
include the NCAA and the professional leagues in our effort.
    Dr. Wadler. I--I would agree with that. I--I certainly 
think it was in the professional arena of Mark McGwire that 
really has escalated the awareness of the pervasiveness of the 
use of drugs in sport.
    Whether a drug is legal or illegal, it becomes a matter of 
some definition. I think Andro has been a major deflection.
    I know the United States has been accused of not getting 
its own house in order over the issue of Andro. I do think the 
Congress has a role to play to reclassify that. And the reasons 
should be clearly articulated.
    But clearly, this is not just a matter of the Olympics. To 
view it only as a matter of the Olympics is really to miss--
miss the ball completely. They are the pinnacle, but clearly 
there is much below the surface at every level of--of sports 
participation and fitness.
    Senator Stevens. Is there an agreement on what the--what 
are the substances that comprise the generic term ``drugs'' 
here?
    Dr. Wadler. That is a subject of--it is sort of a moving 
target, and I think earlier somebody commented that the future 
only indicates that these substances are going to get more 
complicated and the laboratory and the forensic laboratory 
analysis of these drugs are going to get more and more 
complicated. However, that cannot keep us from our mark.
    There--there really has been great differences in 
organizations as to what constitutes so-called doping lists, 
what should be on that list.
    If you pick up today's paper, you will read about the NBA, 
which only 6 months ago only had heroin and cocaine on its 
list. It has now expanded it to marijuana, anabolic steroids, 
and some other drugs.
    But I think clearly it is not as simple as enumerating a 
drug on a list and, unfortunately, that has--in many ways, the 
IOC has found itself in the position of articulating doping and 
defining doping as really a drug listing--drug listed on a 
banned list, which in fact, is an arbitrary definition of--of 
doping, so----
    Senator Stevens. We cannot legislate for the world. How are 
we going to get an agreement of what--what--what is a substance 
that should be tested for before an Olympics that would be held 
in this country that--in which the world participates?
    Dr. Wadler. I--I--I do not think there is any question that 
most people in this field would probably come down with four or 
five drugs that would cover 99 percent of the issues of doping 
in sports.
    Senator Stevens. Do you agree with that, Mr. Hybl?
    Mr. Hybl. I think that is very close. Senator, you raise a 
very good point. It is not only the drugs that are used but 
also the harmonization among the 45 or so international 
federations throughout the world, who really set the standard 
in each of the sports, the National Olympic Committees, and the 
IOC that is vitally important.
    It is my understanding that the IOC, is in fact, moving in 
that direction.
    Senator Stevens. Mr. Pound, does WADA have a list?
    Mr. Pound. We are--starting, Senator, with the--list that 
was part of the IOC medical code. That--is ground zero. I--
think it is a list that can be continually improved.
    I think--once we get the mechanics of--making sure we--
involve everybody in the development of that list, I do not 
think, as--the other panelists think, I do not think we are 
going to have a problem getting there.
    Senator Stevens. Well, am I wrong? I thought we were really 
just talking about substances, not--not--not--not the kind of 
drugs that we are talking about that requires prescriptions in 
this country. Are not some of these non-prescription items?
    Dr. Wadler. Well, certainly androstenedione, the one that 
everybody is talking about in this country as a result of the 
Act of Congress in 1994 is an over-the-counter substance, which 
you can buy like you buy apples and pears and bananas. It does 
not belong there.
    Controlled--the Controlled Substances Act in 1990 made 
steroids a controlled substance in this United States.
    There is a middle ground. That middle ground is to make it 
a prescriptive drug, which does two things. Besides having 
individuals see a physician, they guarantee safety, purity and 
ethicacy.
    What we have now is youngsters buying Andro and having 
their body converted into a controlled substance. You know, as 
I--I often say that the human body is a lot smarter than the 
body politic.
    So we have arbitrarily said Andro is sort of safe. You do 
not need your parents' consent. You can buy it on the Internet. 
You can buy it in a food store.
    The thing it becomes in the body is a controlled substance 
with the most severe penalties under the Controlled Substances 
Act, and there is a middle ground.
    I think if the Congress would step forward on that point 
and send the message to lots of young people about what they 
are consuming--they are assuming it is safe. I have heard it 
said by countless kids that, ``Well, if the government said it 
is OK, then it must be OK. If I can get Andro without a 
prescription, without seeing a doctor, without anything else, 
then it must be OK.'' And it is not OK.
    Why is it not OK? Because Andro becomes a substance in the 
body, which ultimately converts, for example, in women to 
estrogen. We all know the concern women have about estrogen and 
breast cancer. We have now enabled them to get this over-the-
counter.
    It is a metaphor for how we deal, as a country, with these 
kinds of substances; and the sport part of it is--is really the 
focal point of attention. I think we ought to seize the moment.
    I--I must tell you, with all the negativism, I am 
encouraged by, as I said at the outset of my remarks, that 
everybody seems to be on the same page now, that something must 
be done.
    I think we should not lose that moment to--and--and we 
should, as Frank Shorter said, ``Carpe diem.'' We should seize 
that moment right now.
    We may disagree exactly what it is--what needs--how it is 
to be done, but I think we now all agree it needs to be done, 
and I--I think we cannot let this moment pass.
    Senator Stevens. I hope you are right and we are all on the 
same page. It would be my hope maybe we will have a sort of a 
consensus meeting before we introduce this bill next year prior 
to--prior to Senate coming into session.
    I think we will just have--have one of our open session 
kind of meetings like we had before the USOC bill passed and--
and--and have a little general discussion rather than a 
hearing, if--if--if that meets with the approval of everybody 
concerned.
    All right. We do thank you all for responding. It is a very 
timely subject with the--with our friends in Australia with 
their--their coming games, and we are right behind them with 
Salt Lake City.
    It is--it is obvious that we--we should take the steps that 
are necessary. And I particularly would--would urge you to send 
us your suggestions on what you think should be in legislation 
that we consider next year, as we will have to move rather 
quickly as I understand it in--in the spring in order to get 
that out of the way of--of the election.
    We do not want it to become a partisan issue at all, so I 
would urge you to--to get--get us your suggestions as quickly 
as possible.
    We--again, we thank you all for coming. It is nice to see 
you again, Mr. Pound. We thank you all very much for your 
participation.
    Do you want to keep the record open for some time? All 
right. We would like to keep the record open for 2 weeks for 
anything you might want to add to this record. That is not--I 
am not thinking about putting in this record the suggestions 
that you all may give us concerning the bill we may introduce 
next year.
    Senator Stevens. Thank you very much.
    Dr. Wadler. Thank you, Senator.
    Mr. Pound. Thank you, Mr. Chairman.
    [Thereupon, at 12:16 p.m., the hearing was adjourned.]
                            A P P E N D I X

    Response to Written Questions Submitted by Hon. John McCain to 
                             Frank Shorter
    Question (1). What sanctions do you believe should be imposed on 
olympic athletes who are found to be taking performance enhancing 
drugs?
    Answer: Athletes found to be taking performance enhancing drugs 
should be banned from any sanctioned competition, world wide, for at 
least 4 years.

    Question (2). How pervasive do you believe is the use of steroids 
by olympic athletes?
    Answer: There are other, just as effective drugs that can be used 
that could be detected but the IOC has, until now, shown a reluctance 
to. The use of steroids by Olympic athletes, male and female, has been 
unnecessary since 1983. Human growth hormone produces the same 
performance enhancement and is detectable only through blood testing. I 
believe, today, every performance in strength or endurance event has to 
be suspect for the use of human growth hormone or erythropoetin (in use 
since 1988), because the JOC has not developed blood testing for these 
drugs. Only athlete who can not afford these drugs would be using 
steroids.

    Question (3). In your view, how effective are our testing 
technologies?
    Answer: The testing technologies are on the verge of staying ahead 
of performance enhancing drug use. I think that, in the past, sports 
federations have had a disincentive to stay ahead of the cheaters. A 
truly independent agency is absolutely essential, and, the involvement 
of governments around the world is essential because of the empirical 
expertise and enforcement expertise available to the independent 
agency.

    Question (4). Do you believe it is relatively easy for an olympic 
athlete abusing steroids to evade detection?
    Answer: See 2 above. All an athlete has to do to avoid detection is 
to take erythropoeitin and/or human growth hormone. The IOC has had 
over a decade to develop a blood test and has yet to, all the while 
holding out to the world that their increased urine testing, represents 
all that can and is being done.

    Question (5). What effect do you believe these performance 
enhancing drugs have on the sport for those athletes who chose to stay 
clean and not use drugs?
    Answer: I hate to say this, but, as an athlete who has competed 
against others suspected and even known to be taking performance 
enhancing drugs, I honestly believe that it is impossible to be an 
elite endurance or strength athlete today and not be taking performance 
enhancing drugs. The logic is simple: everyone knows what drugs work 
and are currently not tested for. As an athlete, to assume that most of 
your competition will not be on these drugs is beyond silly. Even if an 
athlete does not want to take the drugs, the psychological realization 
that no matter how hard you train, your opposition will have an illegal 
edge is an incredible, if not impossible obstacle to overcome. Again, 
there is no choice.

    Question (6). You are well respected athletes and have won the 
admiration of millions of Americans, including children. What effects 
do you believe the continued use of illegal drugs in sports will have 
on young athletes?
    Answer: Today, the 14 year old kids emulating their heroes know 
what the drugs are, know they will not get caught and most tragically, 
know they have no choice.

Answers to 2 questions dated 11/1/99:

    Question (1). Several of the witnesses testified about the need to 
educate young people about thie perils of performance enhancing drugs. 
Do you think an educational program would be beneficial? If yes, at 
what level should athletes be targeted and when should it begin?
    Answer: I believe it is vital to educate young children about the 
perils of performance enhancing drugs. Youngsters always emulate their 
sports heroes and, more critically, know very well what drugs are being 
used to enhance performance. In this regard, at this moment in time, 
they most certainly have much more knowledge of elite level drug taking 
than their parents. I believe the education should start at as young an 
age as possible. As for targeting for actual testing, I think this 
should be delayed until college age and believe it is possible if, and 
only if a true, transparent, independent, worldwide system that 
actually tries to catch illegal users is put into place. I believe the 
deterrent for younger children should be the example of heroes 
actually, finally perceiving that they will most likely be caught by a 
system that is actually committed to catch them.

    Question (2). During the hearing some members expressed concern 
about ensuring the proposed IOC and USOC drug testing proposals protect 
the rights of athletes. Do you feel the current proposals will provide 
athletes with sufficient protections to ensure the testing process is 
both accurate and fair?
    Answer: Participation in athletics, all the way up through the 
Olympic Games, is a privilege, I repeat, a privilege, not a right. I 
view being tested as the means to gain the privilege of participation. 
I therefore believe no athlete has the right to refuse to take a test 
that has been determined to be safe and shown to detect illegal 
performance enhancing drug use. I believe that up until now, there has 
been a disincentive for federations to catch stars. Therefore the tests 
are nowhere near as accurate or challenge proof as they could be. This 
problem can be solved by making all testing independent of the conflict 
of interest both endemic to and inherent in sports federation control.

For example:

    Currently, the performance enhancing drugs of choice are human 
growth hormone (used by athletes since approximately 1982) and 
erythropoeitin (used by athletes since approximately l988). They are 
only detectable through blood testing. The IOC has yet to develop blood 
testing for these drugs. Their response in the 1980's was to expand and 
tell the world about their increased urine testing. This leads me to 
believe the IOC has historically viewed the drug epidemic as primarily 
a public relations problem. After the IOC drug summit in Lausanne, 
Switzerland last February (99) the IOC unbelievably withheld funding 
from their own research aimed at perfecting a blood test for these 
drugs. The IOC then held a press conference announcing that they did 
not believe blood tests would be perfected by the Sydney Olympics in 
2000.
                                 ______
                                 
         Response to Written Questions by Hon. John McCain to 
                       General Barry R. McCaffrey
Question 1. What statistics does ONDCP have on the number of kids using 
performance enhancing drugs?
Question 2. Is steroid use by young people on the rise? If so, to what 
do you attribute the increase to?

Answer: The 1999 Monitoring the Future Study found that steroid use 
among 8th and 10th graders has increased dramatically over the past 
year.

<bullet>  Among 8th graders, past month steroid use increased 40 
percent (from .5 percent to .7 percent), and past year steroid use 
increased 42 percent (from 1.2 percent to 1.7 percent.
<bullet>  Among 10th graders, past month steroid use increased 50 
percent (from .6 percent to .9 percent) and past year steroid use 
increased 42 percent (from 1.2 percent to 1.7 percent).
<bullet>  Among 8th and 10th grade boys, on average, steroid use has 
increased 50 percent.

While the base percentages remain low, these rates of increase are 
grounds for serious concern.
    Other studies suggest similar reasons for concern:

<bullet>  In 1998, a survey of Massachusetts' youth reported by the 
Pediatrics journal found that 2.6 percent of boys ages 9 to 13 have 
used steroids; the rate for girls ages 9 to 13 was 2.8 percent. Use 
among boys was 2.6 percent. This is the first time that the use of 
steroids among girls surpassed use among boys. For both boys and girls, 
these levels are on par with use of other drugs of abuse (for example, 
the 1997 National Household Survey found that lifetime cocaine use by 
children ages 12-17 was 3 percent).
<bullet>  Similarly, the Centers for Disease Control's Youth Risk 
Behavior Surveillance System found that 550,000 high school age 
children have tried steroids in 1995 alone--not to mention the full 
panoply of other performance enhancing drugs
<bullet>  The Healthy Competition Foundation's 1999 survey found that 
1-in-4 American teens and pre-teens personally know someone who uses 
performance enhancing drugs. Knowledge grows substantially with age -- 
9 percent of 12 year olds personally know someone doping, compared with 
32 percent of those ages 15-16 and 48 percent of those ages 17 and 
older.
In great measure, increases in youth doping are driven by the belief 
among young people striving to succeed in sports that it is necessary 
to dope not just to gain an advantage, but merely to be competitive.\1\ 
Similarly, this perception that doping is a sine qua non for athletic 
success is, in large measure, derived from perceptions that large 
numbers of elite athletes are using performance enhancing drugs.
---------------------------------------------------------------------------
    \1\ 1999 Healthy Competition Survey, Blue Cross/Blue Shield; S.M. 
Tanner, et al., Anabolic Steroid Use by Adolescents: Prevalence, 
Motives, and Knowledge of Risks, 15 Clin. J. Sports Med. 108-115 
(1995). Among youth athletes who report taking anabolic steroids, the 
majority indicates this use was done to improve their performance and 
ability to compete successfully. Id. at 110. Among youth who were not 
athletes who reported steroid use 45 percent indicated it was to 
improve appearance, 18 percent said it was to enhance performance, 12 
percent reported it was due to peer pressure, the remainder reported no 
reason. Id.
---------------------------------------------------------------------------
While it is difficult to isolate the exact causes of this shift in 
attitudes and behaviors it is clear that this perception has been, in 
some significant measure, fueled by a series of high profile doping 
incidents involving elite athletes:

<bullet>  Over the last two months, three National Football League 
players have tested positive for performance enhancing drugs and have 
been penalized under the League's drug program.
<bullet>  A 1998 investigation by the French police found that large 
numbers of the Tour de France cycling teams were doping -- eight teams 
were forced to drop out of the race.\2\
---------------------------------------------------------------------------
    \2\ See E.M. Swift, Drug Pedaling, Sports Illustrated, June 5, 
1999, at 65.
---------------------------------------------------------------------------
<bullet>  Over the past decade, over twenty-nine Chinese swimmers 
tested positive for performance enhancing drugs.\3\ In the nineteen-
month period ending June 1999, 10 Chinese swimmers and coaches have 
been banned from competing or coaching as a result of drug use.\4\
---------------------------------------------------------------------------
    \3\ See Richard Panek, Tarnished Gold, Women's Sports and Fitness, 
May 1, 1999, 124; Associated Press, Swimmers Fail Drug Tests, Jun. 8, 
1999.
    \4\ See, Associated Press, Swimmers Fail Drug Tests, Jun. 8, 1999.
---------------------------------------------------------------------------
<bullet>  The German courts have held that many of the athletic 
successes of the former East Germany were won through a government-run 
doping system, which drugged tens of thousands of young children, some 
younger than 14 years old, many without any form of consent.\5\ (From 
its inception in 1979 through the early 1990s, the program involved 
over 2,000 athletes per year.)
---------------------------------------------------------------------------
    \5\ See, e.g., John Powers, Blood Sport; F. Germans Admit Doping, 
So US Wants Medals, Boston Globe, Dec. 11, 1998, Cl.

The use of performance enhancing drugs is also driven by the desire of 
young people to improve their appearances through drug use as a 
replacement for healthy physical activity. In addition to those taking 
these drugs for sports, increasing numbers of young people are turning 
to performance enhancing drugs to improve their appearance.\6\ The 
emergence of a ``drug buffed chic'' dramatically expands the circle of 
individuals, in particular youth, who are at risk of performance 
enhancing drug use.
---------------------------------------------------------------------------
    \6\ See Tanner, supra n. 1. However, rates of use are significantly 
higher among athletes than non-athletes. See 1999 Healthy Competition 
Foundation Survey, supra n. 1.

Question 3. Your successful National Youth Anti-Drug Media Campaign 
sends a powerful message to children that it's both dumb and dangerous 
to use drugs. How influential do you think is the message sent by 
athletes who take steroids?
Answer: The evidence clearly suggests that young people look up to 
athletes and emulate their behaviors. For example:

<bullet>  A 1994 Children's Defense Fund national survey found that 
when African-American youth were asked to name two or three individuals 
they most admire, Michael Jordan tied with God.
<bullet>  A 1998 survey by the US Olympic Committee found that athletes 
and coaches were the most effective individuals (surpassing parents, 
teachers, peers and TV personalities) at delivering citizenship-related 
messages.

It should be emphasized that the impact of athletes as role models 
works for both better--in the case of the vast majority of clean and 
ethical athletes--and for worse--in the case of those athletes who use 
drugs.

<bullet>  Makers of Androstenedione (Andro) self-report that Andro 
sales are tip roughly five-fold since the revelation that baseball home 
run king Mark McGwire was using this substance.\7\ To his credit, Mr. 
McGwire has since declared that he no longer uses the substance because 
he does not want to influence youth toward using Andro. (Andro is 
currently classified as a food supplement. However, the human body 
naturally metabolizes Andro into testosterone, a regulated steroid.)
---------------------------------------------------------------------------
    \7\ See Steve Wilstein, Baseball Unlikely to Rule on Andro, 
Associated Press, Feb. 27, 1999 (citing tenfold increase). The 
industry's own study noted a three-fold increase between the time of 
the McGwire revelation (August 1998) and December 1998 alone. See Steve 
Wilstein, McGwire Powers Andro Sales to 100,000 users, Doctors Fear 
Hazards, Associated Press, Dec. 8, 1998.
---------------------------------------------------------------------------
<bullet>  During focus groups with youth for ONDCP's National Youth 
Anti-Drug Media Campaign, a number of participants emphasized that if 
pro athletes could use drugs and succeed, they doubted that drugs could 
hurt them -- often times these comments actually named individual 
athletes that had been implicated in drug use.
While incidences of drug use in sport send young people the wrong 
message about drugs, it should be underscored that sports can play an 
important role in preventing drug use. Youth involved in sports tend to 
use less drugs than their peers who do not. Additionally, a significant 
number of sports figures and organizations have undertaken counter-drug 
programs. For example:

<bullet>  Coach Dennis Green of the Minnesota Vikings and Coach Pete 
Carroll of the New England Patriots, along with other players and 
coaches from across the sports spectrum, teamed up with ONDCP for the 
1998 National Coachathon Against Drugs. (Coach Green and Coach Carroll 
served as honorary spokesmen for the Coachathon.)
<bullet>  The Jacksonville Jaguars run a youth outreach program that 
focuses on drug prevention.
<bullet>  The NY Mets run a youth-to-youth counter-drug mentoring 
program that mobilizes student-athlete leaders--who are, themselves, 
role models for younger children and their peers.
<bullet>  The San Antonio Spurs run an annual youth anti-drug 
basketball tournament.

Given the ability of athletes to reach children, ONDCP has partnered 
with a number of athletes who became spokespeople for our Media 
Campaign. In these instances -- and with all spokespeople highlighted 
in the campaign -- we have exercised great care in screening potential 
campaign participants to ensure that the message sent to our youth will 
be unequivocal: ``If you use you lose. Be a winner.''

Question 4. The goals and strategy you have laid out in your testimony 
are ambitious and call for the United States to take the lead in ending 
this problem. What do you think would be the result if the United 
States did not take the lead and simply let the IOC continue their 
reforms without pressure from our country and other concerned nations?
Answer: It is our view that absent the leadership of the United States 
and other concerned nations that the reforms needed to end the use of 
drugs in sport will not be forthcoming. Experience to date shows that 
the involvement of the United States and other concerned nations has 
already played a critical role in moving such reforms ahead.
For example, in December, 1999 the United States participated along 
with 25 other nations in an Australian-led Summit on the Use of Drugs 
in Sport. The Summit produced a communique that endorsed the views that 
already had been advanced by the United States to the IOC concerning 
improvements needed to the JOC's newly created World Anti-Doping Agency 
(attached). Subsequently, ONDCP met with representatives of the IOC, 
including President Juan Antonio Samaranch and Vice President Richard 
Pound, to seek agreement on the improvements set out in the communique. 
During these meetings with the IOC we were able to secure the JOC's 
endorsement of 17 specific agreements implementing the Sydney 
Communique's terms. It is our view that the efforts of the United 
States and these other nations working together were responsible for 
this progress. Therefore, we view U.S. leadership as critical to the 
fight against doping in sport.

Question 5. That role do you think the Congress should play in helping 
you achieve these goals? Should there be a strengthening of the laws 
and guidelines when it comes to trafficking of these drugs, especially 
to children?
Answer: It is our view that Congress has an important role to play in 
the fight against drug use and doping in sport. We believe the 
importance of Congressional support for such efforts has already been 
demonstrated by the Congress in the 2000 budget. The 2000 budget 
includes $3 million in new money to support the efforts of the USOC to 
strengthen and externalize their anti-doping program, and to form a new 
independent anti-doping agency. We view this support as a critical step 
forward in the fight against drug use in sport.
In early 2000, we will stand up the White House Task Force on Drug Use 
in Sport called for in our newly released national strategy on 
combating the use of drugs in sport. We look forward to keeping the 
Congress informed of the task force's efforts to achieve the goals and 
objectives articulated in this strategy.
We expect this task force to identify a number of areas where specific 
Congressional action may be necessary and/or appropriate. For example, 
it is ONDCP's view that Congressional action will be required for the 
independent drug-testing agency now being developed by the USOC to have 
the quasi-governmental authorities needed to be fully effective.
Other areas we expect the task force to review will include: current 
sentencing guidelines for steroids, the appropriateness of treating 
certain performance enhancing substances as unregulated food 
supplements, and the growing criminal involvement in steroid 
trafficking. Each of these areas, as well as others, may result in 
recommendations for Congressional action.
ONDCP appreciates the support Congress has already provided to our 
efforts. We look forward to continued support and collaborating with 
this Committee and the Congress as this effort moves forward.
                                 ______
                                 
 Response to Written Questions by Hon. John McCain to Gary I. Wadler, 
                                  M.D.

Question 1. When we compare drug testing technology to the performance-
enhancing drugs themselves, which are even designed to mask their 
identity, how far behind the curve are we? 
Answer. From a drug testing technology perspective, there are a number 
of endogenous (naturally occurring) substances which remain 
particularly problematic in the ongoing battle between those determined 
to use performance-enhancing drugs and the forensic detectives of the 
laboratory. Most notable amongst these are injectable testosterone, 
human growth hormone and the related substance, IGF-1, and 
erythropoietin (EPO).
With respect to these hormones, three elements are necessary before 
testing can be employed to detect their abuse. The first is the 
development of a methodology. The second is the validation of the 
methodology. This validation needs to incorporate such variables as 
gender, race, age and physical activity. The third element requires 
that the methodology be able to withstand legal scrutiny.
Currently, both Australian and British scientists have independently 
claimed that they have developed blood tests that will enable the 
detection of hGH abuse. However, these investigators claim that an 
additional $5 million are needed to validate the methodology.
Similarly, Australian sports medicine physicians have developed a 
methodology using blood to detect the abuse of EPO. As with hGH, funds 
are needed to validate the methodology.
The method traditionally used to detect the abuse of injectable 
testosterone esters is the so-called T/E ratio, where T stands for 
Testosterone and E stands for Epitestosterone. The body normally 
produces both of these hormones in a ratio of less than 6:1, although 
there are biologic outliers approximating one in 2,000 individuals. 
This test is used as an indirect measure of testosterone abuse. It has 
been challenged on a number of grounds including the fact that it has 
never been validated in women by a body of peer-reviewed science.
Currently, scientists are working on a so-called carbon isotope test, a 
method which would distinguish between natural testosterone from 
synthetic testosterone. This, too, is at the stage of requiring 
scientific validation.
What about the future? Synthetic hormones like hGH and EPO were the 
products of tremendous pharmaceutical advances. New drugs continued to 
be developed. Inevitably and unfortunately, they also will be abused by 
those determined to win at any cost and the scientific community will 
once again be challenged to detect such abuse. With genetic engineering 
now a reality, it is inevitable that the challenges to detect such 
abuse will be even greater than they are today.

Question 2. Can we accurately test for performance-enhancing drugs 
other than caffeine and amphetamines? 
Answer. There is an array of performance-enhancing drugs that can be 
detected using current technology. For example, there are numerous 
synthetic anabolic steroids that are readily detectable in urine and 
have been for many years. Beta-blockers and masking agents such as 
diuretics and probenecid can be tested for, as can the over the counter 
stimulants and caffeine. With respect to over-the-counter stimulants, 
when the Controlled Substances Act of 1970 markedly limited the 
availability of the amphetamines, substances widely abused by athletes 
during the 1960s, athletes attempted to achieve an amphetamine-like 
stimulant effect by combining caffeine, ephedrine (or pseudoephedrine) 
and the popular diet pill, phenylpropanolamine. While federal law 
limited the combining of these substances into a single formulation, 
their ubiquity certainly continues to enable the mixing of these 
substances. The wide availability of the OTC stimulants and the large 
number of positive drug tests associated with their therapeutic use 
caused the NCAA to cease testing for these substances.

Question 3. Would you say it is the trainers or the athletes who are 
perpetuating this problem of performance-enhancing drug use?
Answer. There have been many self-reporting surveys that have tried to 
address the very important question: ``What is the source of 
performance-enhancing drugs?'' However, the question is more 
complicated than it would appear to be on first blush. For example, 
many of the drugs used by young people today are not used to enhance 
athletic performance but rather are used to enhance physical 
appearance.
Multiple sources of performance-enhancing drugs have been identified. 
Historically, sources have included friends, teammates, trainers, 
coaches and physicians. However, in recent years, the sources have 
increasingly become illicit. In the United States, most anabolic 
steroids in the illicit market are smuggled from other countries with 
little diversion of domestically produced anabolic steroids. 
Testosterone, primarily of foreign origin, is the anabolic steroid most 
frequently identified in the illicit market.
Federal legislation has also impacted on how individuals use drugs for 
enhancement purposes. For example, in 1988, federal law made it a 
crime, punishable by long prison terms, to dispense anabolic steroids 
outside a bona fide doctor patient relationship and for purposes other 
than for the legitimate treatment of a disease. Subsequently, the 
Controlled Substances Act of 1990 categorized anabolic steroids as 
Schedule III controlled substances.
However, the notoriety associated with Mark McGwire's use of 
androstenedione raised new issues. Androstenedione, a naturally 
occurring steroid hormone, is converted by the human body into the male 
hormone, testosterone. This simply biologic fact underscored the 
question: What is a drug?
Stated differently, the federal Dietary Supplement Health and Education 
Act (DSHEA) of 1994 resulted in the classification of androstenedione 
and related substances as dietary supplements, not as drugs. However, 
as previously noted, the Controlled Substances Act of 1990 had 
previously classified testosterone as a controlled substance. The net 
result, DSHEA enabled the circumventing of the Controlled Substances 
Act with respect to testosterone, a fact not lost on the manufacturers 
of androstenedione. Ingest a supplement, manufacture a controlled 
substance!
The net result is that fact that androstenedione and related 
substances, such as 19-nor androstenedione have been promoted 
extensively on the web and elsewhere suggesting that one can get around 
the Controlled Substance Act with respect to testosterone by ingesting 
androstenedione. The result has been at least a quintupling of sales of 
androstenedione. It certainly might be argued this is an example of the 
law of unintended consequences and that unwittingly, federal law has 
facilitated the use of performance enhancing ``drugs.''
The reclassification of androstenedione and related substances at least 
as prescriptive drugs, if not as controlled substances, would send a 
clear message that these substances should not be taken without the 
advice, consent and prescription of a physician and further, such a 
reclassification would shift the burdens of proof of safety, efficacy 
and purity to the manufacturer. Data is readily available indicating 
that products sold as androstenedione has been shown to contain 
controlled anabolic steroids.
The November 16, 1999 Federal Trade Commission settlement with two 
marketers of androstenedione and related substances requiring them to 
place safety warnings on androgen supplement labeling and advertising 
is a step in the right direction.
                                 ______
                                 
  Response to Written Questions by Hon. John McCain to Nancy Hogshead

Question 1. Several of the witnesses testified about the need to 
educate young people about the perils of performance enhancing drugs. 
Do you think an educational program would be beneficial? If yes, at 
what level should athletes be targeted and when should it begin?
Answer: An educational program would be very beneficial. While testing 
(doping control) is absolutely essential, it alone cannot solve the 
problem. What's needed is a comprehensive approach that involves 
research, education, prevention, detection, deterrence and 
international collaboration. Any one of these elements alone will not 
succeed.
Canadian research (National School Survey 1993) suggests that, on 
average, kids are making decisions about drug-use in sports at around 
14, and as early as 11. (There is similar research in the USA.) The 
good news is that the research also shows that kids can be highly 
influenced toward drug-free sport based on the promotion of positive 
attitudes and beliefs concerning drug-free sport.

Question 2. During the hearing, some members expressed concern about 
ensuring the proposed IOC and USOC drug testing proposals protect the 
rights of athletes. Do you feel the current proposals will provide 
athletes with sufficient protections to ensure the testing process is 
both accurate and fair?
Answer: In order to ensure the rights of the athletes, there must be an 
independent agency that is publicly accountable. This means being open 
to athletes' and public scrutiny. The current IOC/USOC proposals are 
unclear in this regard.
The best way to protect athletes' rights is to develop programs based 
on athlete consent.
The IOC proposals do not approach the issue that way; the WADA seems 
primarily designed to provide services to international sport 
federations, which have their own interests (and conflicts of 
interest), and they do not approach athletes' rights in the same way. 
For example, many do not allow their athletes access to the 
International Court of Arbitration--the federation has to agree first. 
Rights of appeal and reinstatement are inconsistent. The criteria for 
appeals and reinstatements are also inconsistent, vague and not readily 
available to athletes. Processes (e.g.. hearings) for appeals and so on 
are often not independent of the original decision-makers.
As an asthmatic, I am very sensitive to this issue. There are certain 
medications that allow me to participate on the same playing field as 
my competitors, and other medications that I could take that may give 
me an unfair advantage by having a speed-like side effect. Some rules 
seem painfully harsh at first blush--Senator Stevens talked about 
receiving medication while he was unconscious that would have 
disqualified him from Olympic competition. (Of course, this might not 
be Alaska's loss.) While harsh, they may only be considered patently 
unfair when the rule is imposed from above, rather than by consent. 
Remember: Athletes suffer the effects of doping, of cheating. And it is 
athletes who are asking for tougher doping control.
There is also the question of athletes' privacy. For example, once you 
get past the scientific and ethical requirements to carry out blood 
testing, who are athletes going to trust to take and analyze blood 
samples? How will athletes be protected against these samples being 
used for purposes other than doping control?
There are generally two existing models in doping control: the European 
and North American. The European model is a very administrative, 
regulated approach, and does not necessarily protect the rights of the 
athletes in a way that we would find acceptable in North America. The 
European approach tends to work under the assumption that all athletes 
are cheating and that its the job of sport administrators to catch 
them. Doping control programs tend to run in a somewhat clandestine 
``spy versus spy'' manner in order to ``catch the cheats.'' New 
research and detection methods are kept relatively secret and are not 
published in peer-reviewed scientific journals. While this is slowly 
changing (very slowly), it is still the prevailing philosophy among 
international sport federations.
The North American model works on the assumption that all athletes are 
drug free unless there is a clear and convincing evidence to the 
contrary. Doping control programs are designed to help athletes remain 
drug-free, monitor for doping, provide general deterrence based on an 
``anyone, anytime, anywhere'' approach, and protect athletes' rights to 
natural justice/due process. The North American model tends to rely on 
outside expertise, debating the issued publicly and trying to develop a 
collective agreement within the sport community on how best to deal 
with doping.
In terms of accuracy of tests, the doping control detection science is 
quite rigorous and sound. The problem lies in the accreditation of 
laboratories (currently handled by the JOC, involving directors of 
laboratories who obviously have conflicts of interest). A group of 
countries have successfully developed International Standards for 
Doping Control recognized by the International Standards Organization 
which has issued a ``Publicly Accessible Specification'' status to 
these standards. Among other things, these standards are specifically 
designed to protect athletes' rights, including measures to ensure that 
procedures and processes are accurate, fair, well recorded and open to 
scrutiny. While the IOC initially suggested the WADA would adopt these 
standards, that is no longer the case.
Please do not hesitate to contact me if I need to clarify any of these 
answers. Thank you for your patience!
                                 ______
                                 
 Response to Written Questions by Hon. John McCain to Richard W. Pound

    Question 1. I have seen a recent survey that suggests 71% of 
Americans are less likely to watch the Olympics if the athletes are 
using performance-enhancing drugs. What effect would such a reduction 
in American viewers have on the IOC monetarily?
    Answer. I am not familiar with the survey to which you refer.
    I can say, however, that the research conducted on behalf of the 
IOC shows that the public in the United States and the other ten 
countries included in our surveys overwhelmingly supports the ethical 
approach to sport that the IOC exemplifies. People respect the efforts 
of the Olympic Movement to differentiate itself from professional and 
other unregulated sport that do not reflect the same commitment and 
effort.
    I believe that American viewers are, in essence, no different from 
others around the world that want Olympic sport to be drug-free and 
that they both recognize and support efforts to make this dream a 
reality. I believe they will support the cooperative efforts of 
governmental and sport authorities to further this goal, through 
education and prevention.
    The monetary effect on the IOC, were the scenario to which you 
refer actually to occur, is difficult to gauge. In the first place, the 
survey appears to reflect only a reduced likelihood to watch the Games, 
not a decision to refuse to watch. I presume that the survey was 
conducted during the recent period of adverse publicity regarding 
doping in sport. I would hope that, once the new arrangements we 
contemplate for the fight against doping in sport are in place and 
operating, there would be a much higher level of public confidence that 
the Olympic ideals are being observed.
    Many of the existing contracts apply to the Games as far away as 
2008, so they are already in place. I cannot predict whether 
contracting parties might seek to abrogate such contracts, nor on what 
legal basis they might seek to do so. The IOC itself receives only a 
small portion of the revenues derived from such contracts, since it 
acts, essentially as a granting agency to Organizing Committees, 
national Olympic committees (including the United States Olympic 
Committee) and international sports federations.

    Question 2. The IOC has been criticized for its policy of self-
governance and lack of external oversight. Is the IOC willing to risk 
losing American sponsors in order to continue on the current path?
    Answer: It is certainly true that the IOC has been criticized for 
its policy of self-governance and lack of external oversight. Some of 
this criticism has been helpful and constructive; some has been based 
on a lack of understanding of the role of the IOC and the need for its 
independence and has not been helpful.
    The IOC has acted quickly to institute significant reform, 
especially in matters of governance, and many of these reforms are 
already in place, including an externally-dominated Ethics Commission 
and a Code of Ethics applicable, inter alia, to IOC members. Others 
will be adopted by the special Session of the IOC that will take place 
on December 11 and 12, 1999. These reforms have been widely publicized, 
but, should you not have the contents of them available, I would be 
pleased to provide copies of the documentation for your review and 
consideration.
    The IOC does not wish to lose any sponsors, American or otherwise, 
as a result of improper conduct and is determined to make the changes 
necessary to demonstrate that it is the appropriate body to direct the 
Olympic Movement for the future. I believe that the reforms we have 
instituted and that we expect to adopt will demonstrate this commitment 
to sponsors and the public-at-large.

    Question 3. I understand that in the case of drug violations 
reported during the Atlanta Games, the Organization did not seek to 
pursue the matter because the testing technology used, a high 
resolution mass spectrometer, was not convincing. Does the IOC lack 
confidence in this testing method because of its technical inaccuracy, 
or because the standards for the Court of Arbitration in Sport are more 
demanding?
    Answer. The operations of the laboratory used during the Atlanta 
Games were, as I understand it, deficient in certain respects. The IOC 
was advised, in writing, by the IOC accredited laboratory in Cologne, 
Germany that the procedures used in respect of certain samples were 
unreliable. Given possession of this information, it was the judgment 
of the IOC Executive Board that, as (in effect) prosecutors, it would 
have been morally reprehensible to proceed with efforts to disqualify 
athletes without disclosing to the athletes involved our possession of 
such advice. In addition, any disqualification that might have been 
pronounced in such circumstances would almost certainly have been 
overturned by the Court of Arbitration for Sport. This led to the IOC's 
decision, in those particular circumstances, not to proceed.
    The technology, generally, has proven to be quite reliable and, 
unless some technology, demonstrably more reliable is developed in the 
future, I believe that mass spectrometry of urine sample will continue 
to be used. This technology does not purport to apply to all substances 
and new tests are being conducted to allow detection of other 
substances at a level that provides the necessary standards for due 
process and the protection of athletes' rights.

    Question 4. How does this testing technology compare to other 
methods used in the past?
    Answer. It is the same basic technology, with some refinements to 
provide for more accuracy in respect of certain substances.

    Question 5. The Savannah International Training Facility in Georgia 
provides Olympic-caliber athletes the opportunity to train and become 
the best athletes they can be. Currently there are athletes from across 
the globe training at this facility. What role does this Center play in 
the training of athletes to compete in future Olympic Games? What are 
the current contractual agreements with the Center so far as 
reimbursement for the training and housing of athletes from the IOC? 
What has been the cause for the recent disputes concerning [these] 
reimbursements?
    Answer. I am not personally familiar with the Savannah 
International Training Facility in Georgia nor with its particular 
mandate, funding model, objectives and expectations.
    I do know that the IOC, through its Olympic Solidarity Programme, 
provides scholarships to aspiring athletes in many countries throughout 
the world. These may contemplate training in countries other than their 
own and reimbursement of certain types of expenses within the limits 
contemplated by the terms of each scholarship.
    I have, for purposes of responding to your question, made inquiries 
of the IOC secretariat responsible for the implementation of the 
Olympic Solidarity program. In the case of those athletes receiving 
Olympic Solidarity scholarships and who may be attending at the 
Savannah Facility, the IOC agreed to pay a fixed amount per month in 
respect of services rendered at the Savannah Facility for each such 
scholarship athlete. This is similar to the agreements that Olympic 
Solidarity has with other high level training centers. I am not aware 
of any failure of the IOC or Olympic Solidarity to comply fully with 
any such obligations.
    I understand that the Savannah Facility intends to close in 
November 1999 and have had sight of some correspondence in that regard. 
It appears there has been some misunderstanding on the part of the 
Savannah Facility as to the role of Olympic Solidarity and the extent 
of its involvement therein. The IOC is not and has not been a partner 
in any facility of this nature. The agreement with the Savannah 
Facility was unequivocal in providing that the Facility was not 
entitled to designate or refer to itself as an official ``Olympic'' 
training center or derivation thereof. Olympic Solidarity is prepared 
to fund certain scholarship athletes for a portion of their training 
and living costs and has done so on many occasions, but that is the 
extent of its financial commitments.
    If this subject, as it relates to the IOC, is a matter of further 
concern to your Committee, I would be pleased to pursue any additional 
line of inquiry that you may suggest.

    Question 6. Please tell me which of the World Anti-Doping Agency's 
functions will be completely independent from the IOC? For example:
    Answer. Please bear in mind that the Agency, although legally 
constituted at the time of this response, has not yet met, so my 
answers should be taken against that background.

        <bullet>  Will the new Agency collect specimens?

    Answer: I should think that, initially, the Agency will rely upon 
existing national agencies (e.g., in Norway, Australia, Canada, Sweden, 
France, Italy) to collect the specimens. Once the Agency is fully 
developed, it may well be that it will have its own capacity to collect 
specimens, but this will have to await the development and staffing of 
the Agency, which should occur by early in the year 2000.

        <bullet>  Will it conduct the testing?

    If, by this question, you mean that the Agency will do the analysis 
(as opposed to collection of specimens), I should think that the 
analysis of specimens will be conducted in accredited laboratories, the 
accreditation of which is presently granted by the IOC, but which will 
be granted in future by the Agency. If you mean who will determine 
which athletes are to be tested, that will be a matter to be worked out 
with the international federations, who will be in a position to 
identify the ``high risk'' athletes for purposes of out-of-competition 
testing. In-competition testing will be conducted according to the 
rules of each international federation or other governing authority of 
the competition (e.g., the IOC in the case of the Olympic Games or the 
IAAF in the case of the World Athletics Championships). In the case of 
most professional sports, as you know, the Olympic Movement has no 
jurisdiction over such organizations (e.g., the NFL, NHL, MLB or NBA).

        <bullet>  Will it prosecute the athletes that have been 
        charged?

    Answer: The ``prosecution'' of athletes will be done by the 
responsible organization, on the basis of the results of the tests. 
Thus, if a track and field athlete has tested positive, the 
international federation (IAAF) has the jurisdiction to impose the 
sanction. At the Olympic Games, the IOC will impose its sanction of 
disqualification and withdrawal of the medal, if any.

        <bullet>  Will it sanction athletes who are found guilty of 
        using performance-enhancing drugs?

    Answer: The sanction will be imposed by the responsible 
international federation or by the IOC at the Olympic Games. In cases 
of a positive test at the Olympic Games, there will be two sanctions: 
one by the IOC (disqualification and withdrawal of medal) and by the IF 
(suspension for two years, etc.). In general, this model would apply 
with other Games, such as, for example, the Pan American Games, except 
that it would be a combination of PASO, as the governing authority of 
the Pan American Games, and the relevant IF.

    Question 7. General McCaffrey called into question the level of 
international support for the IOC's proposal. Do you believe you have 
the support of international governments and if you do not, what is the 
IOC doing to develop support?
    Answer. I believe there is widespread support for the IOC's 
proposal of the WADA as an independent agency in the fight against 
doping in sport and the demonstrated fact that the Agency will not be 
under the control of any party involved.
    The remaining element of government participation is how best to 
integrate the national governments into the governance structure of the 
WADA. Clearly, it will not be possible to involve all 200 national 
governments on a daily basis. We will work diligently to find an 
appropriate formula, which may be, for example, on a continental basis 
or to involve the host countries of past, present and future Olympic 
host countries. I do not want to suggest that a definitive solution has 
yet been found, but we will work with governments to find the most 
appropriate mechanism for the purpose and will propose it to the WADA 
at the earliest opportunity. I understand that a working group has been 
established among national governments to seek ways to provide the 
essential input to the process and I have been in direct contact with 
General McCaffrey and the Canadian sports minister for precisely that 
purpose. I hope we can reach a mutually agreeable solution prior to the 
first meeting of the WADA. I believe there is an understanding that no 
single party has all of the answers or a cure-all solution, but there 
seems to be a common purpose and commitment to finding a solution that 
works for everyone.
    I should add that, for the first time, I believe all the parties 
necessary to finding a solution to the problem of doping in sport are 
ready and committed to doing whatever is required to bring about that 
solution. This could be a pivotal moment for sport and we must be ready 
to seize the opportunity that this confluence represents. The Olympic 
Movement pledges its full and complete support in this regard and I am 
sure that governments are of like mind.
    I hope these are responsive to your questions, but if there is 
anything that I may have omitted or misunderstood, please do not 
hesitate to contact me and I will do my best to complete the answers.
                                 ______
                                 
     Response to Written Question Submitted by Hon. John McCain to 
                              Scott Serota

    Question: In the Healthy Competition Foundation's Survey on 
Performance Enhancing Drugs, done in cooperation with Blue Cross/Blue 
Shield, there are some alarming statistics that surface: 1-in-4 kids in 
this country know of other children using performance enhancing drugs. 
Does your survey draw any correlation between the use of these drugs by 
children and what they have seen done by some international stars in 
the Olympics and other athletic competition?
    Answer. Speaking on behalf of the Blue Cross and Blue Shield 
Association (BCBSA) and the Healthy Competition Foundation, Mr. Serota 
pointed out that research commissioned by BCBSA revealed alarming 
statistics that one in four teenagers in this country know of other 
teens who use performance-enhancing drugs.
    While our research did not draw any direct correlation between the 
use of these drugs by teens and what they have seen done by 
international Olympic athletes or other highly visible athletic 
competitors, our research found that the respondents favorably perceive 
Olympic athletes. Respondents also noted that athletic celebrities like 
Michael Jordan, Ken Griffey, Jr. and Mark McGwire top the list of 
favorite athletes. These findings lead us to believe that Olympic 
athletes and celebrity athletes serve as role models for America's 
youth.
                                 ______
                                 
   Response to Written Questions by Hon. John McCain to William Hybl

Question 1. The USOC's proposed Independent Organization has been 
criticized for lack of independence. Some people are concerned that the 
selection process is not independent because the members of the USOC 
family select the members of the organization. Do you plan to change 
the selection process to address this criticism?
Answer: The criticism is not warranted. The six Public Sector Members 
of the Board of Directors of the United States Olympic Committee, who 
will be selecting five of the nine Board Members of the new drug 
externalized agency, serve as trustees of the ``public interest.'' 
These six independent directors will seek broad public input and will 
encourage outside entities and individuals to make nominations for the 
new agency's board. General Barry R. McCaffrey, Director of the Office 
of National Drug Control Policy, has been invited to make nominations. 
As to the role of the other four board members, the Task Force 
recommended that the selections by the NGB Council and the Athletes' 
Advisory Council not be limited to current members of those two 
Councils, but consideration should be given to all nominees of the 
highest caliber. Any criticism of this process should be reserved until 
after the Board of the new agency is selected. This will be the real 
test on the issue of independence.

Question 2. It is my understanding that the USOC's out-of-competition 
testing program has less than a 75% success rate in actually testing 
athletes. How will the new program ensure that out-of-competition 
testing will actually take place?
Answer: The No Advanced Notice (``NAN'') testing program is a year-
round program in which the testing collectors show up at the athlete's 
doorstep, training facility, etc. to conduct unannounced tests. The 75% 
figure refers to first attempts to test the athletes. When not 
contacted the first time, the athlete remains in the NAN pool and is 
subsequently tested regardless of the number of attempts required. USOC 
rules require all athletes to notify their respective NGB of any 
changes of address within 72 hours. It is understandable that an 
athlete may not be at the designated address when the collector comes 
to test. For example, an American Track and Field athlete training and 
competing abroad is very difficult to contact on a first attempt. The 
new agency will continue the NAN testing program, with the number of 
tests significantly increased.

Question 3. The adjudication process envisioned in the USOC Select Task 
Force Report does not specify who will represent the athlete in the 
process. Will the USOC provide the athletes with representation and 
will that representation include expert witnesses?
Answer: Athletes are free to select their own counsel. This is the 
current practice and the Task Force felt there was no need for a 
change. Also, the athletes made it clear that it was imperative that an 
individual accused of a doping offense be entitled to select his or her 
own attorney. However, the USOC does have a fund through which athletes 
who are successful in defending themselves in doping cases may seek 
reimbursement of reasonable defense costs.
                                 ______
                                 
                                                   October 14, 1999
           Memorandum from Gary I. Wadler to Hon. John McCain,

Doping in Sport: From Strychnine to Genetic Enhancement, It's a Moving 
Target

I want to begin today by taking a moment to recount an event that took 
place more than 100 years ago.
The year was 1886, a period characterized by the genesis of new 
industries and the creation of great wealth. A period when we believed 
anything was possible. A period, in short, much like today.
1886 is a significant year for our conference because it marked the 
first recorded fatality from a performance enhancing drug.
An English cyclist died of an overdose of what is only known as 
``trimethyl,'' during a race between Bordeaux and Paris.
Of course, in the more than 100 intervening years, doping in sports, 
like the rest of technology, has grown in scientific and ethical 
complexity.
Indeed, so complex is this issue that we will see later in my remarks 
how we cannot even agree on precisely what constitutes doping--and 
these dueling definitions point to the heart of the problem.
The multi-stranded nature of the subject of doping is also reflected in 
the diversity of backgrounds of the participants here today.
In fact, looking over the list of this conference's attendees, I noted 
that only four participants in this conference are physicians. That's 
not as surprising as it might seem on the surface. It reflects the 
longstanding traditional orientation of the medical establishment.
Back when I was in medical school, our focus was on how drugs 
benefitted patients. After all, by statute, physicians are the ones who 
write prescriptions. Physicians are the conduit for new drug 
development with the scientific community.
Our principle concern, as physicians, was, and is the proper use of 
drugs, not their abuse.
Doping in sports was a subject that only a handful of physicians cared 
about. I suspect we barely spent 30 seconds on the subject in 
pharmacology. However, the same as with other forms of drug abuse, that 
is, sadly, no longer sufficient.
As my opening story suggests, the use, misuse and abuse of drugs have 
long shaken the foundations of both amateur and professional sports.
Competition, at its most basic level, appears to drive athletes to do 
whatever it takes to win. Perhaps the need to win at all costs is a 
Darwinian response, an adaptive mechanism, but we will leave that 
thought for another day.
We've seen that the problem is not new. History demonstrates that since 
recorded history began, athletes sought a competitive advantage by 
using various substances we call ergogenic aids.
Even as long ago as the 3rd century B.C., the Greeks, inventors of 
democracy and the Socratic method, were known to ingest hallucinogenic 
mushrooms to improve athletic performance. In the Roman era, gladiators 
used stimulants in the famed Circus Maximus (circa 600 B.C.) to 
overcome fatigue and injury, while other athletes experimented with 
caffeine, alcohol, nitroglycerine, opium and even the potent stimulant, 
strychnine.

Fast forward.

A new inflection point of abuse appeared in the 1950s with anabolic, 
androgenic steroids.
How prophetic were the words of Olga Fikatova Connolly, when in 1956, 
she proclaimed: ``these awful drugs (anabolic steroids) have changed 
the complexion of track and field.''
So did amphetamines change sports.
In the 1960s, the Danish cyclist, Knud Jensen and the English cyclist, 
Tommy Simpson died when their search for one kind of speed brought them 
fatally to another.
Remarkably, though the testing of horses for performance enhancing 
drugs dates back to 1910, the testing of humans for drug use in sports 
is a phenomenon of only the past quarter century.
It was as recent as 1965 that Arnold Beckett first applied sensitive 
gas chromatographic techniques to monitor drug abuse at an athletic 
event, the Tour of Britain cycle races.
And it was only in 1968 that the IOC medical commission actually 
published a banned list of drugs for the 1968 winter Olympics.
The introduction of the banned list was coincident with the development 
of new technologies in the laboratory and this confluence set the stage 
for a 35-year contest between those determined to gain an unfair 
athletic advantage by using drugs and the forensic detectives of the 
laboratory.
It's a struggle between the manipulators versus the investigators and 
each side's armaments grow more advanced each day.
Since the 1960s, an explosion of science and technology have brought 
countless new drugs to market, black and otherwise.
In what seems to be a variation of Newton's third law, which states 
that ``For every action there is an equal and opposite reaction,'' it 
appears as if for every new drug that is developed, some athlete, 
determined to gain athletic advantage, will misuse or abuse that drug. 
This should come as no surprise. We live in a culture where individuals 
seek to maximize performance by what ever means available.
Let's examine steroids as an example of Newton's third law meeting 
sports.
First isolated, structurally identified, and synthesized in the 1930s, 
anabolic steroids were used to promote a positive nitrogen balance in 
starvation victims and as a means of hormone replacement for those 
deficient in testosterone by means of disease or trauma.
New, positive applications of steroids continue to emerge. As recently 
as April 1999, two articles were published in J.A.M.A. exploring the 
therapeutic uses of anabolic steroids in the management of aids, and in 
dialysis patients.
Unfortunately, since its initial isolation in the 1930s, it didn't take 
long for anabolic steroids to become widely misused and abused by 
athletes--a problem that continues to plague sports to this very day.
And as science marches on, abuse is not far behind.
Some twenty years have passed since the first recombinant DNA molecules 
were constructed at Stanford University. Since then, the applications 
of genetic engineering, that is the artificial manipulation of the 
genetic code, have been numerous.
The techniques of altering the DNA of cells in order to change or 
produce biologicals has given rise to human growth hormone and to 
erythropoietin, to name but a few.
Recombinant human growth hormone means normal height for children 
otherwise destined to be dwarfs, but for the drug abusing athlete it 
means bigger, albeit not stronger, muscles. Erythropoietin means 
renewed vitality for those with anemia, but for the drug abusing 
athlete, it means greater endurance.
The dramatic abuse of the latest biotechnology breakthroughs 
crystalizes the need for an accepted working definition of the word 
doping.
This definition sits at the heart of any doping control program. 
Doping, a term that derives from the Dutch word ``doop'' referring to a 
viscous opium juice that was the drug of choice of the ancient Greeks.
In 1963, the Council of Europe established a definition of doping which 
the IOC slightly modified and adopted. It defined doping as ``The 
administration of or use by a competing athlete of any substance 
foreign to the body or any physiologic substance taken in abnormal 
quantity or taken by an abnormal route of entry into the body with the 
sole intention of increasing in an artificial and unfair manner his/her 
performance in competition. When necessity demands medical treatment 
with any substance which, because of its nature, dosage, or application 
is able to boost the athlete's performance in competition in an 
artificial and unfair manner, this too is regarded as doping.''
It is a definition that I happen to like, but a definition that has 
been abandoned.
According to the IOC Medical Code currently posted on the IOC web site, 
doping is presently defined as ``the use of certain substances and 
methods intended to enhance and/or having the effect of enhancing 
athletic performance, such practices being contrary to medical 
ethics.'' However, like the banned drug list itself, the definition of 
doping is a moving target.
And speaking of lists, the banned drug list must be based on a 
generally recognized body of science, and where one does not exist, it 
must be based on some clearly reasoned rationale, including issues 
related to laboratory science. I am sure we would all agree that the 
current IOC list falls short in this regard.
Most recently, the Olympic Movement Anti-doping Code, as articulated in 
February of this year in The World Conference on Doping defined doping 
``as the use of an artifice, whether substance or method, potentially 
dangerous to athletes' health and/or capable of enhancing their 
performances, or the presence in the athletes' body of a substance, or 
the ascertainment of the use of a method on the list annexed to the 
Olympic movement anti-doping code.''
It is a good thing we are holding this conference in a law school!
Although I personally prefer the first definition of doping that speaks 
of sole intent, it is still problematic. The linchpin of that 
definition is the notion that we can actually assess one's intent, both 
qualitatively and quantitatively.
About intent, Peter Marc Latham in the early 1800s wrote: ``Poisons and 
medicines are the same substance given with different intent.''
Since there is no way to measure an athlete's intent, a surrogate 
measure, the testing of bodily fluids, especially urine, has become a 
marker for assessing intent.
However, the neuro-chemical-biological pathways from what is on an 
athlete's mind, call it intent or call it artifice, to what comes out 
in his or her urine is tortuous and replete with physiologic treachery.
It has led to expensive and explosive litigation centered around the 
concept of strict liability, a subject I am sure we will hear much more 
about at this conference.
Creatine underscores a second problem when defining doping.
All would agree, that in recent years, the physiologic substance 
creatine has been taken in large amounts by an extraordinary large 
number of athletes, a process called creatine loading.
All would agree that at least in certain high intensity, short duration 
exercises, it enhances performance.
But, to date, there is no practical way to ban the practice and many 
would argue that beyond pragmatism, there is no definitional basis to 
ban it. Not only is creatine naturally produced by the body, it is 
widely found in a variety of food stuffs, such as meat and fish, thus 
raising the question: when is a physiologic substance considered to 
have been taken in abnormal quantity with the intent of gaining an 
unfair athletic advantage?
Employing urinary cut-off levels to eliminate its abuse remains a 
possibility. However, because creatine is so ubiquitous, the use of 
urinary cut-off levels probably would devolve into little more than an 
attorney's field day.
Inherent in any definition of doping is the notion that the technology 
exists that permits the definitive detection of substances foreign to 
the body or physiologic substances taken in abnormal quantity. Good 
luck!
Because advances in biotechnology have outpaced advances in laboratory 
science, the detection of certain drugs or biologicals is today either 
impractical or impossible. To wit, human growth hormone, erythropoietin 
and most recently, IGF-1.
IGF-1 is a polypeptide that is indirectly responsible for most of the 
growth-promoting effects of hGH. It is associated with a plethora of 
physiologic functions many of which are shared with hGH. These include 
increased protein synthesis, decreased protein breakdown and increased 
fat metabolism--all attractive to athletes.
Its approved uses in the United States are for a certain form of 
dwarfism and a rare form of insulin resistant diabetes. Like hGH, IGF-1 
is not detectable with current screening methods and like hGH it needs 
to be administered intramuscularly.
One of the newer performance enhancing drugs, relatively little is 
known about its abuse patterns, cost, availability and long term side 
effects. The cost of IGF-1 is about $3 thousand per month and 
counterfeit products are problematic.
It is noteworthy that phase ii trials are currently underway utilizing 
a novel complex of IGF-l and its major binding protein BP-3 to treat 
the degradation of muscles in a variety of medical conditions.
Those are some of the drugs we know but what about those we don't know? 
New drugs that are not listed. Hem Verbruggen, head of International 
Cycling Federation has suggested that ``undetectable drugs are 90 
percent of estimated doping cases.''
We were told that in Atlanta, performance enhancing drugs would meet 
their match in high resolution mass spectrometry. And yes, it is an 
effective technique--but when investigators introduce something so new, 
it often takes a number of years for the technology to withstand legal 
challenges. To wit, O.J. And DNA. That's why the Atlanta games were 
clouded by the presence in the urine of the ``new'' stimulant drug, 
bromantan, and why political machinations resulted in five athletes 
being cleared of a doping offense by the on-site court of arbitration 
in sport.
Too often, it seems, we define international sports competitions and 
events, not by the city or country in which they were held, but by the 
drug that made the headlines--the Clenbuterol Olympics, the Bromantan 
Olympics, the Growth Hormone Games, the Steroid Pan Am Games, or the 
EPO Tour de France, or as some have suggested the Tour des Drugs.
There is good reason for this. If we look at the number and kind of new 
drugs that have come to market since the introduction of doping control 
in the Olympic movement in 1960s, the number is staggering.
This complicates life for every athlete who is faced with taking a drug 
or a biological substance for any reason whatsoever. He or she must 
first ask a series of questions: Is it banned? Will it adversely affect 
my performance and is it safe?
Those determined to gain an unfair advantage will ask the additional 
questions: Does it work? How does it work? Can it be detected during 
competition or out of competition, and perhaps, he or she might even be 
concerned about its long and short term safety?
That's today. But what about tomorrow? What is around the corner--brake 
drugs, blood substitutes, genetic manipulation? It is not a matter of a 
brave new world, but of brave new worlds.
Cyproterone acetate, also known as a Cyprostat and Androcur, is a 
synthetic steroidal antiandrogen and contraceptive hormone used in the 
treatment of prostate cancer in men, hair loss in women and precocious 
puberty in children.
Not available in the United States, this so-called ``brake drug'' which 
has been associated with the development of liver tumors has allegedly 
become popular amongst female gymnasts because it puts the brakes on 
sexual development keeping the hips narrow and the breasts small.
And just as researchers are closing in on a method to detect the abuse 
of EPO, a potentially dangerous new EPO replacement, which is likely to 
increase endurance, has surfaced.
The substance is perfluorocarbon, or PFC, a substance with enormous 
oxygen-carrying capacity. It has been suggested that the abuse of this 
synthetic blood--like substance first surfaced in Nagano where it had 
been allegedly abused by cross-country skiers and speed skaters.
The International Cycling Federation has issued warnings about PFC to 
its national federations.
Although not officially on the market in the United States, there is 
active research into PFCs for legitimate medical use. PFC can 
significantly increase endurance by delivering more oxygen to working 
muscles.
With the global market for blood substitutes probably exceeding $2 
billion, the number of new products will undoubtedly continue to grow. 
For example, active research is continuing using purified bovine 
hemoglobin rather than products of human origin or the use of PFCs to 
carry oxygen, and work continues on genetically engineered blood 
substitutes.
As we move into the next millennium, we are at the cusp of gene therapy 
for the correction of defective human genes that cause or promote 
certain genetic diseases, and designer genes cannot be far behind. 
Human skin has already been genetically engineered.
Combining cloning with genetic engineering, so called germ line 
therapy, will make possible the passage of genetic changes from one 
generation to the next.
It was only six months ago that scientists achieved one of the most 
coveted goals in biology, isolating from human embryos, a primitive 
cell, called a pluripotent stem cell, that can grow into every kind of 
human tissue, including muscle, bone and even brain.
Already stem cells have been used to grow human heart muscle cells 
which beat in unison in a petri dish, as well as nerve cells, bone, 
cartilage and skeletal muscle. To insure that stem cell research is 
conducted in an ethically sound manner, just last month, an NIH special 
working group was formed by the director of the NIH to develop research 
guidelines.
If this sounds like the twilight zone, think twice. Only five months 
ago, researchers at the University of Pennsylvania discovered a form of 
gene therapy to counter muscle degeneration associated with aging.
The injection of this gene limits the effect of IGF-1 to the skeletal 
muscles into which the gene is directly injected obviating any adverse 
effects of IGF-1 on the rest of the body.
With this technique young mice experienced a 15% increase in muscle 
strength, and old mice a 27% increase. Accordingly, the gene has been 
dubbed the ``fountain of youth'' for skeletal muscles.
But in the world of doping, milestones become millstones.
The author of the original study has already expressed concern that 
this technology may be sought out by athletes who are seeking a 
competitive edge. Interestingly, muscle strength increased without any 
exercise and there was no way to detect the use of gene therapy from 
analyzing the blood.
Trials are to begin in monkeys and, in the not too distant future, the 
first human study may be done in people with a form of muscular 
dystrophy.
And in another study, IGF-1 producing genes have been successfully 
introduced into mouse embryos. Is it a stretch that with the new 
technologies of genetic engineering that we are arming parents with the 
tools to create designer offspring whether inside the uterus or out of 
it?
Of course, the ethical, moral and biological debate transcends sports. 
Indeed, it touches on the transcendent as George Wald, the Nobel Prize-
winning biologist and Harvard professor, opined: ``Recombinant DNA 
technology (genetic engineering) faces our society with problems 
unprecedented not only in the history of science, but of life on earth. 
It places in human hands the capacity to redesign living organisms, the 
products of some three billion years of evolution.''
We stand at the brink of an uncertain future. But I personally believe 
that the unpredictability and the velocity of change are not an excuse 
for reserving judgment about some profound distinctions that should 
fundamentally govern our perspective on the role of sports in our 
social fabric.
With that in mind, I would like to conclude by quoting the columnist 
George Will who reminds us: ``A society's recreation is charged with 
moral significance. Sport--and a society that takes it seriously--would 
be debased if it did not strictly forbid things that blur the 
distinction between the triumph of character and the triumph of the 
chemistry.''
And finally, in order that we not blur the distinctions George Will 
speaks of, what we must do in this complex and challenging environment, 
is confront the issues related to doping from the broadest possible 
perspective.
Tempting as it is to get consumed by the intricacies of anabolic 
steroids, EPO or hGH, I urge you to think expansively and inclusively, 
to keep the big picture in mind, and to maintain an aerial view, for 
these drugs are only specific examples that stretch along the continuum 
from strychnine to genetic engineering.
Only in that way can we hope to forge a consensus, a unified, expert-
wide point of view that will help us put the details and the subtleties 
in proportion.
Stay tuned.
                                 ______
                                 
                                                   October 13, 1999
                Memorandum from Doriane Lambelet Coleman
Re: Evaluation of Proposals by IOC and USOC to Reform their Doping 
Control Programs

    In preparation for my testimony on October 20, 1999, before the 
United States Senate Committee on Commerce, Science, and 
Transportation, I have reviewed the IOC and USOC proposals to reform 
their doping control programs. The evaluation which follows is based on 
the proposals contained in the following documents of the IOC and USOC, 
which were the most recent that I was able to obtain:

        <bullet>  With respect to the IOC, I have reviewed the document 
        designated as ``Draft 5--9th September 1999, Foundation: World 
        Anti-Doping Agency--Statutes,'' and the document designated as 
        the ``Olympic Movement Anti-Doping Code 1999'' with an 
        effective date of January 1, 2000.
        <bullet>  With respect to the USOC, I have reviewed the Special 
        President's Newsletter Number Six, dated September 28, 1999, 
        and the Report of the USOC Select Task Force on Drug 
        Externalization, dated September 30, 1999.

              1. SUMMARY EVALUATION OF THE IOC'S PROPOSAL

    The IOC's proposal can be easily characterized as yet another false 
start. It is primarily show over substance, and does not seriously 
respond to the public's call for the Olympic Movement's anti-doping 
program to be made independent of and externalized from the IOC and the 
subsidiary organizations within that Movement.
    The proposal suggests the creation of a new entity that is not 
formally tied to the Olympic Movement, which it calls the 
``Foundation,'' but it does not give that Foundation any real authority 
whatever in connection with the Olympic Movement's anti-doping program. 
Thus, for example, the Foundation would not do or cause to be done 
scientific research relevant to the anti-doping effort; it would not 
develop a new drug testing program, even one based on the existing 
program; it would not do drug testing; it would not do sample analysis 
(or cause laboratories that it would accredit pursuant to standards 
that it would establish); it would not evaluate suspicious samples; and 
it would not prosecute athletes charged with positive tests. It would 
not even know about the existence either of suspicious samples or 
positive tests. In sum, the proposal suggests nothing more than the 
creation of a blue ribbon advisory board controlled by the IOC and its 
subsidiary organizations.
    As I will detail below, the proposal suggests that the Foundation 
would have a hand in ``supporting,'' ``promoting,'' or ``coordinating'' 
aspects of the Olympic Movement's anti-doping efforts, but the 
responsibility actually to make decisions and to undertake the efforts 
would continue to reside exactly where they are today, namely with the 
IOC and the Olympic Movement generally. Put another way, the IOC's 
proposal would neither externalize nor make independent of that 
organization any significant anti-doping responsibilities.
    When one considers the additional fact that the proposal suggests a 
governing structure for the Foundation that leaves the balance of power 
in the hands of the Olympic Movement so long as it is willing to pay 
for that power (quite literally), the illusory nature of the proposal 
as a whole becomes crystal clear.

                A. The Principal Merits of the Proposal
    Having said this, the IOC's proposal does contain one positive 
aspect: It reflects that, for the first time, the IOC is willing to 
consider some truly independent observation of and participation in 
some aspects of the Olympic Movement's anti-doping program. It does 
this by allowing for individuals on the Foundation's Board to be 
``designated by the intergovernmental organizations, governments, 
public authorities or other public bodies involved in the fight against 
doping.''

                B. The Principal Defects of the Proposal
    As I suggested above, the principal and overriding defect of the 
IOC's proposal is that it neither externalizes nor makes independent of 
the IOC or the Olympic Movement any significant aspect of the anti-
doping program. As I will detail below, the Foundation would neither 
have the independent authority to do anything--apart from ``promoting'' 
anti-doping efforts, and ``recommending'' measures to the IOC, for 
example--nor would its governing Board be independent of the IOC or the 
Olympic Movement, as it is explicitly contemplated that the balance of 
power would remain with the IOC so long as that organization was 
willing to pay for it. Needless to say, given that the calls for reform 
uniformly required both externalization and independence of the anti-
doping program, this proposal is a non-starter. Given this, it is my 
view that the proposal is not even a good-faith effort to respond to 
those calls for reform, and cannot legitimately be the basis for an 
honest negotiation between the IOC and those in and out of government 
who seek that reform.

          The Foundation would be located in Switzerland, the seat of 
        the IOC. To the extent that the appearance of independence 
        matters, this is not an appropriate situs for the new agency.
        <bullet>  The Foundation would not assume the doping control 
        responsibilities of the Olympic Movement. Indeed, it appears 
        that all the Foundation would be authorized to do would be to 
        ``promote,'' ``coordinate,'' and ``reinforce,'' ``encourage,'' 
        and ``support'' the anti-doping efforts of others, and to 
        ``organize'' persons and entities interested in the fight 
        against doping. Reading the Foundation document together with 
        the proposed Anti-Doping Code, it becomes clear that any real 
        authority the Foundation might have is illusory, as the Code 
        repeatedly refers to the Foundation's ability only to 
        ``recommend'' anti-doping measures to the IOC's Executive 
        Committee, including updates to the list of prohibited 
        substances and standards for laboratories. Ultimately, the 
        significance of this lack of authority is that the IOC's 
        proposal does not contemplate the externalization of any 
        significant aspect of its anti-doping program.
        <bullet>  The Foundation Board would be comprised of at least 
        thirteen individuals from the Olympic Movement, including six 
        designated by the IOC itself (three presumably by its Executive 
        Committee or President, and three by its Athletes' Commission), 
        three from the International Federations, and three from the 
        Association of National Olympic Committees. The document 
        specifically provides that there will be an equal allocation of 
        power on the Board between those members who are from the 
        Olympic Movement and the public authorities who would comprise 
        the remaining members. Again, to the extent that the reform 
        effort is intended to result in independence from the 
        stakeholders, this is not accomplished in the IOC's proposal.
        <bullet>  The Foundation document also specifically provides 
        that members from the Olympic Movement would out-number the 
        public authority members by at least one so long as the Olympic 
        Movement contributes more of the operating budget of the 
        Foundation relative to the contributions of the public 
        authorities or others. The Foundation Board also would be 
        authorized to select its own ``chairman,'' etc. Because Mr. 
        Samaranch has already announced that in exchange for a seat on 
        the Board, he intends to contribute $25 million from the IOC's 
        coffers to start the Foundation, unless the public authorities 
        or others are willing to ante up $25 million plus $1, the 
        Olympic Movement and perhaps even Mr. Samaranch himself will 
        control the Foundation. This result would bring the matter of 
        the Olympic Movement's anti-doping program back to ground zero, 
        and nothing will have been accomplished.
        <bullet>  The Foundation Board is required to meet only once a 
        year. Given the complexity and multitude of problems that need 
        to be addressed, this is clearly insufficient. Moreover, when 
        considered in conjunction with the provisions that would 
        establish an Executive Committee of the Board, which would 
        actually run the Foundation, it is at best unclear that the 
        Board is intended to do anything of real substance.
        <bullet>  The Foundation would be entitled but not required to 
        act in consultation with legal and scientific advisors. Given 
        that the issues that plague the Olympic Movement's anti-doping 
        program lie squarely at the intersection of law and science, it 
        must be required to act in consultation with such experts.
        <bullet>  The Foundation would be required to publish reports 
        of its activities only once each year. Given that transparency 
        is a real concern, this proposal is certainly deficient.
        <bullet>  The proposal contemplates that ``the actual 
        management and running of the foundation'' would be done by an 
        Executive Committee of the Board, comprised of five-to-nine 
        members selected by the Board itself. Assuming that the 
        majority of the Board is comprised of individuals from the 
        Olympic Movement, it is entirely possible, if not probable, 
        that the entire composition of the Executive Committee would be 
        individuals from the Olympic Movement. Again, this is back to 
        ground zero; nothing will have been accomplished.

             2. SUMMARY EVALUATION OF THE USOC'S PROPOSAL 
    In stark contrast to the IOC proposal, it is clear from the text of 
the USOC's proposal that at least its Task Force on Drug 
Externalization is seriously committed to effective drug testing, and 
to the principle of externalization. In this latter regard especially, 
the USOC's proposal is strong: It contemplates the externalization of 
all aspects of the USOC's anti-doping efforts. Thus, the Task Force has 
suggested that the new agency would have all the authority that the 
USOC itself now has, in conjunction with the NGBs, to undertake or 
commission relevant research; to conceive an effective drug testing 
program; to do drug testing; to investigate suspicious samples; and to 
prosecute athletes whose samples are positive. It is evident that the 
Task Force has done a thorough and thoughtful job in proposing its 
version of a new anti-doping program to the Executives and the Board of 
the USOC. Thus, while this proposal is defective in certain respects 
which are important and which I detail below, it is in general a very 
good beginning, and the Task Force ought to be commended on its effort.

                A. The Principal Merits of the Proposal

        1  The domestic anti-doping program would be completely 
        externalized (with the exception of laboratory analysis).
        <bullet>  The NGBs also would be out of the business of drug 
        testing and particularly of prosecuting their own athletes.
        <bullet>  Substantial monies would be devoted to the effort, 
        including money for peer-reviewed research, especially relating 
        to the endogenous substances, EPO, hGH, and testosterone.
        <bullet>  All sample collection and testing would be conducted 
        in accordance with the relevant International Standards 
        Organization (ISO) Standards.
        <bullet>  There would be a substantial increase in no-notice 
        testing of athletes who are subject to the anti-doping program.
        <bullet>  The adjudications process would be developed 
        independently of the Olympic Movement, namely by AAA in 
        conjunction with CAS.
        <bullet>  All drug testing results should be screened by 
        experts for probable cause before a prosecution is commenced; 
        and that the work of the new agency should be transparent.
        <bullet>  That positive and prophylactic educational measures 
        are essential to reinforce the ethical culture of young 
        athletes in particular.
        <bullet>  That a partnership with Olympic sponsors and the 
        Federal Government is appropriate in this area.

                B. The Principal Defects of the Proposal
    The principal defect of the proposal is actually its Achilles Heel; 
if it is not remedied, all other reform risks being illusory: While the 
Task Force, with the apparent support of President Hybl, has proposed 
externalization of all drug testing operations, it has failed 
simultaneously to provide for independence for the new agency that 
would administer them. Specifically, by proposing that all members of 
the board of the new agency are to be selected from among members of 
the USOC or by members of the USOC, the Task Force in essence has 
proposed the creation by the USOC of a wholly-owed (and controlled) 
subsidiary. This formula would guarantee that the stakeholders in the 
enterprise will continue to govern the new agency. Stakeholder control 
of Olympic drug testing has in principal part caused the drug crisis 
with which we are faced with today; to permit continued stakeholder 
control of the new agency would be to perpetuate the status quo.
    The proposal's other principal defects include:

        <bullet>  Its failure to provide an opportunity for the public, 
        including government officials and others, to comment on the 
        details of the new agency's proposed structure, 
        responsibilities, and procedures, including its adjudications 
        procedures, as the proposal is being developed and before it is 
        implemented. While the Task Force is certainly comprised of 
        qualified and thoughtful individuals, they do not represent the 
        spectrum of interests and experience that is necessary to 
        assure the best program possible. And the USOC itself is 
        similarly handicapped.
        <bullet>  Its failure to detail how the new agency would be 
        staffed; again, the significance of complete independence from 
        the Olympic Movement in this regard is critical to the success 
        of the effort.
        <bullet>  Its failure to detail how the ``highly-qualified 
        [scientific] experts'' who will advise the new agency in 
        several respects are to be selected. This has been a problem 
        for the USOC in the past, as it has tended to use only experts 
        who were part of the Olympic Movement or at least not in 
        conflict with the larger (economic) interests of the Movement. 
        The new agency must be required to develop a list of experts 
        who are unassailably independent, specialized in the 
        appropriate respects, and otherwise highly-regarded in the 
        larger scientific community.
        <bullet>  Its inclusion of the current IOC laboratories in its 
        proposed distribution of research monies. These laboratories 
        are fraught with conflicts-of-interest which have been largely 
        responsible for the current system's failures: they make their 
        money developing tests for prohibited substances for the 
        Olympic Movement, processing urine samples, and defending both 
        their tests and the sample processing as part of any subsequent 
        prosecution. Moreover, because they are heavily invested in 
        their existing scientific positions, many of which have been 
        subject to legitimate challenge, it is likely that they would 
        expend at least part of any research monies given to them under 
        this new program to shore up those positions, rather than to 
        work toward an independent view of their merits or flaws. 
        Finally, these laboratories have, with some exceptions, 
        typically refused to have their research and conclusions peer-
        reviewed.
        <bullet>  Its failure to address squarely the problem of 
        endogenous substances. The USOC has acknowledged that its 
        procedures (handed down by the IOC and the IF's) for detecting 
        the use of testosterone, EPO, and hGH are either flawed or non-
        existent. Nevertheless, it continues to list these as 
        prohibited substances and, in the case of testosterone and 
        possibly EPO, it continues to subject athletes to prosecution 
        under the current flawed procedures.

    While including these substances on the prohibited substances list 
may be justified for its in terrorem effect, there is no justification 
for prosecuting or allowing the prosecution of athletes based on flawed 
scientific theories. To do so in circumstances where it knows that the 
theories are defective is not only reckless, but also in flagrant 
disregard for its statutory authority to protect the rights of athletes 
to compete.
    Additionally, such prosecutions do (in the case of testosterone) 
and will (in the case of EPO and hGH) to burden both the system and the 
athletes with fatally defective allegations, and ultimately tarnish the 
integrity of the entire system. (It is no justification that these 
flawed procedures are all that exist.)
    On the other hand, because the endogenous substances appear to be 
the drugs-of-choice among some elite athletes, it is critical that the 
initial research efforts be concentrated in these areas, so that, if 
possible, iron-clad tests for the detection of the use of these 
substances are developed.
    Alternatively, until such a test is developed, some other less 
punitive sanction should be conceived for a suspicious sample that does 
not include the unfair stigma of a public charge of doping.

        <bullet>  Its failure to provide defense counsel and related 
        expertise for athletes who cannot afford their own. Athletes 
        who are well-known and who have money have a significant 
        advantage in drug testing proceedings, principally because 
        those proceedings often require expert testimony to counter the 
        prosecution's own expert witnesses. The system will not be fair 
        unless all athletes are afforded at least a competent defense.
        <bullet>  Its failure to assure that all athletes similarly-
        situated are treated similarly in the adjudications process. It 
        is essential to the fairness of the new system that all 
        athletes are treated consistently. The proposal also fails to 
        ensure that, in developing the new adjudications process, AAA 
        and CAS will be required to develop a system of precedents. 
        Incredibly, the proposal also affirmatively proposes that 
        arbitrators in individual cases be permitted to set the burden 
        and standard of proof. The standard and burden of proof must be 
        uniform across all cases; the burden must be on the prosecutor; 
        and at least until we are confident that the science, 
        collections, transport, and analysis that are involved in drug 
        testing cases are strong enough to reduce to almost zero the 
        possibility of false positives, the burden must remain as it is 
        in the existing rules, ``beyond reasonable doubt.'' The Olympic 
        Movement is plagued by the legitimate criticism that it is 
        arbitrary in the manner in which it handles drug testing cases, 
        favoring some athletes in some circumstances, disfavoring 
        others athletes in other circumstances. The principal cure for 
        this is the establishment of a fair adjudications process, 
        based on precedents and a uniformly-applied standard and burden 
        of proof ``beyond reasonable doubt.''
        <bullet>  Its continued reliance on the ``standard 
        documentation package'' for purposes of evaluating probable 
        cause, etc., that an athlete has engaged in doping. This 
        ``standard documentation package'' is referred to in various 
        existing documents having to do with the obligations of the 
        Olympic Laboratories and the USOC to provide information about 
        the analysis of a sample to the NGB and the athlete at issue. 
        (I do not know whether it is an IOC term or one devised by the 
        USOC.) This package is almost always materially deficient, as 
        it generally contains only the bare minimum of information. 
        Athletes subject to doping charges routinely and reasonably 
        demand all of the documentation relevant to their sample. The 
        inherent unfairness of denying an athlete access to all such 
        information (some of which might be exculpatory) currently 
        results in an almost routine determination (by the relevant 
        hearing panel or the NGB, for example) that the laboratories 
        should provide that additional information. This document 
        production is typically done piecemeal, thereby delaying the 
        resolution of doping cases. Thus, while there is nothing wrong 
        with the term ``standard documentation process,'' its meaning 
        must be understood to include all documents that are relevant 
        to the testing and investigation of a suspicious sample.
                                 ______
                                 
               Report from the Dulce Conference on Doping
                        FINAL CONFERENCE REPORT
    The Necessary Components of an Anti-Doping Program and Related 
                               Documents
    On May 7 and 8, 1999, the Duke Center for Sports Law and Policy 
hosted the Duke Conference on Doping in Sport. The objectives of the 
conference included the gathering together of experts and leaders from 
the world of sport to discuss the principal problems implicated by 
doping, and to develop a summary of the necessary components of a 
proper anti-doping agency or program. The group met both in plenary and 
break-out sessions. The break-out sessions were specifically designed 
to facilitate discussion of such an agency or program's structural, 
scientific, and legal components. What follows is a summary description 
of those components.

I. The Necessary Structural Components of an Anti-Doping Agency or 
Program 

        A. Externalization is necessary and should be put into effect 
        immediately. Functions to externalize include:

        1. selection of athletes to be tested
        2. sample collection
        3. sample analysis
        4. reporting of analytical results
        5. screening of results and referral (or not) to adjudication
        6. adjudication
        7. possibility of externalization of sanctions should be 
        studied. Sanctions should remain with the NGB, but a potential 
        conflict of interest involves NGBs sanctioning their star 
        athletes too lightly, in which case rectification by an 
        independent agency might become necessary.

        B. The Canadian Model looks very good in the current 
        international context and is a model to which future programs 
        can aspire.
        C. Educational activities should remain with the USOC and the 
        NGBs.
        D. Public health concerns should be a top priority, and all 
        governments should do a better job in this area. Effective 
        doping control requires public health education about doping in 
        order to attract public support and funding.
        E. The USOC should recognize that it has an image and 
        credibility problem in the international community and must 
        make strenuous efforts to rectify the situation, by means of 
        externalization, for the sake of the anti-doping effort and the 
        integrity of Olympic and amateurs sports as a whole.
        F. The Court of Arbitration for Sport is still too entangled 
        with the IOC and should be located somewhere other than 
        Lausanne.

        1. It should be supported by truly independent funding.
        2. It should have a Charter of Principles to guides its 
        adjudications.
        3. It should provide access to counsel for athletes.
        4. It should include people possessing relevant scientific 
        expertise.
        5. All of its panels should adopt regularized procedures and 
        report out both judgments and the reasons for those judgments.

        G. The independent international anti-doping agency or program 
        should make research, standards, and models a top priority.

        1. It should develop minimum standards that are expressed in a 
        protocol for determining which substances are placed on the 
        banned substances list and for revising testing procedures.
        2. It should recognize different physiological standards for 
        males and females.
        3. It should include a government liaison with an intelligence-
        gathering capacity for collecting information about doping 
        practices, drug trafficking, and the behavior of coaches and 
        others who have access to high-performance athletes.

II. The Necessary Scientific Policy Components of an Anti-Doping Agency 
or Program 

        A. The objective of any anti-doping program should be to 
        eradicate the use of drugs in sport.
        1. The use of drugs in sport is unethical.
        2. The use of drugs in sport in some instances is detrimental 
        to the health and well being of the athlete.

        B. This objective must be approached from two perspectives.

        1. The society must subscribe to a program of prevention 
        through values and health-based education.
        2. The society must subscribe to a program of deterrence and 
        punishment through a strong drug testing program.

        C. The following are essential with respect to the program of 
        prevention through values and health-based education.
        1. It should focus on the public health aspects of drug use, 
        including both psychological/ethical and physical health.
        2. It should be built into the sports system at its origins. 
        Understanding the importance of training and competing with 
        integrity, and of long-term physical and ethical health cannot 
        be accomplished with rhetoric and billboards directed at mature 
        athletes.
        3. It should be designed to counteract the negative commercial 
        messages that encourage athletes to do drugs. For example, it 
        must counteract the message that sport supplements are not only 
        acceptable but desirable; and the message that the only place 
        that counts is first place.
        4. It is the responsibility of every adult who is involved with 
        athletes, including parents, teachers, coaches, sports 
        governing bodies, commercial enterprises that sponsor sporting 
        events, and local and national government.

        D. The following are essential with respect to the drug testing 
        program:

        1. It must be comprehensive and national/international. 
        Harmonized drug testing in all sports is essential. Children 
        and athletes must not get mixed messages depending upon the 
        sport about whether drugs are or are not acceptable.
        2. It must be scientifically sound. Peer-reviewed research must 
        exist to back-up the tests that are conducted. The tests must 
        be designed to achieve a low-to-nonexistent rate of false 
        positives.
        3. Prosecutions must be brought only on strong evidence of 
        guilt. They must be backed-up by peer-reviewed research, the 
        sample's chain of custody must be intact and thoroughly 
        documented, and the athlete must be presented with a complete 
        packet of forensic information on the sample.
        4. The laboratories/scientists that conduct the relevant 
        research and the sample analyses must be independent of the 
        sports governing bodies. The existing IOC laboratories are a 
        good beginning, and the group supports their evolution toward 
        independence; however, the following additional measures must 
        be implemented:

                a. The laboratories must become completely independent.
                b. They must permit outside audits of all of their 
                operations, including of the development of the 
                underlying science, their relationships, and forensic 
                toxicology.
                c. All of their procedures must meet the standard 
                established by the International Standards Organization 
                (ISO), and with respect to the analytical work, the ISO 
                standards should be forensic rather than clinical.
                d. They must allow their research to be peer-reviewed, 
                and because they continue to lack certain critical 
                expertise, this research must be complemented by that 
                of independent scientists in relevant fields.

        5. There must be an independent oversight board charged with 
        the supervision of the drug testing program, including of the 
        laboratories and research, that is comprised of outside 
        qualified experts in the fields of science, law, and public 
        policy.
        6. The list of banned substances must be compiled based upon 
        the reasons for doping control, i.e., protecting the public 
        health and preventing unethical competition. The list should 
        include endogenous substances that are proven in accordance 
        with accepted procedures and protocols to be ergogenic aids 
        and/or detrimental to the public health. However, cases must 
        not be brought based on an endogenous substance unless there is 
        a test for that substance that is scientifically sound and 
        validated in accordance with accepted procedures and protocols.

III. The Necessary Legal Components of an Anti-Doping Agency or Program 


        A. The adjudication process should be entirely independent of 
        the governing bodies.

        1. The governing bodies should have an educational role, 
        informing athletes of the dangers of doping and of the ethical 
        foundation of sports.
        2. National governing bodies should not be placed in an 
        adversarial role vis a vis their athletes in doping cases.

        B. The adjudicatory process must include the following 
        safeguards:

        1. Prosecutions will be based on scientifically determined 
        violations.
        2. All prohibited substances must detectable in the athlete's 
        urine or body fluids through a method that is scientifically 
        valid.
        3. All prohibited substances must be banned on the basis of 
        research that takes into consideration such relevant factors as 
        ethnicity, age, gender, and medical history.

        C. The adjudicatory process should proceed in three distinct 
        stages.

        1. Stage 1. There should be a preliminary review by a panel 
        composed of relevant experts, including physicians, other 
        scientists, and lawyers.

                a. The purpose of this review is to determine if all 
                procedures were followed for the collection, storage, 
                transportation, and testing of the athlete's sample and 
                if, based on the laboratory report, the results of the 
                analysis are sufficiently strong evidence of the 
                athlete's guilt.
                b. During this preliminary stage of the proceedings, 
                the identity of the athlete is held strictly 
                confidential.
                c. If the review panel finds that the published 
                mandatory procedures for the collection, storage, 
                transportation, and testing of the sample were not 
                strictly followed, it must declare the sample invalid 
                and end the process.
                d. If the review panel determines that the collection, 
                storage, transportation, and testing of the sample 
                complied fully with the rules, and that the analysis 
                provides sufficiently strong evidence of the athlete's 
                guilt, it will forward the case for prosecution. At 
                that point, there may be a rebuttable presumption of 
                the athlete's guilt.
                e. The independent anti-doping agency or program will 
                be responsible for the prosecution of all doping cases.
                f. The review panel will make periodic public reports 
                of the number of cases dismissed in this manner, and 
                the basis for each dismissal. The names of the athletes 
                involved will not be disclosed.

        2. Stage 2. The determination of whether a doping violation 
        took place must be decided by qualified decision makers.

                <bullet>  There currently are two possible models, 
                neither of which in its present form would satisfy the 
                requirements for inclusion in the new process. Each 
                model has advantages and disadvantages.

            (1) The first is the American Arbitration Association 
            (AAA).

                <bullet>  One of the advantages of AAA is its 
                familiarity and suitability for emergency disputes.

            (2) The second is the International Court of Arbitration 
            for Sport (CAS).

                <bullet>  One of the advantages of CAS is its potential 
                international acceptance, and thus potential for 
                finality.

                b. One of the most important criterion for the body 
                ultimately selected to decide the merits of cases is 
                the employment of adjudicators with experience deciding 
                contested scientific disputes.
                c. There must be regularized procedures for all hearing 
                panels.
            (1) Panels must publish all decisions, and the bases for 
            the decisions.
            (2) If CAS is used, it would have to establish regional 
            panels to streamline the process.

                d. There must be a process for providing counsel to 
                athletes accused of a doping violation.

            (1) This might be accomplished through a Judge Advocate 
            General-type structure, which would provide both the 
            prosecutors and the defense counsel, under the direction of 
            an independent overseer.
            (2) Another possibility is the reliance on pro bono 
            counsel.
            (3) A third possibility is the use of an approved list of 
            counsel.
            (4) In the end, some combination of these three might be 
            employed.
                e. One issue left unresolved was at what point an 
                athlete should be suspended.

            (1) There was agreement that liability should not attach 
            before a suspicious sample was confirmed by a second 
            analysis of the sample.
            (2) There was some support for this confirming analysis 
            being done by a different laboratory than the one that 
            performed the initial analysis.
            (3) There also was support for the athlete's early 
            involvement in the preliminary stage of the process, to 
            raise limited compliance issues before the review panel. 
            There was not agreement about whether this would constitute 
            a hearing for purposes of the Amateur Sports Act, which 
            bars a suspension prior to a hearing.

        f. There was agreement that an athlete's certification of the 
        sample collection procedures could be used against him or her 
        in a contested hearing, although the athlete still could 
        challenge the collection.

            (1) For this reason, one of the important functions of the 
            national governing body would be the education of its 
            athletes in the process and their rights under the program.

        3. Stage 3. The final stage of the process involves proceedings 
        in the athlete's national courts or before international 
        federations.
                a. There was agreement that a credible and bona fide 
                arbitration process as outlined above would result in 
                minimizing the role of civil courts.

            (1) Either party court seek confirmation of the 
            administrative decision, and thus largely protect the 
            arbitration decision and the underlying dispute from 
            further court scrutiny.

                b. There was agreement on the need for harmonization 
                among the rules of the various federations to which an 
                athlete might be subject.
            (2) Any obligation that a national governing body had for 
            doping disputes under the rules of its international 
            federation would have to be delegated to the independent 
            doping agency.

            <bullet>  Thus, a sample tested outside the United States 
            would be subject to the same preliminary compliance review 
            that a sample generated in the United States would receive.
            <bullet>  And the failure to follow the requirements for 
            the collection, storage, transportation, and testing of the 
            sample by the foreign entity would result in the sample 
            being declared invalid
                           Conference Concept
    There is growing and substantial evidence that individuals across 
the spectrum of athletic competition--including children, collegians, 
Olympic performers and traditional professionals--are using drugs to 
enhance their training potential and ultimately, their chance of 
achieving competitive and financial success. The recent, highly-
publicized drug busts at the Tour de France, the suspensions of 
Olympians Michelle Smith de Bruin, Randy Barnes and Dennis Mitchell, 
Mark McGwire's use of androstenedione and reports that sales of that 
substance surged as a result of his achievements are but the prominent 
tip of the iceberg.
    The issue of drug use by athletes thus transcends the relatively 
narrow interests of single organizations. For example, the IOC and its 
constituent organizations, including the USOC, primarily are concerned 
with defining what constitutes illegal drug use in Olympic competition, 
funding the programs necessary to implement their elite drug control 
programs, and the impact of their efforts on the image of the Olympic 
Movement and its fund-raising capabilities. On the other hand, the 
larger domestic and international society is concerned with the impact 
of drug use among elite athletes on its ability to protect the health, 
ethics and expectations of children, on the social significance and 
value of sport that is drug-ridden, and on assuring the protection of 
individual rights including the right to work, the right to due process 
of law, and the right to privacy.
    The Duke University School of Law, in conjunction with its Center 
for Sports Law and Policy, will host a working conference in two parts, 
beginning on January 16, 1999, and reconvening on May 7-8, 1999, to 
address in an independent and comprehensive matter these broader 
societal concerns, and to provide an agenda for organizations that wish 
effectively to tackle the issue of drugs in sport. The conference will 
be include individuals spanning a spectrum of society, including 
persons and groups interested by the issue of drugs in sport. 
Specifically, Duke will invite both independent experts in the relevant 
fields of law, ethics, sociology, education, medicine, and athletics, 
and members of the affected sports organizations, including athletes 
and officials, and their corporate sponsors, to participate in a 
focused discussion of the problem of doping in sport. Special emphasis 
will be placed on (1) independence and the structure that independent 
governance of drug testing programs might take; (2) the science of 
doping and doping control; and (3) the legal concerns of accused 
athletes and governing organizations in maintaining effective doping 
control. In the course of the deliberations, current proposals for 
action pending before the United States and International Olympic 
Committees will be discussed. Although the conference will be by 
invitation only, the complete work of the participants will be open to 
the press, and all reports and papers presented or developed at the 
conference will be available to the public.


</pre></body></html>
